<html>
<title> - CURRENT PUBLIC LANDS AND FOREST BILLS</title>
<body><pre>[Senate Hearing 112-39]
[From the U.S. Government Publishing Office]



 
                                                         S. Hrg. 112-39

                 CURRENT PUBLIC LANDS AND FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 220                                S. 590
 
                           S. 270                                S. 607
 
                           S. 271                                S. 617
 
                           S. 278                                S. 667
 
                           S. 292                                S. 683
 
                           S. 322                                S. 684
 
                           S. 382                                S. 729
 
                           S. 427                                S. 766
 
                           S. 526                                S. 896
 
                           S. 566                                S. 897
 
 

                                    

                               __________

                              MAY 18, 2011


[GRAPHIC NOT AVAILABLE]





                       Printed for the use of the
               Committee on Energy and Natural Resources


                              __________





                    U.S. GOVERNMENT PRINTING OFFICE
67-289 PDF                    WASHINGTON: 2011
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  











               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 RAND PAUL, Kentucky
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
CHRISTOPHER A. COONS, Delaware

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     4
Cantwell, Hon. Maria, U.S. Senator From Washington...............     8
Lee, Hon. Mike, U.S. Senator From Utah...........................     7
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     6
Pool, Mike, Deputy Director, Operations, Bureau of Land 
  Management, Department of the Interior.........................    23
Risch, Hon. James E., U.S. Senator From Idaho....................     8
Udall, Hon. Tom, U.S. Senator From New Mexico....................     5
Wagner, Mary, Associate Chief, Forest Service, Department of 
  Agriculture....................................................    11
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Additional material submitted for the record.....................    51


                       CURRENT PUBLIC LANDS AND 
                             FORESTS BILLS

                              ----------                              


                         WEDNESDAY MAY 18, 2011

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:48 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. The 
purpose of today's hearing is to receive testimony on several 
bills pending before the subcommittee. We have 20 bills on 
today's agenda. All of these bills were considered by the 
subcommittee in the last Congress and a majority were reported 
by the committee on a bipartisan basis.
    The purpose of today's hearing is to simply update the 
record on these bills and to allow members, especially those 
who are new to the subcommittee, an opportunity to ask any 
questions that they might have.
    Because of the number of bills on today's agenda, I'm not 
going to read through the entire list. But at this time I'll 
include the complete list of bills in the hearing record.
    [The information referred to follows:]

    S. 220, to provide for the restoration of forest landscapes, 
protection of old growth forests, and management of national forests in 
the Eastside forests of the State of Oregon; S. 270, to direct the 
Secretary of the Interior to convey certain Federal land to Deschutes 
County, Oregon; S. 271, to require the Secretary of Agriculture to 
enter into a property conveyance with the city of Wallowa, Oregon, and 
for other purposes; S. 278, to provide for the exchange of certain land 
located in the Arapaho-Roosevelt national forests in the State of 
Colorado, and for other purposes; S. 292, to resolve the claims of the 
Bering Straits Native Corporation and the State of Alaska to land 
adjacent to Salmon Lake in the State of Alaska and to provide for the 
conveyance to the Bering Straits Native Corporation of certain other 
public land in partial satisfaction of the land entitlement of the 
corporation under the Alaska Native Claims Settlement Act; S. 322, to 
expand the Alpine Lakes Wilderness in the State of Washington, to 
designate the Middle Fork Snoqualmie River and Pratt River as wild and 
scenic rivers, and for ther purposes; S. 382, to amend the National 
Forest Ski Area Permit Act of 1986 to clarify the authority of the 
Secretary of Agriculture regarding additional recreational uses of 
national forest system land that is subject to ski area permits, and 
for other purposes; S. 427, to withdraw certain land located in Clark 
County, Nevada, for location, entry, and patent under the mining laws 
and disposition under all laws pertaining to mineral and geothermal 
leasing or mineral materials and for other purposes; S. 526, to provide 
for the conveyance of certain Bureau of Land Management land in Mohave 
County, Arizona, to the Arizona Game and Fish Commission, for use as a 
public shooting range; S. 566, to provide for the establishment of the 
national volcano early warning and monitoring system; S. 590, to convey 
certain submerged lands to the Commonwealth of the Northern Mariana 
Islands in order to give that territory the same benefits in its 
submerged lands as Guam, the Virgin Islands, and American Samoa have in 
their submerged lands; S. 607, to designate certain land in the State 
of Oregon as wilderness, to provide for the exchange of certain Federal 
land and non-federal land, and for other purposes; S. 617, to require 
the Secretary of the Interior to convey certain Federal land to Elko 
County, Nevada, and to take land into trust for the Te-moak Tribe of 
western Shoshone Indians of Nevada, and for other purposes; S. 667, to 
establish the Rio Grande del Norte national conservation area in the 
State of New Mexico, and for other purposes; S. 683, to provide for the 
conveyance of certain parcels of land to the town of Mantua, Utah; S. 
684, to provide for the conveyance of certain parcels of land to the 
town of Alta, Utah; S. 729, to validate final patent number 27-2005-
0081, and for other purposes; S. 766, to provide for the designation of 
the Devil's Staircase wilderness area in the State of Oregon, to 
designate segments of Wasson and Franklin creeks in the State of Oregon 
as wild rivers, and for other purposes; S. 896, to amend the Public 
Lands Corps Act of 1993 to expand the authorization of the Secretaries 
of Agriculture, Commerce, and the Interior to provide service 
opportunities for young americans; help restore the Nation's natural, 
cultural, historic, archaeological, recreational and scenic resources; 
train a new generation of public land managers and enthusiasts; and 
promote the value of public service; and S. 897, to amend the Surface 
Mining Control and Reclamation Act of 1977 to clarify that uncertified 
States and Indian tribes have the authority to use certain payments for 
certain noncoal reclamation projects.

    Senator Wyden. Now among the bills that are being 
considered, this hearing will also include several bills that 
are important to my home State of Oregon. I'd like to say just 
a few words about those measures.
    S. 220, the Oregon Eastside Forest Restoration, Old Growth 
Protection and Jobs Act was the result of years and years of 
work and months of negotiations with the timber community and 
the environmental community. Certainly in our home state nobody 
ever thought that you could get people like John Shelk of 
Ochocho Lumber and Andy Kerr, representing the environmental 
community to come together, but because they both acted in good 
faith these negotiations resulted in a major agreement that 
this legislation would implement. Bringing both sides together 
to craft this bill means that it can bring success and in my 
view, help end the timber wars that have been so hard on my 
home state.
    This legislation that I introduced will get saw logs to 
Oregon mills, help get our forests healthy again and protect 
our treasured old growth forests and watersheds in the eastern 
part of our State. I'm also pleased that Senator Merkley has 
joined me as a co-sponsor of this legislation. I look forward 
to working with him to pass the bill.
    The gridlock caused by the timber wars has resulted in more 
than nine million acres of choked, at risk forest in desperate 
need of management across Oregon's Federal forest landscape. 
Millions of acres of old growth are in danger of dying from 
disease, insects or fire while the infrastructure for our 
industry jobs in rural communities faces an uncertain future. 
Today in Eastern Oregon only a small handful of mills have 
survived. Without being able to give them greater certainty of 
supply and an immediate increase in merchantable timber yet 
more mills will close.
    If that happens, our east side forests will pay a price and 
that is simply unacceptable to me. Without mills to process all 
logs and other merchantable material from forest restoration 
projects, there will be no restoration of our east side forest. 
But I am encouraged by the opportunity that this collaborative 
effort has brought about.
    Timber executives are now standing shoulder to shoulder 
with leaders of the Oregon environmental community to take 
shared responsibility for saving our endangered forests and the 
economies of our hard hit rural areas. I'm not going to 
consider it a success however until Oregon Federal forests are 
adequately funded to properly manage and restore their health 
as the valuable Federal assets they are. I intend to continue 
to fight for funding needed to manage all of the Nation's 
forests. I want to thank the individuals and organizations who 
have been in the trenches enduring literally thousands of hours 
of difficult work and negotiations to reach agreement on the 
legislation that we will focus on today.
    Turning to other pieces of legislation that I've 
introduced, S. 270, the LaPine Land Conveyance Act and S. 271, 
the Wallowa Forest Service Compound Conveyance Act would convey 
to the Bureau of Land Management and Forest Service property of 
2 rural communities surrounded by Federal land to help meet 
their economic development needs. Both of these rural 
communities are working hard to address the needs of their 
community. The bills were marked up in the last session of 
Congress and both have strong support from the communities 
affected.
    S. 607, the Cathedral Rock and Horse Heaven Wilderness Act 
would authorize 3 equal value land exchanges. Once a 
substantial portion of the exchanges are completed would 
designate 2 wilderness areas: the Cathedral Rock Wilderness of 
8,350 acres and the Horse Heaven Wilderness of 9,000 acres in 
Eastern Oregon's high desert landscape. This proposal reflects 
a collaborative solution driven approach to address the 
challenges created by checkerboard land ownership patterns and 
ensure there are benefits for all from the adjacent land owners 
to wildlife to the wide array of recreationists, boaters, 
hunters, anglers, hikers and horseback riders.
    Finally S. 766, the Devil's Staircase Wilderness Act would 
designate 30,540 acres of both Bureau of Land Management and 
Forest Service land as wilderness. It designates 4.6 million--
4.6 miles of river as wild and scenic. This pristine area is 
wild and remote and has incredible old growth habitat. This 
bill was marked up by our committee in the last session.
    So it's my hope that these bills will be moved in the 112th 
Congress and that the committee is going to complete work on 
these soon. That the Senate will again move public land 
legislation and that such legislation will make its way to the 
President's desk to be signed.
    People have worked too hard for too long on these bills 
which address critical needs, critical public land's needs in 
so many communities across the country.
    Let me now recognize my friend and colleague, Senator 
Barrasso. We have teamed up on many of these issues. I welcome 
his comments that he chooses to make.
    We may also be joined by the ranking minority member, 
Senator Murkowski, who has been very constructive and very 
helpful. I want to recognize Senator Barrasso and I see one of 
our other colleagues, Senator Udall. We'll certainly allow him 
to make any opening statement he chooses as well.
    Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
continue in joy and look forward to working with you on this 
Public Lands and Forest Subcommittee. I thank you for holding 
this hearing today.
    I would like to make a couple of comments just on the 
process before us. It's been quite a few months since we had 
our last hearing. We now have about 20 bills to consider today.
    The subcommittee, at least in my history, has generally 
limited our hearings to 6 or 7 bills at a time. Nearly half of 
our subcommittee members are new, have not had the opportunity 
to consider these bills on today's agenda in a thoughtful 
manner previously. I think, Mr. Chairman, we could have found a 
better way to start this process.
    Many of the bills we'll hear today are going to suffer from 
this because we're not taking the time needed to allow new 
members to consider the material and the items on the agenda. 
Setting out a 32 page background memo expecting new members to 
wade through such a document may be a bit unrealistic. I also 
need to state that wilderness bills which include Bureau of 
Land Management Lands will be complicated by the 
Administration's approach which I believe is a wrongheaded 
approach, to their wild land policy.
    In coming weeks the committee will consider BLM Wilderness 
bills designating new wilderness areas while releasing other 
wilderness study areas for consideration as wilderness. Until 
the underlying issues related to the President's wild land 
polices are resolved, these bills are going to face, I believe, 
strong opposition by many members of the Senate. So releasing a 
wilderness study area only to have the land then fall prey to 
the President's Wild Land policy is not an acceptable outcome 
to many of us.
    So, thank you, Mr. Chairman. I look forward to the 
testimony. I look forward to continuing in a very fruitful 
working relationship with you.
    Thank you.
    Senator Wyden. We certainly will have that, Senator 
Barrasso.
    I want to recognize Senator Udall and then Senator Lee, a 
new member of our committee and we welcome him as well.
    I just want to make sure that folks understand with respect 
to, you know, any concerns about this afternoon. Of the 20 
bills on today's hearing agenda, most are completely non 
controversial. All were considered by the subcommittee during 
the previous Congress.
    So again, all of them were considered by the subcommittee 
during the previous Congress. Three-fourths of the bills were 
reported by the full committee last year. So simply what we 
want to do today is update the record. Allow the administration 
to comment on any changes that may have been made since 
previous hearings.
    Particularly, and I think you make a very important point, 
Senator Barrasso, allow subcommittee members an opportunity to 
ask any questions that they have. I want to assure our 
colleagues that I will stay here as long as it takes to make 
sure that folks get a chance to ask any questions they're 
interested in.
    So let's go to Senator Udall and then Senator Lee and we'll 
go to our witnesses.

           STATEMENT OF HON. TOM UDALL, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. In that spirit the 
2 bills I want to speak to, which are very important to me, 
were a part of the last Congress' work product. Let me touch on 
the first one which is the Ski Area Recreational Opportunity 
Enhancement Act with Ranking Member Barrasso, which we 
introduced earlier this year and worked hard in the last 
Congress together to see passed.
    The reason for the bill is that in Colorado and across the 
country many ski areas are located on National Forest lands. In 
fact almost all of them are. However, under existing law the 
National Forest Service bases ski area permits primarily on 
``Nordic and Alpine skiing,'' a classification that no longer 
really reflects the full spectrum of snow sports or the use of 
ski permit areas for non-winter activities.
    This has resulted in uncertainty for the Forest Service and 
ski areas as to whether and how other activities, such as those 
that occur in the summer, can occur on these permitted areas. 
In effect this means that ski areas on National Forest lands 
are primarily restricted to use for winter recreation as 
opposed to year round recreation. The Ski Areas bill that I'm 
describing would clarify this ambiguity, would ensure that ski 
area permits could be used for traditional snow sports such as 
snowboarding, as well as specifically authorize the Forest 
Service to allow additional recreational opportunities, like 
summertime activities, in permit areas. It would allow for the 
development of new economic opportunities in mountain 
communities across our country.
    So in sum, this is, what I believe, and I know Senator 
Barrasso and many others believe is a common sense, obviously 
bipartisan bill, that would actually add revenue to the Federal 
Treasury. We worked very hard last year to improve the bill, 
and I was very disappointed that it did not become law. I know 
that a number of us will keep fighting to enact this 
legislation this Congress.
    The second bill is specific to Colorado. It's the Sugarloaf 
Fire Protection District Land Exchange. The bill involves a 
simple land exchange between the Forest Service and the 
Sugarloaf Fire District in Colorado to make sure that the fire 
district owns the land underneath its 2 fire stations.
    This fire district has occupied and operated these fire 
stations for nearly 40 years. If they can secure ownership the 
lands will continue to be used as sites for fire stations as 
well as training. The fire district is willing to trade the 
property it owns which is an undeveloped in holding within the 
Forest Service for the property under the stations. This is a 
simple and fair exchange that will serve the public good and 
help protect the local area from a growing wild fire threat.
    The fire district has made a strong, persistent and good 
faith effort to acquire the land under the stations through 
administrative means by working with the Forest Service. 
However those efforts have not succeeded. It's become evident 
that legislation is required to resolve the situation.
    Let me emphasize, Mr. Chairman, how much I'd prefer this 
exchange be handled administratively. However, it's been over 
10 years waiting for that to happen, and that's just 
unacceptable. So I'm going to continue to push for passage of 
this bill.
    I know the Chairman, the Ranking Member both have areas 
like this in their home states where fire threat is 
significant. We ought to help this local fire district have 
some certainty and clarity.
    So I thank you for the time and thank you for your 
interest, both you and the Ranking Member.
    Senator Wyden. Senator Udall, thank you. I know you've 
spent a lot of time trying to bring folks together behind your 
bills. I'm looking forward, very much, to working with you and 
getting them out of the committee.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Wyden. Senator Lee has been very gracious and I'm 
already learning is his practice. The ranking minority member 
is with us, Senator Murkowski. Senator Lee has said let's hear 
from our ranking minority member. Then we'll hear from Senator 
Lee. Then we'll hear from Senator Risch, who has just joined 
us. But all will get a chance to make their comments.
    Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Thank you, 
Senator Lee for letting me kind of, jump ahead here. I'm not 
going to be able to stay for the rest of the hearing I've got 
another hearing in progress. But I wanted to speak very briefly 
this afternoon to 2 bills that we have before us.
    S. 292 which is the Salmon Lake Land Exchange.
    S. 566, which is the National Volcano Early Warning and 
Monitoring System bill.
    The Salmon Lake bill is one that the committee has seen 
before. I introduced it before with Senator Begich. It ratifies 
an agreement that we worked out about 4 years ago between the 
Bering States Native Corporation, State of Alaska and BLM. What 
it does is it settles most of the outstanding land conveyance 
problems that we have in Northwest Alaska.
    We view this as a real win/win situation. It completes 
almost all the conveyances to the Bering Straits Corporation. 
It settles a 3 decade fight between Federal agencies, the state 
and the regional native corporation over land ownership and key 
to finally resolving that.
    Through the bill the corporation will gain 14,645 acres in 
the area north of Nome. It relinquishes to BLM a claim to 3,914 
acres. The state gains acreage. BLM gains ownership, 
administration of a key campground at the outlet of Salmon 
Lake. It protects Federal management of key wildlife areas and 
provides the Native Corporation with access to recreation 
tourism sites that are important.
    So again, it is somewhat unusual I think for legislation 
that involves Alaska lands to be unanimously supported by the 
state, by all of the Federal agencies, all of the national and 
local environmental groups. Don't know how we did it. 
Hallelujah. This is a good one. I hope that this hearing will 
be what it takes to propel this bill to final passage before 
December 18 which is the 40th anniversary of ANCSA's passage. 
So we're working on that one.
    The second bill is the Volcano Monitoring bill also a bill 
that is seeing a repeat this year. This will supplement the 
existing regional volcano observatories that are in Alaska, 
Hawaii, Washington State, Yellowstone and California's Long 
Valley. It authorizes funding for monitoring of our volcanoes, 
allows for the center to serve as a national data collection 
clearing house.
    USGS will be able to place remote monitors on more peaks, 
not just in Alaska, but on the West Coast. We're all kind of 
keyed in to what's going on with volcanoes, earthquakes, Mother 
Nature speaking up and being heard. I think we saw from an 
international perspective the significance of what happens when 
you have volcanoes and the disruption when the volcano blew in 
Iceland last year and the impact on commerce throughout Europe.
    We experienced that when Mount Rideout erupted in 1989. The 
eruption caused a jet liner that had 231 passengers to 
literally drop out of the sky when they flew through that ash 
plume. Just very dangerous situation was fortunately averted. 
But I think it has demonstrated to us that the more that we can 
do when it comes to volcano monitoring it is important.
    So again, Mr. Chairman, I appreciate you hearing these 
today. Both of these bills have had full hearings before the 
Congress. So I'm hopeful that we will be able to advance them 
quickly. I appreciate your assistance and your cooperation.
    Thank you.
    Senator Wyden. Thank you, Senator Murkowski. You've put 
together exceptional coalitions behind these bills. I know the 
committee reported them out before. So I'm looking forward very 
closely and very much to working closely with you on it.
    Senator Murkowski. Thank you. Appreciate it.
    Senator Wyden. Alright. Senator Lee, welcome to the 
committee. I know you have a great interest in these issues 
from our conversation. Please, proceed with any statement you'd 
like to make.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to serve with you on this 
subcommittee. Look forward to working on it.
    I just want to echo briefly the concerns raised by my 
colleague Senator Barrasso a minute ago about the wild lands 
policy at Interior. This has cast a certain shroud of doubt and 
uncertainty over the practice of declaring new wilderness. I'm 
uncomfortable with Congress declaring new wilderness as long as 
that shroud of uncertainty remains.
    I'd also like to note that just given the deep and profound 
impact that designation of wilderness can have on a state, on 
its economy and on its interests. I think it's appropriate for 
us to get input from the host state's legislature before we 
declare new wilderness. I say this as one coming from a state 
where almost 70 percent of the land is owned by the Federal 
Government.
    That state's interest, its ability to survive, its ability 
to fund its basic government operations to provide services to 
its citizens is profoundly impacted by Federal land and how 
that Federal land is used. As a member of this subcommittee, I 
intend to look out for interest like that, not only for my 
state but for other states that are similarly situated.
    Thank you.
    Senator Wyden. Thank you, Senator Lee. I know from our 
conversations how strongly you feel about public input. I want 
you to know that I very much share your view.
    We passed, President signed early in 2009 the Mount Hood 
Wilderness legislation. We had well over 100 meetings reaching 
out to all of the stakeholders, timber folks and environmental 
folks, scientists, ski lodges and the like. I think you're spot 
on in terms of saying that we've got to find ways to involve 
the public, make sure folks are heard. I'm going to work 
closely with you on that.
    OK, Senator Risch.

        STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. I guess, Mr. Chairman, I'm a co-sponsor of 
382. Senator Udall, were you going to talk about 382 with 
Senator Barrasso?
    Senator Udall. I already made a short comment on it.
    Senator Risch. OK. I would like to associate myself with 
those remarks assuming they were good remarks.
    [Laughter.]
    Senator Udall. It's always in the mind and the ears of the 
listener, Senator Risch.
    [Laughter.]
    Senator Risch. Amen to that.
    First of all I think this particular bill really does meet 
a need that we have in Idaho for being able to further expand 
the use of the ski areas to all year round activities. In 
addition to that, to expand the use area for that beyond just 
skiing. We have 9 different ski areas in Idaho that would 
benefit from that. I'm really not aware of any opposition to 
this.
    I think this is a good bipartisan effort. With that, I'll 
call it good.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Risch. We're joined by 
Senator Cantwell, who has a great interest in these issues as 
well.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this important hearing and Ms. Wagner for being here 
today. It's good to see former regional, 6 war served, 
testifying on a wilderness bill that is important to Washington 
State.
    In 1976, the Alpine Lakes Wilderness was designated by 
Congress and has since become one of the most visited 
wilderness areas in the United States. Just 45 minutes from 
downtown Seattle, the Alpine Lakes Wilderness provides easy 
access to over 2 million people to breathtaking views of snow 
capped peaks and deep glacial valleys in the Cascade Mountain 
range. This area is a popular destination for hiking, camping, 
horseback riding, wildlife viewing, river rafting and other 
recreational activities.
    Today I encourage this committee to support expanding the 
Alpine Lakes Wilderness which has the support of local elected 
officials, business and conservation groups and religious 
leaders, hunters, anglers, sportsmen and many other individuals 
in Washington State. I ask unanimous consent that the testimony 
and letters of support from these Washingtonians be included in 
the record, Mr. Chairman.
    Senator Wyden. Without objection, it's ordered.
    Senator Cantwell. Thank you.
    The expansion in S. 322, would add approximately 22,000 
acres to the wilderness area providing protection for low 
elevation forests which are free of snow much of the year. 
Provide a biological, productive environment that can support a 
diverse wildlife species. These additions will promote clean 
water and enhance existing recreational opportunities which 
will support our local economy.
    The bill also designates 2 rivers as an important component 
of the wild and scenic river system, both of which are 
recommended by the Forest Service for wild and scenic 
designations. Ms. Wagner, I understand the Forest Service 
supports this legislation, but has suggested some technical 
changes. So, Senator Murray and I, the sponsors of the bill are 
happy to work with you to resolve these issues.
    The popularity of the proposal to expand the Alpine Lakes 
Wilderness highlights an important issue in wilderness 
designation. The Forest Service is required as part of the 
Forest Plan Revision Process to evaluate and make 
recommendations to Congress regarding that land and qualifying 
for wilderness and waters that qualify for wild and scenic 
designation. In Washington State processes have excluded areas 
that qualify for wilderness recommendations due to concerns 
over current uses, uses on adjacent lands or local politics 
among other reasons.
    So Congress relies on the place based expertise of the 
Forest Service staff to provide a thorough and unbiased 
evaluation of what qualifies as wilderness, wild and scenic 
based on those conditions. So we appreciate that. This is a 
critical area due to growing population, changing climate, 
recreation demands. I look forward to consistently seeing the 
lands which qualify for wilderness and rivers and streams, that 
qualify for wild and scenic designation get evaluated, are 
included in the Forest Service recommendations to Congress.
    So thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Cantwell. We'll be 
working very closely with you and Senator Murray. Without 
objection I'd ask that Senator Murray's remarks be put into the 
record as well on S. 322.
    [The prepared statement of Senator Murray follows:]
Prepared Statement of Hon. Patty Murray, U.S. Senator From Washington, 
                               on S. 322
    Thank you, Mr. Chairman. I want to thank you for including the 
Alpine Lakes Wilderness Additions and Pratt and Middle Fork Snoqualmie 
Rivers Protection Act as part of your hearing today.
    The existing 394,000 acre Alpine Lakes Wilderness is a treasure 
both in Washington state and across the country. As one of the most 
visited wilderness areas in the country, Alpine Lakes Wilderness gives 
millions of people the opportunity to enjoy our public lands just a 
short drive from Seattle.
    Today we are here to discuss the opportunity to permanently protect 
additional lands near the Alpine Lakes Wilderness, and to designate two 
rivers of great importance to the surrounding ecosystem as Wild and 
Scenic. The Alpine Lakes Wilderness Additions and Pratt and Middle Fork 
Snoqualmie Rivers Protection Act will protect wildlife, promote clean 
water, enhance and protect recreational opportunities, reflect the 
diverse landscapes of the Puget Sound region, and contribute to the 
local economy.
    This has been a team effort and I want to thank Senator Cantwell 
for being here. I appreciate her co-sponsorship of this bill as well as 
her assistance.
    I also want to acknowledge my colleague and partner on this bill, 
Congressman Dave Reichert. Throughout this process, Dave has reached 
out to the local communities and stakeholders to understand their 
priorities.
    The bill before you today is the result of discussion and 
negotiation with the local community and interested stakeholders 
regarding issues such as mountain bike use, search and rescue 
operations, ski operations, and road and trailhead access.
    My colleagues and I have worked hard to address constructive issues 
and concerns that have been brought to us. I am grateful to everyone 
who reached out to us and worked with us, and I think you'll see that 
because we worked hard to address those concerns, this bill has 
garnered broad support.
    Mr. Chairman, I'd like to mention just a few of the benefits the 
Alpine Lakes Wilderness Additions and Pratt and Middle Fork Snoqualmie 
Rivers Protection Act will offer.
    First, this wilderness area will protect wildlife and promote clean 
water by preserving the landscapes that host many native plants and 
animals. The wilderness is home to abundant elk and deer populations as 
well as other animals and native fish populations.
    Second, this wilderness designation, along with the Wild and Scenic 
River designations will enhance and protect recreational opportunities 
for our growing region. More people and more families are turning to 
outdoor recreation on our public lands. This bill protects the area for 
users today and into the future, and will preserve existing road and 
trailhead access.
    That leads me to the third benefit of this bill: Wilderness and 
Wild and Scenic River designations will contribute to the local 
economy. Even during the tough economy of the last several years, 
outdoor industry retail sales have stayed strong. That means more 
people are going out more often into our wildlands and the gateway 
communities that serve them. The existing Alpine Lakes Wilderness is 
already a destination and these additional protections will add to the 
allure of this special place.
    Another driving purpose behind the bill is the inclusion of low 
elevation lands. The proposed additions we are discussing today provide 
an opportunity to protect rare low elevation old growth and mature 
forests. These low elevation lands were largely excluded from the 
Alpine Lakes Wilderness in 1976, and about half of the lands included 
in this proposal are below 3,000 feet in elevation.
    I appreciate that Associate Chief Mary Wagner from the Forest 
Service is here today to testify. I understand that the Forest Service 
will provide some suggestions on the legislation, and I look forward to 
working with them.
    Mr. Chairman, the mountain valleys of the Alpine Lakes area are a 
special place to many in Washington state. And the legislation will 
ensure that we protect these special places for today's users and 
future generations. I appreciate your time today and I look forward to 
working with you and the Committee to move forward on this legislation.

    Senator Wyden. So let's welcome our Administration 
witnesses, Mr. Mike Pool, Deputy Director of Operations, Bureau 
of Land Management.
    Ms. Mary Wagner, Associate Chief, Forest Service.
    I know we've got a long list of bills to go through. So I'd 
like to ask you to summarize your oral remarks. We'll include 
your written testimony in the record.
    Ms. Wagner, I know that as Regional Forester in Oregon you 
personally have worked closely with us, my staff and the 
stakeholders on the East side Forestry bill. So we thank you 
for your efforts in that regard.
    Mr. Pool, I also want to express my appreciation for the 
work that your agency puts forth in working on that very, very 
important Eastside Forestry bill.
    So let's go ahead with your remarks. Why don't whichever of 
you would like to go first. What's your pleasure here?
    Ms. Wagner.
    Chivalry lives.

  STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Thank you. Mr. Chairman, members of the 
subcommittee, I'll just offer a few remarks on each of the 
bills under consideration this afternoon.
    Thank you for the opportunity to share the administration's 
view on S. 220. There are numerous concepts in the legislation 
the department fully supports. In previous testimony the 
administration identified several items of concern. The 
Senator's office, committee staff and the Forest Service have 
worked together and have made significant progress in 
addressing the administration's concerns.
    The reservations that remain are two-fold.
    Legislating specific performance goals outside the agency's 
current capacity may set up unrealistic expectations for 
communities, industry and citizens.
    Second legislating aspects of forest plans, the 
Administration prefers not to have legislation that's specific 
to one area of the country or that desegregates the national 
framework under which we manage national forests.
    That said, I want to again thank Senator Wyden for his 
leadership and strong commitment to Oregon's national forests, 
their surrounding communities and the forest products 
infrastructure and the strong collaboration behind this bill.
    S. 271, would require the Secretary of Agriculture to 
convey to the city of Wallowa, Oregon, all right, title and 
interest to the Wallowa Forest Service compound. While it is 
long standing policy that the United States Forest Service 
receive market value for the sale, exchange or use of national 
forest system land because of special circumstances, we do not 
object to the conveyance of this property to the city under the 
bill. We would like to work with the committee to address 
concerns in S. 271 including the reversionary language and 
provisions for the Administrative costs of the conveyance.
    The Department supports S. 278, the Sugarloaf Fire 
Protection District land exchange. Wishes to thank members of 
the subcommittee for addressing concerns expressed when we 
testified in the bill under consideration last Congress.
    The Department supports S. 322, the Alpine Lakes Wilderness 
additions and Pratt and Middle Forks Snoqualmie River 
Protection Act. We would like to work with the committee to 
address some technical aspects of the bill. We want to thank 
the delegation for its collaborative approach and the local 
involvement that contributed to this bill.
    The Department supports S. 382, the Ski Area Recreational 
Opportunity Enhancement Act of 2011 and wishes to thank members 
of the committee for addressing the concerns expressed when we 
testified last Congress. This legislation would encourage 
greater recreation use at the most developed sites on National 
Forests, enhance the long term viability of ski areas and 
sustain the adjoining gateway communities.
    S. 607, the Cathedral Rock and Horse Heaven Wilderness Act 
of 2011 provides for the young life exchange which would 
involve the conveyance of 2 parcels of National Forest System 
land. We have no objection to this exchange if the conclusion 
of the BLM's analysis for land exchange leads to a public 
benefit determination.
    S. 683, would direct the Secretary of Agriculture to convey 
without consideration to the Town of Mantua, Utah, a right 
title and interest in about 31 acres of National Forest System 
land in Box Elder County, Utah. The Department does not object 
to conveyance of this land but notes that these parcels have 
not been surveyed and that would need to happen in advance of 
the conveyance. We're committed to working with sponsors of the 
bill, the Town of Mantua and the committee. We would appreciate 
the opportunity to work with the committee to address concerns 
with S. 683 including the definition of public purpose, the 
reversionary language and ensuring the town's agreement to the 
conveyance and provisions for Administrative costs of the 
conveyance.
    S. 684, would direct the Secretary of Agriculture to convey 
without consideration certain parcels of National Forest System 
lands to the Town of Alta, Utah for public purposes. While we 
support the town's desire to consolidate its municipal 
resources, the Department does not support, S. 684. We don't 
support it as written. We are still willing to work with the 
bill's sponsors, the Town of Alta and the committee to address 
concerns including provisions to ensure the town would have to 
agree to the proposed conveyance and provisions for the 
Administrative costs of the conveyance.
    The Department supports S. 766, the designation of the 
Devil's Staircase Wilderness as well as the wild and scenic 
river designations on National Forest System lands for the 
Wasson and Franklin Creeks. We would like to offer minor 
modifications to S. 766 that would enhance wilderness values 
and improve our ability to manage resources in the area.
    Last, S. 896, the Public Lands Service Corps Act of 2011. 
It's a welcome amendment to the Public Lands Corps Act. The 
Department strongly supports S. 896. It will help USDA and our 
sister agencies expand opportunities for youth to engage in the 
care of America's Great Outdoors. We appreciate the opportunity 
to work with the committee on a number of implementation issues 
in that bill.
    So Mr. Chairman and members of the committee, this 
concludes my remarks and I'm happy to answer any questions you 
might have.
    Thank you.
    [The prepared statements of Ms. Wagner follow:]
 Prepared Statements of Mary Wagner, Associate Chief, Forest Service, 
                       Department of Agriculture
                                 s. 220
    Mr. Chairman, and Members of the Subcommittee, I am Mary Wagner, 
Associate Chief for the U.S. Forest Service. Thank you for the 
opportunity to share the Administration's views on S. 220, the Oregon 
Eastside Forests Restoration, Old Growth Protection, and Jobs Act of 
2011. Under Secretary Sherman testified before this Committee during 
the last Congress on S. 2895. At that hearing, the Under Secretary 
expressed his appreciation to Senator Wyden for the leadership, energy 
and effort that went into developing this legislation and for his work 
to bring diverse interests together.
    There are numerous concepts in the legislation that the Department 
fully supports including: conducting assessments at a broad landscape 
scale to focus our efforts to achieve restoration results on the 
ground, reducing our road system to what is needed, applying a pre-
decisional administrative review process more broadly, maintaining a 
much needed wood products industry and infrastructure, promoting 
sustainable use of biomass as an energy source, and collaborating with 
interested parties. We look forward to working with the Senator, his 
staff and the Committee to make adjustments to the parts of the 
legislation that, as currently written, would cause problems for the 
National Forest System.
    S. 220 would authorize the Secretary to select all or part of one 
or more National Forests in Oregon as part of the Initiative. The 
provisions of the bill would apply to the covered area for a period of 
15 years. In the covered area, the Secretary would be directed to seek 
accomplishment of certain land management goals, consider opportunities 
to carry out certain objectives, use landscape scale planning, 
prioritize vegetative management and hazardous fuel reduction to 
achieve performance goals, and carry out projects that would, to the 
maximum extent practicable, mechanically treat not less than 39,000 
acres in the first fiscal year following enactment, not less than 
58,000 acres in the second fiscal year; and not less than 80,000 acres 
in each of the subsequent years.
    S. 220 also would direct the Secretary to delineate areas of 
aquatic and riparian resources in the covered area and would provide 
that vegetative management projects in the delineated areas protect and 
restore those resources and comply with aquatic and riparian protection 
requirements in the existing land management plans. The Secretary would 
be directed to prepare a restoration assessment of the covered area, 
prepare a restoration strategy to assist in the development and 
implementation of projects using the restoration assessment, carry out 
ecological restoration projects including projects at a landscape 
scale, and carry out experimental ecological restoration projects.
    In implementing these provisions, the Secretary would seek advice 
from the scientific advisory panel established under the bill. The 
Secretary also would consult with collaborative groups. Environmental 
restoration projects would be subject to a pre-decisional 
administrative review process and provisions relating to the judicial 
review of projects under the Healthy Forests restoration Act of 2003.
    On National Forests in Oregon, we are currently engaged in numerous 
administrative efforts to encourage and expand programs and activities 
that embrace many of the concepts in this legislation.
    When Secretary Vilsack articulated his vision for America's 
forests, he underscored the overriding importance of forest restoration 
by calling for complete commitment to restoration. He also highlighted 
the need for pursuing an ``all-lands'' approach to forest restoration 
and for close coordination with other landowners to encourage 
collaborative solutions.
    To that end, the President's FY 12 budget proposal includes $854 
million Integrated Resource Restoration line-item. This integrated 
approach, similar to the landscape scale efforts envisioned in this 
bill, will allow the Forest Service to apply the landscape scale 
concept across the entire National Forest System. This line item 
includes $80 million for Priority Watersheds and Job Stabilization to 
improve watershed conditions. In addition, $40 million, the full 
authorized amount, is provided for the Collaborative Forest Landscape 
Restoration Program.
    Three notable efforts in eastern Oregon include the Skyline 
Project, the Lakeview Stewardship Project, and the Southern Blue Mtn. 
Projects. The Skyline Project on the Deschutes National Forest was 
initiated in 2010 and selected as a Collaborative Forest Landscape 
Restoration Program (CFLRP) project last year. The Forest has been 
working with Central Oregon collaborative groups to restore a 200,000+ 
acre landscape. CFLRP funding in FY 2010 ($500,000) was obligated and 
combined with matching National Forest System funding to increase the 
pace of restoration implementation in the project area. CFLRP funding 
for the Skyline Project in FY 2011 is $710,000 and, when combined with 
matching National Forest System funding, will double the amount of 
acres we can restore.
    Other examples are the Lakeview Stewardship and Southern Blue Mtn. 
Projects which have strong collaborative support from their 
communities. Collaborative groups helped the Fremont-Winema and Malheur 
National Forests develop CFLRP proposals in FY 2011. This could lead to 
additional CFLRP funding and effectively double the capacity of both 
Forests to implement needed restoration work.
    I am very interested in expanding collaborative successes not only 
within the State of Oregon, but throughout the country. I am focusing 
on advancing several principles I believe are paramount to 
accomplishing restoration on the entire National Forest System. These 
principles include collaboration with diverse stakeholders, efficient 
implementation of the National Environmental Policy Act, greater 
dialogue over areas of conflict prior to the decision, ensuring 
opportunities for local contractors, expansion of the use of 
stewardship contracting and monitoring to track our results on the 
ground.
    In previous testimony, the administration identified several items 
of concern. The Senator's office, committee staff, and the Forest 
Service have worked together and have made significant progress in 
addressing the Administration's concerns. However, as Secretary Vilsack 
has noted, the Forest Service has reservations about legislating 
specific treatment levels and other aspects of our forest plans. The 
Agency has a meaningful national approach to management of the national 
forests that takes into account local conditions and circumstances 
through the development and implementation of Land and Resource 
Management Plans. Achieving performance levels proposed in this bill is 
outside agency current capacity and could result in the shifting of 
funds from other areas of the country where high priority work is also 
underway and important to achieve. In addition, specific levels of 
treatment may result in unrealistic expectations on the part of the 
communities and forest product stakeholders that the agency would 
accomplish the quantity of treatment required.
    I want to again thank Senator Wyden for his leadership and strong 
commitment to Oregon's national forests, their surrounding communities, 
and forest products infrastructure. I look forward to working with the 
Senator, his staff, and the Committee, and all interested stakeholders 
to help ensure sustainable communities and provide the best land 
stewardship for our national forests. We also have a number of 
technical corrections that we will share with Committee staff. This 
concludes my prepared statement and I would be pleased to answer any 
questions you may have.
                                 s. 271
    Mr. Chairman and members of the Subcommittee, I am Mary Wagner, 
Associate Chief of the Forest Service. Thank you for the opportunity to 
appear before you today to provide the Department of Agriculture's 
views on S. 271, which would require the Secretary of Agriculture to 
convey land, the Wallowa Ranger Station, to the City of Wallowa, 
Oregon.
    S. 271 would require the Secretary of Agriculture, to convey to the 
City of Wallowa, Oregon, on the request of the City, all right, title, 
and interest in the Wallowa Forest Service Compound, approximately 1.11 
acres located within the City, subject to valid existing rights and to 
such terms and conditions as the Secretary may require. The bill 
provides that, as conditions of the conveyance, the City shall use the 
compound as a historical and cultural interpretation and education 
center, shall ensure that the compound is managed by a nonprofit 
entity, and shall manage the compound with due consideration for its 
historic values.
    It is long standing policy that the United States receive market 
value for the sale, exchange, or use of NFS land. This policy is well 
established in law, including the Independent Offices Appropriation Act 
(31 U.S.C. 9701), section 102(9) of FLPMA, as well as numerous land 
exchange authorities. The parcels have value to the United States for 
their potential to be used to facilitate future land conveyance.
    Our preference would be to convey the compound to the City under 
existing authorities. The Forest Service has identified the Wallowa 
Compound as a site to be sold under the Forest Service Facility 
Realignment and Enhancement Act (FSFREA). Disposition under FSFREA 
would allow the proceeds from the sale to be used to address other 
administrative site needs. In the past 3 years, the Forest Service has 
expended funds to prepare the compound for disposal and hopes to derive 
benefit on behalf of the public from the sale by re-investing proceeds 
from the sale in other deteriorating infrastructure on the Wallowa-
Whitman National Forest as provided for under FSFREA.
    However, because of special circumstances, we do not object to the 
conveyance to the City under the bill. Originally the parcels were 
owned by the City. During the Depression, the City defaulted on taxes 
owned on the land and the County assumed ownership. The County donated 
the parcels to the United States in 1936.
    We recommend, however, that the bill should provide that the City 
of Wallowa be responsible for bearing all administrative costs 
associated with the conveyance. Additionally, the legislation would 
provide for the reversion of the property to the United States, at the 
election of the Secretary, if the conditions under subsections 2(c) or 
2(d) are violated. We would like to work with the Committee to address 
concerns with S. 271, including the reversionary language.
    This concludes my statement and I would be happy to answer any 
questions you might have.
                                 s. 278
    Mr. Chairman and Members of the Subcommittee, I am Mary Wagner, 
Associate Chief for the U.S. Forest Service. Thank you for the 
opportunity to appear before you to provide the views of the U.S. 
Department of Agriculture on S. 278.
    The Department supports this legislation and wishes to thank the 
Members of the Committee for addressing the concerns expressed when we 
testified on the bill under consideration in the last Congress.
    S. 278 would provide for the exchange or sale of two parcels of 
National Forest System lands, totaling 5.08 acres, within the 
boundaries of the Arapaho National Forest in Colorado to the Sugar Loaf 
Fire Protection District (SLFPD). A portion of one parcel is currently 
being used by SLFPD as a fire station under special use permit. The 
other parcel was under a similar permit that has expired.
    The National Forest System lands proposed for conveyance have lost 
their national forest character. The lands that would be conveyed to 
the United States have suitable national forest character and would 
contribute to increased management efficiency. In addition, thanks in 
large part to previous work that has been done between the Forest 
Service (Arapaho-Roosevelt National Forest) and the Sugar Loaf Fire 
Protection District, we believe that the Forest Service and SLFPD will 
meet Congress' intent to have the parcels exchanged within one year.
    The Department supports the work of the SLFPD and its efforts to 
improve its facilities to deliver services more effectively. We view S. 
278 as both benefitting management of the Arapaho National Forest and 
promoting emergency services in the fire protection district.
    Mr. Chairman, Ranking Member and Members of the Subcommittee, this 
concludes my testimony. I'll be happy to answer any of your questions.
                                 s. 322
    Mr. Chairman and members of the Subcommittee, I am Mary Wagner, 
Associate Chief of the Forest Service. Thank you for the opportunity to 
provide the views of the Department of Agriculture on S. 322, the 
Alpine Lakes Wilderness Additions and Pratt and Middle Fork Snoqualmie 
Rivers Protection Act.
    This legislation would designate approximately 22,173 acres as a 
component of the National Wilderness System and approximately 37 miles 
of river as components the National Wild and Scenic Rivers System on 
the Mt. Baker-Snoqualmie National Forest in the State of Washington. 
The Department supports this legislation in concept and we would like 
to work with the Committee to address some technical issues as outlined 
below.
    We would also like the Committee to be aware that although we have 
completed suitability studies for the wild and scenic rivers, we have 
not completed a wilderness evaluation of the area to be designated 
under this bill. The area that would be designated wilderness is 
currently managed in an undeveloped manner as late Successional Reserve 
under the Northwest Forest Plan. A wilderness designation would be 
compatible in this area. We thank the delegation for its collaborative 
approach and local involvement that have contributed to this bill.
    The proposed additions to the Alpine Lakes Wilderness lie in the 
valleys of the Pratt River, the Middle and South Forks of the 
Snoqualmie River. The existing 394,000 acre Alpine Lakes Wilderness is 
one of the jewels of our wilderness system, encompassing rugged ice 
carved peaks, over 700 lakes, and tumbling rivers. The lower valleys 
include stands of old growth forest next to winding rivers with native 
fish populations. The area is located within minutes of the Seattle 
metro area. Trails accessing the area are among the most heavily used 
in the Northwest as they lead to some exceptionally accessible and 
beautiful destinations. The proposed additions to the Alpine Lakes 
Wilderness would expand this area to include the entire heavily 
forested Pratt River valley and trail approaches to lakes in the 
wilderness area in the Interstate 90 corridor. These lands have not 
been analyzed as part of the forest plan to determine their suitability 
to be designated wilderness. However, the Forest Service would support 
their designation with a few technical adjustments.
    We would like to work with the subcommittee to address some 
technical aspects of the bill. These include:

  <bullet> The entire Pratt River Trail #1035 is included within the 
        boundary of the proposed wilderness. The first mile of this 
        trail currently is used by large numbers of people and groups. 
        The trail, which would be a primary access corridor for the 
        newly designated wilderness, is currently undergoing 
        reconstruction by contract and volunteer crews. The Department 
        suggests that the wilderness boundary be drawn to exclude 
        approximately three miles of this trail so that wilderness use 
        limitations relating to solitude do not factor into future 
        management concerns that may limit public access to this area. 
        This change would not alter the wilderness proposal 
        significantly, but would allow the current recreation 
        opportunities for high-use and large groups along this stretch 
        of the Middle Fork Snoqualmie to continue. This adjustment also 
        would reduce operation and maintenance costs along this segment 
        of the Pratt River Trail as it would ease any future 
        reconstruction efforts and allow for motorized equipment to be 
        used in its maintenance.
  <bullet> The northwestern boundary of the wilderness proposal 
        includes two segments of Washington State Department of Natural 
        Resources lands totaling about 300 acres. We recommend that the 
        boundary of the proposed wilderness be adjusted so that only 
        National Forest System lands are included, as the legislation 
        does not include authority for these lands to be acquired from 
        the State of Washington.
  <bullet> In T.23 N, R.10 E, Section 24, there are two Forest 
        Development Roads proposed for decommissioning. It is likely 
        that the decommissioning project will require the use of 
        motorized equipment to help restore the wilderness setting. We 
        anticipate analyzing the use of motorized equipment under the 
        Forest Service's minimum requirements analysis process.

    S 322 also would designate two rivers as additions to the National 
Wild and Scenic Rivers System: approximately 9.5 miles of the Pratt 
River from its headwaters to its confluence with the Middle Fork 
Snoqualmie River; and approximately 27.4 miles of the Middle Fork 
Snoqualmie River from its headwaters to within = mile of the Mt. Baker-
Snoqualmie National Forest boundary. Each river was studied in the Mt. 
Baker-Snoqualmie National Forest Plan and determined to be a suitable 
addition to the National Wild and Scenic Rivers System.
    The Pratt River has outstandingly remarkable recreation, fisheries, 
wildlife and ecological values. The corridor provides important hiking 
and fishing opportunities in an undeveloped setting. The river supports 
resident cutthroat trout and its corridor contains extensive deer and 
mountain goat winter range and excellent riparian habitat. Its corridor 
retains a diverse riparian forest, including remnant stands of low-
elevation old-growth.
    The Middle Fork Snoqualmie River also has outstandingly remarkable 
recreation, wildlife and fisheries values. The river is within an easy 
driving distance from Seattle and attracts many visitors. It provides 
important whitewater boating, fishing, hiking and dispersed recreation 
opportunities. The river corridor contains extensive deer winter range 
and excellent riparian habitat for numerous wildlife species. This is 
the premier recreational inland-fishing location on the National Forest 
due to its high-quality resident cutthroat and rainbow trout 
populations. Adding these rivers to the National Wild and Scenic Rivers 
System will protect their free-flowing condition, water quality and 
outstandingly remarkable values. Designation also promotes partnerships 
among landowners, river users, tribal nations and all levels of 
government to provide for their stewardship. We therefore support the 
designation of these rivers into the National Wild and Scenic River 
System.
    The Department has one concern with the wild and scenic river 
designations relating to the management of the Middle Fork Snoqualmie 
River Road. We are currently in the process of improving this road and 
feel that this work is needed to protect the wild and scenic values 
associated with this river while improving visitor safety and watershed 
health. Approximately 20 years ago, the U.S. Forest Service submitted 
the Middle Fork Road to the Federal Highway Administration for 
reconstruction via their enhancement program. The project has been 
approved, design work is approximately 30% complete, and construction 
is planned for 2013 or 2014. The Federal Highway Administration has 
already expended approximately $3.2 million to date on the project. We 
would like to work with the committee to ensure timely completion of 
the project and assure long-term maintenance of the road.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                                 s. 382
    Mr. Chairman and Members of the Subcommittee, I am Mary Wagner, 
Associate Chief for the U.S. Forest Service. Thank you for the 
opportunity to appear before you to provide the views of the U.S. 
Department of Agriculture (USDA) on S. 382, the Ski Area Recreational 
Opportunity Enhancement Act of 2011.
    S. 382 would amend the National Forest Ski Area Permit Act of 1986 
to authorize the Secretary to permit seasonal or year-round natural 
resource-based recreational activities and associated facilities at ski 
areas, in addition to those that support Nordic and alpine skiing and 
other snow sports that are currently authorized by the Act.
    The Department supports S. 382 and wishes to thank the Members of 
the Committee for addressing the concerns expressed when we testified 
last Congress on S. 607. Like its predecessor, S. 382 would promote 
seasonal or year-round recreation opportunities at ski resorts on 
National Forest System lands and, by doing so, would expand the 
opportunities for ski areas to attract visitors during all four 
seasons.
    The additional seasonal or year-round recreational activities and 
associated facilities authorized by the bill would have to encourage 
outdoor recreation and enjoyment of nature and, to the extent 
practicable, would have to harmonize with the natural environment. The 
bill specifies certain recreational activities and facilities that 
could, under appropriate circumstances, be authorized and those that 
would be excluded from authorization. The bill would make clear that 
the primary purpose of the authorized use and occupancy would continue 
to be skiing and other snow sports.
    There are 122 ski areas operating under permit on National Forest 
System lands. These ski areas occupy less than 1 percent of all 
National Forest System lands. Nevertheless, about one-fifth of all 
recreation in national forests occurs at these ski areas. The ski areas 
are some of the most developed sites in the national forests. However, 
for many Americans, ski areas are portals to the national forests and a 
means to greater appreciation of the natural world.
    Focusing more of developed outdoor recreational activities within 
ski areas is appropriate and would reduce impacts on less developed 
areas in the national forests. If S. 382 is enacted, we would develop 
criteria for the types of seasonal or year-round activities that would 
be appropriate at ski areas to provide a basis for case-specific 
proposals at the local level in accordance with established law, 
regulations, and procedures including the Secretary's duties to involve 
the public in his decision-making and planning for the national 
forests.
    In summary, this legislation would encourage greater recreational 
use of the national forests and would concentrate highly developed 
recreation in areas that are currently among the most developed sites 
in national forests. In addition, the legislation would enhance the 
long-term viability of the ski areas on National Forest System lands 
and the adjoining rural economies.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
testimony. I'll be happy to answer any of your questions.
                                 s. 607
    Mr. Chairman, Honorable Ranking Member and distinguished members of 
the Committee, I am Mary Wagner, Associate Chief of the U.S. Forest 
Service. Thank you for the opportunity to speak with you today about S. 
607, the Cathedral Rock and Horse Heaven Wilderness Act of 2011.
    S. 607 provides for land exchanges between the Bureau of Land 
Management (BLM) and a number of private parties. We defer to BLM for 
its position on those exchanges. One of the exchanges, identified in 
the bill as the Young Life Exchange, would involve the conveyance of 
two parcels of National Forest System (NFS) land, comprising 
approximately 690 acres. The Forest Service has no objection to either 
of the parcels being exchanged out of federal ownership if the 
conclusion of BLM's analysis for a land exchange leads to a public 
benefit determination.
    Additionally, the bill would effectuate the transfer of 
administrative jurisdiction of certain BLM lands that lie within, or 
are adjacent to, the Ochoco National Forest, to the Forest Service. The 
Forest Service supports the transfer of jurisdiction over these lands 
to the Forest Service. Such mutually beneficial land exchanges will 
make management of the public lands easier and this is a good 
investment for the taxpayer.
    Mr. Chairman, Ranking Member and Members of the Subcommittee, this 
concludes my testimony. I'll be happy to answer any of your questions.
                                 s. 683
    Mr. Chairman and members of the Subcommittee, I am Mary Wagner, 
Associate Chief of the Forest Service. Thank you for the opportunity 
today to present the Department's view on S. 683, legislation to 
provide for the conveyance of certain parcels of land in the Town of 
Mantua, Utah.
    S. 683 would direct the Secretary of Agriculture to convey, without 
consideration, to the Town of Mantua, Utah, all right, title and 
interest of the United States in approximately 31.5 acres of National 
Forest System (NFS) land in Box Elder County, Utah. This land is 
currently part of the Uinta-Wasatch-Cache National Forest. The 31.5 
acres in question comprise three parcels identified in the bill as 
parcels A, B, and C as shown on the accompanying map. The parcels are 
encumbered with several outstanding rights in Brigham City, including 
three pipelines, a right to construct a pipeline, and use of four 
springs.
    The Department does not object to conveyance of this NFS land, but 
notes that these parcels have not been officially described; a federal 
survey would be required in advance of conveyance. Although the bill 
does require the Town to cover the Federal land survey costs associated 
with the conveyance, it does not clearly state who would be responsible 
for bearing other administrative costs.
    We believe that the Forest Service could meet the objectives of the 
bill administratively through either the Townsite Act of July 31, 1958 
(16 U.S.C. 478a) or the Weeks Act of March 1, 1911 (16 U.S.C. 516) as 
supplemented by the Federal Land Policy and Management Act (FLPMA) of 
October 21, 1976 (P.L. 94-579, 90 Stat. 2743; 43 U.S.C. 1716; as 
amended). The Townsite Act authorizes communities to acquire up to 640 
acres of NFS land in order to serve community objectives and requires 
payment to the United States of the market value of the federal land. 
The Weeks Act authorizes the exchange of NFS land for non-Federal land 
on the basis of equal value.
    It is long standing policy that the United States receive market 
value for the sale, exchange or use of NFS land. This policy is well 
established in law, including the Independent Offices Appropriation Act 
(31 U.S.C. 9701), section 102(9) of FLPMA, as well as numerous land 
exchange authorities. The parcels were acquired by donation from Box 
Elder County in 1941. They have value to the United States for their 
potential to be used to facilitate future land exchanges.
    Mr. Chairman, regardless of the ultimate outcome of the 
congressional consideration of S. 683, the Forest Service is committed 
to working with the bill sponsors, the Town of Mantua, and the 
Committee, in hopes of assisting the Town. We would appreciate the 
opportunity to work with the Committee to address concerns with S. 683, 
including regarding the definition of public purpose and the 
revisionary language.
    Also, to avoid constitutional concerns, the Department of Justice 
recommends that the bill be revised to make absolutely clear that the 
town would have to agree to the proposed conveyance, which is what we 
understand Congress intends. This change might be accomplished by 
adding ``and subject to the Town's agreement'' after ``the Secretary 
shall convey to the Town,'' in section 2(b) of the bill.
    This concludes my statement and I would be happy to answer any 
questions you might have.
                                 s. 684
    Mr. Chairman and members of the Subcommittee, I am Mary Wagner, 
Associate Chief of the United States Forest Service.
    Thank you for the opportunity to appear before you today and 
provide the Department of Agriculture's views regarding S. 684, to 
provide for the conveyance of certain parcels of land to the town of 
Alta, Utah. S. 684 would direct the Secretary of Agriculture to convey, 
without consideration, certain parcels of National Forest System (NFS) 
land comprising approximately two acres located in the Uinta-Wasatch-
Cache National Forest to the Town of Alta, Utah, for public purposes. 
While supportive of the Town's desire to consolidate its municipal 
resources, the Department does not support S. 684.
    The Forest Service can convey the parcel under current authorities 
through the Townsite Act of July 31, 1958 (16 U.S.C. 478a). The 
Townsite Act authorizes communities to acquire up to 640 acres of NFS 
land in order to serve community objectives, and requires payment to 
the United States of the market value of the federal land. Similarly, 
the lands could be made available by exchange for equal value 
consideration.
    It is long standing policy that the United States receive market 
value for the sale, exchange, or use of NFS land. This policy is well 
established in law, including the Independent Offices Appropriation Act 
(31 U.S.C. 9701), section 102(9) of the Federal Land Policy and 
Management Act (43 U.S.C. 1701), as well as numerous land exchange 
authorities. Based on recent land sales in the Alta area, we estimate 
the value of the lands proposed to be conveyed under S. 684 to be 
approximately $500,000 per acre.
    Finally, S. 684 would require the Town of Alta to cover the Federal 
land survey costs associated with the proposed conveyance. It also 
should provide that the Town should bear other administrative costs 
associated with the conveyance.
    Although the Department does not support S. 684 as written, we are 
willing to work with the bill sponsors, the Town of Alta, and the 
Committee, in hopes of assisting the Town in achieving its desired 
consolidation of municipal resources.
    The Department of Justice also advises that the bill raises a 
constitutional concerns. In order to address this concern the 
Department of Justice recommends that the bill be revised to make 
absolutely clear that the town would have to agree to the proposed 
conveyance, which is what we understand Congress intends. This change 
might be accomplished by adding ``and subject to the Town's agreement'' 
after ``the Secretary shall convey to the Town,'' in section 2(b) of 
the bill.
    This concludes my statement and I would be happy to answer any 
questions you might have.
                                 s. 766
    Mr. Chairman, Honorable Ranking Member and distinguished members of 
the Committee, I am Mary Wagner, Associate Chief of the Forest Service. 
Thank you for the opportunity to speak with you today about a bill that 
addresses Wilderness designation in the coastal Douglas-fir forests of 
Oregon.
    S. 766 would designate an area known as the Devil's Staircase as 
wilderness under the National Wilderness Preservation System. In 
addition, S. 766 would designate segments of Wasson and Franklin Creeks 
in the State of Oregon and within the proposed Devil's Staircase 
Wilderness as wild rivers under the Wild and Scenic Rivers Act.
    The Department supports the designation of the Devil's Staircase 
Wilderness as well as the Wild and Scenic River designations on 
National Forest System lands. We would like to offer minor 
modifications to S. 766 that would enhance wilderness values and 
improve our ability to manage resources in the area.
    The Devil's Staircase area lies in the central Oregon Coast Range, 
north of the Umpqua River and south of the Smith River. Elevations in 
the area range from near sea level to about 1,600 feet. The area is 
characterized by steep, highly dissected terrain. It is quite remote 
and difficult to access. A stair step waterfall on Wasson Creek is the 
source of the name Devil's Staircase.
    The area that would be designated as wilderness by S. 766 
encompasses approximately 30,540 acres of National Forest System (NFS) 
and Bureau of Land Management (BLM) lands. NFS lands are approximately 
24,000 acres, and BLM lands are approximately 6,500 acres.
    All NFS lands that would be designated as wilderness are classified 
as Late Successional Reserve under the Northwest Forest Plan, which 
amended the Siuslaw National Forest LRMP in 1994. This land allocation 
provides for the preservation of old growth (late successional) habitat 
and is compatible with a wilderness designation. There are no planned 
resource management or developed recreation projects within the NFS 
portion of the lands to be designated as wilderness.
    Most of the area is forested with older stands of Douglas-fir and 
western hemlock, and red alder in riparian areas. All three tree 
species are under-represented in the National Wilderness Preservation 
System, relative to their abundance on NFS lands in Washington and 
Oregon. These older stands provide critical habitat and support nesting 
pairs of the northern spotted owl and marbled murrelet, which are 
listed as threatened species under the Endangered Species Act.
    The proposed Devil's Staircase Wilderness provides an outstanding 
representation of the Oregon Coast Range and would enhance the National 
Wilderness Preservation System. The Oregon Coast Range has been largely 
modified with development, roads, and logging. Three small wilderness 
areas currently exist along the Oregon portion of the Pacific Coast 
Range, and the proposed Devil's Staircase Wilderness would more than 
double the acres of old-growth coastal rainforest in a preservation 
status. Wilderness designation would also preserve the Devil's 
Staircase, which is a unique landscape feature.
    There are approximately 24 miles of National Forest System roads 
within the proposed boundary, 10.5 miles of which are not needed for 
administrative use and would be decommissioned and obliterated. The 
remainder would be converted to a trail as discussed below. The 
Department recognizes that decommissioning and obliteration of this 
magnitude may require the use of motorized equipment to remove road 
related structures and grading. We anticipate analyzing such use under 
the Forest Service's minimum requirements analysis process.
    The remaining 13.5 miles of road comprise Forest Service Road 4100, 
which bisects the proposed wilderness. The Department recommends that 
this road be converted and managed as a non-motorized, foot and/or 
horse trail compatible with wilderness uses. The Forest Service would 
use a minimum requirement analysis process to determine the appropriate 
tools necessary to complete activities associated with the road.
    The bill would transfer administrative jurisdiction over 49 acres 
of BLM land to the Forest Service. The Forest Service supports the 
transfer of jurisdiction.
    S. 766 also would designate approximately 10.4 miles of streams on 
National Forest System lands as part of the National Wild and Scenic 
Rivers System: 5.9 miles of Wasson Creek and 4.5 miles of Franklin 
Creek, both on the Siuslaw National Forest. Both Wasson and Franklin 
Creeks have been identified by the National Marine Fisheries Service 
(NMFS) as critical habitat for coho salmon (Oregon Coast ESU 
[Evolutionarily Significant Unit] of coho salmon), a threatened species 
under the Endangered Species Act. While the critical habitat portion of 
Wasson Creek is below the Devil's Staircase waterfall and thus largely 
outside the proposed wild and scenic designation, the designation will 
nevertheless help ensure that the lower portion of the creek remains 
suitable as coho habitat.
    The Department defers to, and agrees with, the Department of the 
Interior concerning the proposal to designate the 4.2-mile segment of 
Wasson Creek flowing on lands administered by BLM.
    The Forest Service conducted an evaluation of the Wasson and 
Franklin Creeks to determine their eligibility for wild and scenic 
rivers designation as part of the forest planning process for the 
Siuslaw National Forest. However, the agency has not conducted a wild 
and scenic river suitability study, which provides the basis for 
determining whether to recommend a river as an addition to the National 
Wild and Scenic Rivers System. Wasson Creek was found eligible as it is 
both free-flowing and possesses outstandingly remarkable scenic, 
recreational and ecological values. The Department supports designation 
of the 5.9 miles of the Wasson Creek on NFS lands based on the 
segment's eligibility.
    At the time of the evaluation in 1990, Franklin Creek, although 
free flowing, was found not to possess river-related values significant 
at a regional or national scale and was therefore determined ineligible 
for designation. Subsequent to the 1990 eligibility study, the Forest 
Service has found that Franklin Creek provides critical habitat for 
coho salmon, currently listed as threatened under the Endangered 
Species Act, and also serves as a reference stream for research because 
of its relatively pristine character, which is rare in the Oregon Coast 
Range. Due to the presence of coho salmon and the pristine character 
the Department does not oppose its designation. Designation of the 
proposed segments of both Wasson and Franklin Creeks is consistent with 
the proposed designation of the area as wilderness. The actual Devil's 
Staircase landmark is located on Wasson Creek.
    Mr. Chairman, this concludes my testimony. I am happy to answer any 
questions that you may have on Devil's Staircase Wilderness Act.
                                 s. 896
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify before you today on S. 896, the Public Lands 
Service Corps Act of 2011. I am Mary Wagner, Associate Chief of the 
Forest Service.
    S. 896 is a welcome amendment to the Public Lands Corps Act of 
1993. The Nation's forests and grasslands are unique and special 
ecosystems that the Forest Service manages to meet the needs of present 
and future generations. These lands yield abundant sustainable goods 
and ecosystem services for the American people. The National Forest 
System lands, managed under a multiple-use, sustained-yield mission are 
perfect places for the Public Lands Service Corps participants to learn 
and practice an array of conservation, preservation, interpretation and 
cultural resource activities, and take advantage of outstanding and 
unique educational opportunities. In states in every region, the Forest 
Service has benefited greatly from the services of Conservation Corps 
on National Forest System lands.
    The Department strongly supports S. 896. This bill would strengthen 
and facilitate the use of the Public Land Corps (PLC) program, helping 
to fulfill the vision that Secretary Vilsack has for engaging young 
people across America to serve their community and their country. It is 
also consistent with the goals of the President's America's Great 
Outdoors Initiative which includes catalyzing the establishment of a 
21st century Conservation Service Corps to engage young people in 
public lands service work. S. 896 will help USDA and our sister 
agencies, DOI, NOAA, expand opportunities for our youth to engage in 
the care of America's Great Outdoors, and is a great example of 
multiple agencies coming together to implement a shared goal.
    In recent years, the Forest Service has greatly expanded 
partnerships with local, state, and urban based conservation Corps 
programs and our Job Corps Center portfolio.
    Under S. 896, we will be able to increase partnerships with Corps 
programs and expand opportunities for Job Corps graduates in the Green 
Careers program. In 2010, our partnerships with the Students 
Conservation Association, The Corps Network, and multiple youth, 
conservation and veterans Corps in every region resulted in nearly 
5,500 youth and young adults serving on public lands. The expanded 
authority provided by S. 896 will improve the Act by providing 
increased flexibility to use interns and Conservation Corps teams. It 
will also help ensure that underserved populations are able to 
participate by defining minimum match requirements while also providing 
flexibility with the match requirement.
    The emphasis on experiential training and education will help 
promote the value of public service in addition to contributing to the 
accomplishment of much needed work. S. 896 will expand our usage of the 
PLSC in a variety of program areas by providing additional resources 
and mechanisms to engage young people in a range of developmental 
opportunities. This authority will further assist in providing even 
more outdoor opportunities that will nurture the next generation of 
public land stewards.
    The broader definition of natural, cultural and historic resource 
work under the amendment benefits the Nation's forests and grasslands 
by authorizing a wider variety of different types of youth engagement.. 
The expanded authority to engage Native Americans through the Indian 
Youth Service Corps and resources assistants and consulting interns 
will contribute to our goals of creating a more diverse workforce as we 
seek to fill positions in an aging workforce. These new and expanded 
authorities will ultimately promote public understanding and 
appreciation of the mission and work of the federal land, coastal and 
ocean management agencies.
    We appreciate the flexibility of the expanded authority in section 
205, which would authorize the use of residential facilities. Our 
history of program delivery through Forest Service Job Corps Civilian 
Conservation Centers has allowed us to reach more than six million 
youth since the program was established in 1964. The U.S. Forest 
Service operates residential Civilian Conservation Centers through an 
interagency agreement with the Department of Labor Job Corps program. 
The 2009 Omnibus appropriations Act authorized the Forest Service to 
operate six additional Job Corps Centers formerly run by the Bureau of 
Reclamation. The now 28 Job Corps Civilian Conservation Centers have 
the capacity to house, educate and train over 6,200 enrollees between 
the ages of 16 and 24. Our extensive experience operating residential 
facilities successfully has resulted in the establishment of many best 
practices and in-depth operational knowledge about residential 
conservation centers.
    The Job Corps Civilian Conservation Centers not only help cultivate 
and develop emerging leaders within the Forest Service, but also 
provide a pipeline of entry-level workers. Each year the Forest Service 
hires dozens of Job Corps graduates that have participated in forestry 
and conservation programs. Through Job Corps, the Forest Service is 
building a skilled and diverse workforce capable of advancing the 
agency's mission.
    With our partners, we can confidently leverage resources and expand 
our ability to develop a well-trained and responsible workforce in 
natural and cultural resources. Youth will participate in community 
service, restoration and stewardship projects; leadership and civic 
engagement programs; recreation; and team building and independent 
living skills training.
    The Forest Service is uniquely positioned to manage residential 
conservation centers on the National Forests and Grasslands. This 
initiative could become an important component of the emerging youth 
outdoors initiative. It will also provide us with a unique opportunity 
to develop and implement innovative programming that will engage more 
urban youth and people that have been previously underserved.
    There are a number of implementation issues that should be 
considered in establishing new residential conservation centers. These 
include the costs of operating and maintaining the facilities, 
potential liability issues, and questions about the impact on contract 
and labor laws. We would like to work with the Committee on addressing 
these types of issues.
    S. 896 would increase the opportunity for Public Lands Service 
Corps members to leverage their education and work experience in 
obtaining permanent full-time employment with Federal agencies, but we 
offer a few amendments to the bill that are outlined below:
1) Hiring preference
    The Administration recommends changing eligibility for former PLSC 
for noncompetitive hiring status from two years to one year. This 
change would make eligibility status consistent with other Government-
wide, non-competitive appointment authorities based on service outside 
of the Federal government.
2) Cost sharing for nonprofit organizations contributing to expenses of 
        resource assistants and consulting interns
    Under current law in the case of resource assistants, and under S. 
896 in the case of consulting interns, sponsoring organizations are 
required to cost-share 25 percent of the expenses of providing and 
supporting these individuals from ``private sources of funding.'' The 
Administration recommends giving agencies the ability to reduce the 
non-Federal contribution to no less than 10 percent, if the Secretary 
determines it is necessary to enable a greater range of organizations, 
such as smaller, community-based organizations that draw from low-
income and rural populations, to participate in the PLSC program. This 
would make the cost-share provisions for resource assistants and 
consulting interns parallel to the provisions under the bill for other 
PLSC participants.
3) Department-wide authorities
    The Administration recommends technical amendments to clarify that 
PLSC activities will be carried out on public lands as enumerated in 
the law. ``Eligible service lands'' may be interpreted to include non-
Federal lands.
4) Agreements with Partners on Training and Employing Corps Members
    The Administration recommends striking the provision in S. 896 that 
would allow PLSC members to receive federally funded stipends and other 
PLSC benefits while working directly for non-Federal third parties. The 
need for this language is unclear, since agencies already have 
flexibility in how they coordinate work with cooperating associations, 
educational institutes, friends groups, or similar nonprofit 
partnership organizations. Yet, the language could raise unanticipated 
concerns over accountability, liability, and conflicts of interest. For 
example, this language could allow an individual to receive a federally 
funded stipend under a PLSC agreement, and then perform work for a 
different non-federal group (such as a cooperating association) that is 
subject to agency oversight under different agreements. This language 
could blur the lines of responsibility that have been established in 
response to IG concerns over the management of cooperating associations 
and friends groups.
5) Living Allowance Differentials
    The Administration recommends striking the provision in S. 896 that 
would allow for the Secretary to provided living allowance 
differentials to employees. Current law provides the Secretary with 
broad authority to set ``living allowances'' at an appropriate rate. 
Adding ``cost-of-living'' language to a law that would modify 
compensation for Federal employees may unnecessarily introduce 
confusion.
    The Forest Service has offices already in place to help coordinate 
the Public Lands Service Corps through its National Job Corps Civilian 
Conservation Centers program and the Office of Recreation, Heritage and 
Volunteer Resources Volunteers (RHVR) and Service program. The Forest 
Service RHVR Volunteers and Service program could likely be the 
coordinating office for Public Lands Service Corps in the Forest 
Service.
    The Forest Service is fully committed to the advancement of young 
people through a variety of conservation projects, training, and 
service learning and conservation education. Along with the Bureau of 
Land Management, we can provide participants with an understanding of 
the agency's history and training on multiple-use and sustained-yield 
management of natural, cultural, historic, archaeological, recreational 
and scenic resources. Our mission, ``To sustain the health, diversity 
and productivity of the Nation's forests and grasslands to meet the 
needs of present and future generations,'' can only be achieved by 
educating future generations and training the future public and private 
land managers. In turn, they will promote the value of public service 
and continue the conservation legacy of natural resource management for 
the United States.
    The America's Great Outdoors initiative has generated a national 
dialogue on how to reconnect Americans with the outdoors. The AGO 
report released February 2011 includes a major emphasis on youth and 
career pathways. The very first goal in the report is ``develop quality 
conservation jobs and service opportunities that protect and restore 
America's natural and cultural resources''.
    USDA Forest Service staff are a part of an interagency workgroup 
that is presently working to 1) catalyze the establishment of a 21st 
Century Conservation Service Corps that will engage young Americans in 
public lands and water restoration; 2) work with OPM to improve career 
pathways and to review barriers to jobs in natural resource 
conservation and historic and cultural preservation; and 3) improve 
federal capacity for recruiting, training and managing volunteers and 
volunteer programs to create a new generation of citizen stewards. The 
proposed amendments to the Public Lands Corps Act align well with these 
objectives and will undergird our efforts to fully implement the 
President's America's Great Outdoors priorities.
    Mr. Chairman and Members of the Committee, this concludes my 
prepared statement. I am happy to answer any questions that you or 
Members of the Committee may have.

    Senator Wyden. Mr. Pool.

STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, OPERATIONS, BUREAU OF 
          LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Pool. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify on behalf of the Department of Interior 
on 13 bills affecting the Department before you today.
    As Deputy Director of the Bureau of Land Management, I'm 
here to discuss nine BLM related bills. I'm accompanied by my 
DOI colleagues to answer questions on other bills.
    With me today are Dr. John Eichelberger of the U.S. 
Geological Survey to respond to questions about S. 566.
    Linda Owens of the Office of Surface Mining on S. 897.
    George McDonald of the National Park Service for S. 896.
    The Department strongly supports S. 896 by strengthening 
and facilitating the use of Public Land Corps Program. This 
bill will help us fulfill Secretary Salazar's vision for 
promoting ways to engage young people across America to serve 
their community and their country. We would like to continue to 
work with the committee on the language in the bill.
    The Department of Interior also supports S. 292, to resolve 
claims to the Bering Straits Native Corporation in Alaska.
    S. 617, to convey certain Federal land to Elko County, 
Nevada and to take into trust for the Te-Moak Tribe of Western 
Shoshone Indians of Nevada.
    Both conveyance are intended for community purposes.
    S. 667, which designates the nearly 236,000 acre Rio Grande 
del Norte National Conservation Area in Northern New Mexico as 
well as 2 wilderness areas.
    S. 729, which affirms a final land patent that will protect 
critical habitat while allowing economic development in South 
Central Nevada.
    As S. 766 which designates the Devil's Staircase Wilderness 
Area in Oregon and designates segments of the Wasson and 
Franklin Creeks nearby as wild rivers.
    In addition, the Department supports the goal of Senate 
Bill 526, to provide for the conveyance of certain public lands 
in Mohave County, Arizona to the Arizona Game and Fish 
Commission for use as a public shooting range. The BLM also 
recommends technical and policy improvements to the bill.
    Regarding S. 270, which conveys 3 parcels of land to the 
city of LaPine, Oregon in Deschutes County, Oregon, the 
Department appreciates the improvements made to this bill since 
the last Congress, has no objections to the conveyances and 
would like to continue to work with Senator Wyden and the 
committee on the bill.
    The Department also supports Senate Bill 607, the Cathedral 
Rock and Horse Heaven Wilderness, which provides for a series 
of land exchange along the John Day River in Oregon and seeks 
to eventually designate those lands and adjacent public lands 
as wilderness.
    The Department and the U.S. Geological Survey thanks the 
committee for its work on Senate Bill 566, to establish a 
National Volcano Early Warning and Monitoring System. The USGS 
is working to address concerns in this bill as discussed in our 
statement for the record.
    S. 590 would convey 3 geographical miles of submerged lands 
adjacent to the Northern Mariana Island to the government of 
the Northern Mariana Islands. If enacted this legislation would 
give the Commonwealth of Northern Mariana Islands authority 
over submerged lands and consequently, the same benefits and 
authority as the territories in Guam, the Virgin Islands and 
American Samoa currently enjoy. The Administration will 
strongly support this bill, if amended, as outlined in the 
statement the Department has submitted for the record.
    I am also submitting for the record a statement from the 
Office of Surface Mining Reclamation and Enforcement regarding 
Senate Bill 897 which would allow non certified states and 
tribes to use certain SMCRA payments for non coal reclamation. 
While the Administration recognizes the importance of 
addressing hard rock mine hazards, the Department cannot 
support this bill because it is inconsistent with the 
President's fiscal year 2012 budget proposal to limit SMCRA 
payments to coal sites that pose the most danger to public 
health and safety and/or damage to the environment.
    Finally Senate Bill 427 provides a mineral withdrawal on 
certain public lands in Clark County, Nevada. The BLM is 
preparing an environmental impact statement on the site in 
accordance of the terms of a settlement agreement involving 
mineral claims and therefore defers taking a position on the 
bill.
    Thank you for the opportunity to testify. I'll take any 
questions at this time.
    [The prepared statement of Mr. Pool follows:]
Prepared Statement of Mike Pool, Deputy Director, Operations, Bureau of 
              Land Management, Department of the Interior
                                 s. 270
    Thank you for the opportunity to testify on S. 270, the La Pine 
Land Conveyance Act. The bill proposes to convey to the city of La Pine 
and Deschutes County, Oregon, three parcels (consisting of 150 acres, 
750 acres, and 10 acres). The BLM does not object to the conveyances in 
S. 270. We note that these conveyances are consistent with our existing 
authority under the Recreation and Public Purposes (R&PP) Act, so they 
could be accomplished administratively. We appreciate the improvements 
made to this legislation since last Congress, and would like the 
opportunity to continue to work with Senator Wyden and the Committee on 
S. 270.
Background
    La Pine is a rural community located in southern Deschutes County, 
Oregon. The BLM and the City of La Pine have a long history of working 
together and have completed several Recreation and Public Purposes 
(R&PP) Act conveyances, including the sites of the La Pine library and 
fire station. Since La Pine is surrounded by BLM-administered lands, 
community leaders have held ongoing discussions with the BLM concerning 
the city's need for additional land to serve other public purposes.
    The R&PP Act authorizes the Secretary of the Interior to lease or 
convey public lands for recreational and public purposes, such as 
campgrounds, municipal buildings, hospitals, and other facilities 
benefitting the public. The La Pine Special Sewer District submitted an 
R&PP application to BLM's Prineville District Office in 2007, and an 
amended application in January 2009, for 750 acres of BLM-administered 
lands on the eastern edge of the La Pine city limits. The District has 
informed BLM that its intention is to use the lands to expand their 
current wastewater treatment facilities. The parcel is largely vacant, 
but does contain rights-of-way for a natural gas pipeline, transmission 
line, and roads. This parcel of land is shown as ``Parcel B'' on the 
map prepared at the request of Senator Wyden, dated December 11, 2009. 
``Parcel C'' on the map is currently leased under R&PP through 2020 and 
consists of a library, parking lot and picnic area.
    Additionally, the City of La Pine has expressed an interest in 
developing a public rodeo grounds and equestrian center on a 150-acre 
parcel of BLM-administered lands adjacent to the southwest border of 
the city. This parcel is also largely vacant, but contains rights-of-
way for a road and transmission lines. It also provides important 
habitat and a travel corridor for elk. This parcel of land is shown as 
``Parcel A'' on the map prepared at the request of Senator Wyden, dated 
December 11, 2009.
                                 s. 270
    S. 270 proposes to convey, at no cost, to the city of La Pine and 
Deschutes County, Oregon, all right, title and interest of the United 
States to the three parcels (consisting of 150 acres, 750 acres, and 10 
acres), detailed on the map prepared at the request of Senator Wyden, 
dated December 11, 2009. These conveyances would be subject to valid 
existing rights and are intended to address the city's and county's 
stated need for additional land to accommodate the expansion of its 
wastewater treatment facilities and provide land for a public library, 
rodeo grounds and equestrian center.
    The bill requires that the three parcels of land be used only for 
purposes consistent with the R&PP Act and includes a reversionary 
clause to enforce that requirement. Finally, the bill requires the 
County to pay all administrative costs associated with the transfer.
    As a matter of policy, the BLM supports working with local 
governments to resolve land tenure issues that advance worthwhile 
public policy objectives. In general, the BLM supports the proposed 
conveyances, as they are consistent with the existing R&PP authority. 
We would like to work with Senator Wyden and the Committee to further 
address concerns related to Parcel A, which serves as an important 
travel corridor and shelter area for elk along the Little Deschutes 
River, either through additional boundary modifications or through 
identification of alternative sites. To avoid constitutional concerns, 
the Department of Justice recommends that the bill be revised to make 
absolutely clear that the city or county would have to agree to the 
proposed conveyance, which is what we understand Congress intends. This 
change might be accomplished by adding ``and subject to the city's or 
county's agreement'' after ``without reimbursement'' in section 3(a) of 
the bill.
Conclusion
    Thank you for the opportunity to testify. We look forward to 
working with Senator Wyden and the Committee to address the needs of La 
Pine, Oregon.
                                 s. 292
    Thank you for the opportunity to testify on S. 292, the Salmon Lake 
Land Selection Resolution Act. As a party to the Salmon Lake Area Land 
Ownership Consolidation Agreement, the BLM has supported efforts 
between the State of Alaska and the Bering Straits Native Corporation 
(BSNC) to resolve competing land selections at Salmon Lake. As such, 
BLM supports S. 292, with one minor technical amendment, because it 
will ratify the agreement between the BLM, BSNC, and the State of 
Alaska; and allow for a reasonable and practicable conveyance of lands 
in the Salmon Lake area.
Background
salmon lake is located on the seward peninsula, approximately 40 miles 
northeast of nome. the lake is one of the largest bodies of fresh water 
  on the peninsula, and has long been an important source of food and 
resources for the native people. because the area contains significant 
    fisheries and other subsistence resources, it remains a popular 
            resource and destination for local communities.
    The BLM is responsible for expediting the conveyance of Federal 
lands to Native corporations, including the BSNC, under the Alaska 
Native Claims Settlement Act (ANCSA), and to the State of Alaska under 
the Alaska Statehood Act of 1958.
    The BSNC, the Native regional corporation for the Bering Straits 
area, and the State of Alaska each sought to gain title to the Salmon 
Lake area through selection applications filed under respective 
provisions of ANCSA and the Alaska Statehood Act. However, the land 
addressed by the two applications overlapped. The BSNC and the State 
negotiated a resolution to this issue whereby each entity would receive 
title to distinct lands. The BLM supported this resolution, and the 
three parties signed the Salmon Lake Area Land Ownership Consolidation 
Agreement on July 18, 2007. Legislation is now required to ratify the 
Agreement between the United States (acting through the Department of 
Interior, BLM), the BSNC, and the State of Alaska. The Agreement would 
have expired January 1, 2011, but its term was extended until January 
1, 2013 in anticipation of ratifying legislation. Accordingly, the 
Department recommends that Section 3(1)(b) of the bill be amended to 
reflect the extension of the Agreement to January 1, 2013.
                                 s. 292
    S. 292 represents an opportunity to resolve the overlapping land 
selections between the BSNC and the State, The bill would ratify the 
Agreement between the BLM, the BSNC, and the State, and allow for 
finalization of land conveyances in the Salmon Lake area. The lands 
would be transferred in accordance with the terms of the signed 
agreement.
    As noted, the BLM supported the efforts between the BSNC and State, 
and signed the agreement to recognize the desires of the entities. The 
bill would also further the intent of the Alaska Land Transfer 
Acceleration Act of 2004 (PL 108-452), expediting the transfer of title 
to Federal lands to Native corporations and the State of Alaska.
Conclusion
    Thank you for the opportunity to testify in support of S. 292. I am 
happy to answer any questions.
                                 s. 427
    Thank you for the opportunity to testify on S. 427, the Sloan Hills 
Withdrawal Act. S. 427 would withdraw approximately 800 acres of BLM-
administered public land in Clark County, Nevada, from all forms of 
location, entry, and patent under the mining laws, and from disposition 
under all laws pertaining to mineral and geothermal leasing or mineral 
material sales, subject to valid existing rights. The BLM is presently 
preparing an Environmental Impact Statement (EIS) for two proposed 
competitive mineral material sales that would result in two open pit 
limestone quarries in this area, as required by settlement agreements 
between the BLM and two mining companies. Because the BLM is still in 
the process of analyzing the proposed sales, we defer taking a position 
on this legislation.
Background
    The Sloan Hills area is located approximately 15 miles south of the 
City of Las Vegas, and consists of approximately 800 acres of BLM-
administered public lands. The area is surrounded by public lands that 
are within the Southern Nevada Public Land Management Act (SNPLMA) 
boundary. The SNPLMA allows the BLM to sell land within this disposal 
boundary and use a portion of the sale proceeds to acquire 
environmentally sensitive lands elsewhere in Nevada. When Congress 
expanded the SNPLMA disposal boundary in 2002 (through PL 107-282), the 
Sloan Hills area was not included.
    The Sloan Hills area has an extensive mineral development history. 
Separate, but overlapping mining claims were filed on the site almost 
30 years ago, with little development occurring until the early 1990s. 
The two mining claimants in the area subleased their claims to CEMEX 
(formerly Rinker Materials West, LLC) and Service Rock Products Corp. 
(Service Rock). CEMEX subsequently filed a mining plan of operations. 
When the BLM receives a plan of operations for materials that may be 
common variety minerals and the mining claims were located on or after 
July 23, 1955, mining operations may not begin until the bureau 
completes a ``common variety determination'' to determine whether the 
materials are locatable under the Mining Law of 1872 (43 CFR 3809.101).
    Because the two mining claims overlapped, the BLM completed a 
common variety determination in 2004 for both sets of claims. The BLM 
concluded that the claimed materials (limestone and dolomite) were not 
locatable under the Mining Law of 1872. As a result, the BLM contested 
the mining claims. The contests were eventually settled, resulting in 
the BLM agreeing to analyze two competitive mineral materials sales. 
The settlement agreements do not restrict the BLM's discretion in 
approving or denying the proposed sales and the sales must comply with 
all applicable statutes and regulations (43 CFR 3600).
    In 2007, the BLM initiated an EIS to analyze the impacts of the two 
proposed competitive mineral materials sales. If approved, the projects 
would consist of two open pit limestone quarries that would operate for 
approximately 20 to 30 years, eventually merging into one open pit. The 
BLM is finalizing the Draft EIS and upon its release will solicit 
public comments on whether it should authorize the proposed sales. The 
Draft EIS will address potential impacts to: air quality, noise, water 
resources, and socio-economic conditions. The area surrounding Sloan 
Hills (located within the SNPLMA disposal boundary) may be developed 
for housing, commercial, and/or industrial uses during the lifetime of 
the potential sales contracts. Since the EIS process began, the BLM has 
received more than 800 letters and e-mails opposing or expressing 
concern about mining the site.
                                 s. 427
    S. 427 would withdraw approximately 800 acres of BLM-administered 
public land in Clark County, Nevada, from all forms of location, entry, 
and patent under the mining laws, and of disposition under all laws 
pertaining to mineral and geothermal leasing or mineral material sale 
subject to valid existing rights.
    A withdrawal from the mineral materials laws would prohibit the BLM 
from selling mineral materials in the Sloan Hills area, and would 
prohibit any future mineral use of the withdrawn lands, subject to 
valid existing rights.
    The BLM understands the concerns of Senator Reid, the Nevada 
Congressional delegation, Clark County and the City of Henderson 
regarding the proposed mineral materials sales, and the potential 
operations and associated air quality and noise impacts that could 
occur in close proximity to many neighborhoods. These and other issues 
will be considered in the Draft EIS.
Conclusion
    Thank you for the opportunity to testify. In accordance with the 
terms of the settlement agreement, the BLM is in the process of 
analyzing the proposed sales. Consequently, the BLM defers taking a 
position on the legislation at this time. The Bureau will continue to 
actively engage the public through an open and transparent EIS process 
to analyze the potential environmental impacts of the proposed mineral 
materials sales unless Congress chooses to legislate this withdrawal.
                                 s. 526
    Thank you for the opportunity to testify on S. 526, the Mohave 
Valley Land Conveyance Act of 2011, which proposes to transfer 315 
acres of public lands managed by the Bureau of Land Management (BLM) to 
the Arizona Game and Fish Department (AGFD) for use as a public 
shooting range. The BLM supports the goals of S. 526 but does not 
support the legislation as currently drafted. BLM is working with local 
governments and tribes to resolve land tenure issues. BLM's decision to 
authorize the land transfer included important mitigation measures 
which are not in the current legislation.
    For the past ten years, the BLM has been working with the AGFD, the 
Fort Mojave Indian Tribe, the Hualapai Tribe, and the public to find 
appropriate lands for a public shooting range within the Mohave Valley 
in Arizona. On February 10, 2010, the BLM made the decision to 
authorize the transfer of BLM lands to the AGFD (through the Recreation 
and Public Purposes Act of 1926, as amended, 43 U.S.C. 869 et seq.; 
R&PP) for use as a public shooting range. The decision, which is 
consistent with the goals of S. 526, provides a safe, designated 
shooting environment for the public and includes stipulations designed 
to respect the traditional beliefs of the Fort Mojave and Hualapai 
Tribes. The BLM will continue working with interested parties as we 
move forward with authorizing the shooting range.
Background
    In 1999, the AGFD first submitted an application to the BLM for 
development of a public shooting range on BLM-managed lands in Mohave 
County, near Bullhead City in northwestern Arizona. As a result, the 
BLM began working with the AGFD and other interested parties to assess 
appropriate lands to transfer to the AGFD for the purposes of a 
shooting range under the R&PP.
    The BLM evaluated the AGFD's application through an environmental 
assessment (EA) and considered numerous alternative locations 
throughout the Mohave Valley. The evaluation process was conducted with 
full public and tribal participation. There is an identified need for a 
designated public shooting range in this region because of the lack of 
a nearby facility, the amount of dispersed recreational shooting 
occurring on public and private lands raising public safety concerns, 
and the associated natural resource impacts from spent ammunition and 
associated waste.
    In 2002, the BLM began consultations with the Fort Mojave Indian 
Tribe and the Hualapai Tribe. In 2003, the BLM initiated consultation 
with the Arizona State Historic Preservation Officer (SHPO); and in 
2006, the BLM initiated Section 106 consultation with the Advisory 
Council on Historic Preservation (ACHP). These consultations, as 
required by Section 106 of the National Historic Preservation Act and 
other authorities, ensure Federal agencies consider the effects of 
their actions on historic properties, and provide the ACHP and SHPO an 
opportunity to comment on Federal projects prior to implementation.
    In addition to the Section 106 consultation process, the BLM 
initiated a year-long Alternative Dispute Resolution (ADR) process in 
2004 to help identify issues, stakeholder perspectives, and additional 
alternatives to meet the criteria for a safe and effective public 
shooting range in the Mohave Valley. However, the ADR process failed to 
reconcile differences between several consulting parties regarding a 
proposed location.
    In 2006, as part of continued Section 106 consultation with the 
ACHP, the BLM initiated site visits by the concerned parties and also 
continued efforts to identify alternative sites. Unfortunately, despite 
these efforts, the BLM was unable to reach an agreement with the 
consulted Tribes on any area within the Mohave Valley that the Tribes 
would find acceptable for a shooting range. The Tribes maintained their 
position that there is no place suitable within the Mohave Valley, 
which encompasses approximately 140 square miles between Bullhead City, 
Arizona, and Needles, California.
    Through the EA process, the BLM identified the Boundary Cone Road 
alternative to be the preferred location. Boundary Cone Butte, a highly 
visible mountain on the eastern edge of the Mohave Valley, lies 
approximately 3 miles east of the Boundary Cone Road site, and is of 
cultural, religious, and traditional importance to both the Fort Mojave 
Indian Tribe and the Hualapai Tribe. In an effort to address the 
primary concerns expressed by the Tribes over visual and sound issues, 
the BLM and AGFD developed a set of potential mitigation measures. 
Again, there was a failure to agree between the consulting parties on 
possible mitigation. In the end, the BLM formally terminated the 
Section 106 process with the ACHP in September 2008. In November 2008, 
ACHP provided their final comments in a letter from the Chairman of the 
ACHP to then-Secretary of the Interior Kempthorne.
    Although the Section 106 process was terminated, the BLM continued 
government-to-government consultations with the Tribes. In May of 2009, 
the BLM met with the Chairman of the Fort Mojave Indian Tribe, the 
AGFD, and the Tri-State Shooting Club in a renewed effort to find a 
solution. On February 3, 2010, after continued efforts to reach a 
mutually agreeable solution, the BLM presented the decision to approve 
the shooting range to the Fort Mojave Indian Tribe and the AGFD. The 
final decision included mitigation measures to address the concerns of 
the Tribes such as reducing the amount of actual ground disturbance; 
reducing noise levels with berm construction; monitoring and annual 
reporting on noise levels; and fencing to avoid culturally sensitive 
areas. The Secretary has the authority to take action to revest title 
to the land covered by the proposed R&PP patent if the AGFD fails to 
comply with mitigation measures. The final decision to amend the 
Kingman Resource Management Plan and dispose of the lands through the 
R&PP was signed on February 10, 2010.
    The BLM decision was appealed to the Interior Board of Land Appeals 
(IBLA) on February 23, 2010, by a private landowner near the proposed 
shooting range; and on March 15, 2010, a joint appeal by the Fort 
Mojave Indian Tribe and Hualapai Tribe was filed. The IBLA dismissed 
the appeal of the private landowner on July 29, 2010. The IBLA issued a 
stay of the BLM decision on April 15, 2010, at the request of the 
Tribes. A final decision by the IBLA on the Tribes' appeal was issued 
on December 7, 2010 (180 IBLA 158). The IBLA affirmed the BLM's 
decisions and determined that the BLM had taken a ``hard look'' at the 
impacts of conveying public lands to the AGFD for a shooting range. The 
IBLA decision stated that the EA had an appropriate range of 
alternatives and the environmental consequences were insignificant or 
if significant could be reduced or eliminated by mitigation. The IBLA 
also confirmed that the BLM complied with National Historic 
Preservation Act obligations. This decision allows the BLM to move 
forward in conveying the public lands to the AGFD.
    On December 21, 2010, the BLM informed the AGFD of the next steps 
for processing the administrative action of conveying the land for the 
shooting range. The AGFD is required to: (1) purchase the mineral 
estate or obtain a non-development agreement for the Santa Fe Railroad 
mineral estate (390 acres) under the disposal and buffer lands; (2) 
provide a detailed Plan of Development (Plan) that addresses the 
mitigation measures found in the BLM's Decision Record; (3) develop a 
Cooperative Management Agreement with the BLM for the 470-acre buffer 
area; and (4) provide the funds ($3,150) for purchase of the property. 
It is the BLM's understanding that the AGFD is negotiating a purchase 
agreement to acquire the mineral estate. The AGFD also submitted a 
draft Plan and is currently revising the Plan to address the additional 
guidance provided by the BLM, including the request to incorporate the 
Cooperative Management Agreement into the Plan.
                                 s. 526
    S. 526 provides for the conveyance to the AGFD of all right, title, 
and interest to the approximately 315 acres of BLM-managed public lands 
as identified in the final decision signed by the BLM on February 10, 
2010, to be used as a public shooting range. Furthermore, the 
legislation makes a determination that the February 10, 2010, Record of 
Decision is ``final and determined to be legally sufficient'' and ``not 
be subject to judicial review . . .'' The bill also provides that the 
lands must be used for purposes consistent with the R&PP Act and 
provides for an appropriate reversionary clause.
    As a matter of policy, the BLM supports working with local 
governments, tribes, and other stakeholders to resolve land tenure 
issues that advance worthwhile public policy objectives. The BLM 
acknowledges the lands proposed for development as a shooting range are 
of cultural, religious, and traditional significance to the Tribes 
which is why we support important mitigation measures. The bill as 
drafted does not include such mitigation measures. In general, the BLM 
supports the goals of the proposed conveyance, as it is similar to the 
transfer the BLM has been addressing through its administrative process 
for the last ten years. As noted, a decision has been made through the 
BLM administrative process and the IBLA affirmed the BLM decision, 
thereby dismissing the Tribes appeal that the BLM did not comply with 
various environmental laws. Under the provisions of S. 526, judicial 
review would be prohibited. The BLM will continue working to complete 
the conveyance of the lands to the AGFD for a shooting range.
    If the Congress chooses to legislate this conveyance, the BLM would 
recommend some improvements to the bill, including changes to section 
4(b), the incorporation of mitigation measures to address Tribal 
concerns, protection of valid existing rights, and an appropriate map 
reference.
Conclusion
    Thank you for the opportunity to testify. Resolution of this 
conveyance in a manner that is acceptable to all parties has been an 
important goal of the BLM as evidenced by more than ten years of 
negotiations and review. The BLM is confident the issued decision 
addresses the concerns of the interested parties, while providing 
critical recreational opportunities and benefits to the public.
                                 s. 566
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to provide the Department of the Interior's views on S. 
566, ``to provide for the establishment of the National Volcano Early 
Warning and Monitoring System.'' This opportunity arises on the 31st 
anniversary of the eruption of Mount St. Helens, which claimed 57 lives 
and destroyed more than 200 square miles of forest, much of it on 
public lands. The Department strongly supports the goals of the bill to 
enhance volcano monitoring and eruption response in the United States 
and would like to thank the Committee for its work. We note, however, 
that the activities called for in this bill are within the scope of 
existing Department of the Interior authorities, and already underway 
at the U.S. Geological Survey.
    The USGS operates a system of five volcano observatories for the 
purpose of reducing loss of life and property and minimizing social and 
economic disruptions during volcanic eruptions and their often 
protracted precursory phases. The USGS does this under the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act (P.L. 93-288, 
popularly known as the Stafford Act) as the lead Federal agency with 
responsibility to provide notification for earthquakes, volcanic 
eruptions, and landslides to enhance public safety and to minimize 
economic losses through timely forecasts and warnings based on the best 
possible scientific information.
U.S. Volcanic Hazards and USGS Capabilities
    The United States ranks as one of the top countries in the world in 
the number of active and potentially active volcanoes. Over the past 
three decades, 30 U.S. volcanoes have erupted on nearly 100 occasions, 
and an additional dozen volcanoes have exhibited periods of anomalous 
activity, unrest, that initially were worrisome but ultimately did not 
culminate in eruptions. In many respects, the country has been 
fortunate, because only the Mount St. Helens eruption of 1980 was large 
enough and close enough to communities to cause significant losses of 
life and property. Major eruptions would seem more common if the 
written history of our volcanic areas were not so short. The challenge 
is to be fully prepared for the next major event, wherever it may 
occur, as well as the smaller but much more common events that exact a 
continuing cost on human activities. We are not now fully prepared, a 
challenge that S.566 would help us to overcome.
    Volcanoes produce many kinds of destructive phenomena. Communities 
near Mount St. Helens in Washington were exposed to powerful explosions 
and mud flows. Substantial populations live on geologically recent mud 
flows from Mount Hood, Oregon and Mount Rainier, Washington. In Hawaii, 
Kilauea volcano has sent lava flows into residential communities. 
Noxious gas emissions have damaged agriculture and required closure of 
large areas of public lands downwind of the volcano. Critical highway 
arteries and major resort areas are located on and near massive young 
lava flows from Mauna Loa volcano. Ash eruptions of the type expected 
from California, Oregon, Washington and Alaska volcanoes will endanger 
aircraft and, if fallout is heavy, interfere with transportation, power 
generation, and water supply on the ground.
    Although many U.S. volcanoes are located on sparsely populated 
Federal lands, the threat to communities and infrastructure downstream 
and to aviation downwind nevertheless drives the need to properly 
monitor volcanic activity and provide forecasts and notifications of 
expected hazards. The most recent example of a remote volcano 
inflicting economic damage is the 2009 eruption of Mt. Redoubt, Alaska 
that disrupted civilian and military aviation operations with ash for 
more than a week and inundated an oil loading terminal with mud flows, 
thereby requiring suspension of oil and gas production in Cook Inlet. 
Without proper monitoring by the Alaska Volcano Observatory, 
interruption of air travel would have been greater and loss of life at 
the oil terminal might have occurred.
    Hazardous volcanic activity will continue to happen, and the 
ongoing exposure of human life and enterprise will continue to be a 
primary consideration driving USGS volcano monitoring efforts. 
Fortunately, volcanoes exhibit precursory unrest that if detected and 
analyzed quickly allows eruptions to be anticipated and communities at 
risk to be forewarned with sufficient time to implement response plans 
and mitigation measures. Careful monitoring of volcanoes, timely and 
credible eruption warnings delivered following pre-established 
protocols, and strong cooperation among federal agencies and the 
aviation industry have thus far prevented the kind of aviation crisis 
that gripped Europe in April 2010 during the eruption of 
Eyjafjallajokull in Iceland and resulted in global aviation sector 
losses of $2.6 billion with 7 million passengers affected.
    Monitoring volcanic activity in the United States is the 
responsibility of the USGS Volcano Hazards Program and is accomplished 
by the Alaska Volcano Observatory, Cascades Volcano Observatory, 
Yellowstone Volcano Observatory, Long Valley Observatory, and Hawaiian 
Volcanoes Observatory. To make maximum use of the Nation's scientific 
resources, the USGS operates the observatories with the help of 
universities and Federal and State agencies, through formal 
partnerships. With the exception of the Hawaiian Volcanoes Observatory, 
which was founded in 1912, U.S. volcano observatories have been 
established in response to specific eruptions or sustained levels of 
unrest. For example, the Cascades Volcano Observatory in Washington 
State was established in 1981, following the catastrophic awakening of 
Mount St. Helens in 1980, and continues to assess and monitor volcanic 
hazards in the Pacific Northwest. The Alaska Volcano Observatory was 
established in 1988 following an eruption of Augustine Volcano in Cook 
Inlet, just in time to deal with the eruption of Redoubt Volcano in 
1989-1990.
    The USGS Volcano Hazards Program also maintains an international 
rapid-response team under the Volcano Disaster Assistance Program 
(VDAP), co-funded by the U.S. Office of Foreign Disaster Assistance 
within the U.S. Agency for International Development (USAID). This team 
responds to emergencies worldwide when called upon by the U.S. 
Department of State and also works to build volcano observatory 
infrastructure in other countries that are subject to volcanic 
disasters. Through VDAP, the USGS gains experience with a broad 
spectrum of volcano behavior and participates in disaster response and 
mitigation activities in a variety of physical and cultural settings, 
all of which inform and improve our domestic volcano-response 
capabilities. The USGS plan for future improvement of monitoring and 
hazard communication depends heavily on this international experience.
    The USGS works closely with other Federal agencies that contribute 
to volcano monitoring. Geophysical instrumentation funded by the 
National Science Foundation as part of the EarthScope Program has 
supplemented USGS networks at volcanoes, and in turn NSF-supported 
infrastructure now makes USGS volcano monitoring data more readily 
available to the scientific community. Satellites operated by the 
National Oceanic and Atmospheric Administration (NOAA) provide 
important global remote-sensing data that can reveal volcanic hot 
spots, ash clouds, and gas clouds and are used by the volcano 
observatories to complement ground-based networks. (Only ground-based 
networks can provide forecasting capability.) The USGS also works 
closely with NOAA's Volcanic Ash Advisory Centers in Washington DC and 
in Anchorage, Alaska, which track the dispersion of volcanic-ash clouds 
hazardous to aircraft and disseminate advisories to the Federal 
Aviation Administration and commercial and military aircraft. The 
Smithsonian Institution's Global Volcanism Program, with which the USGS 
has been a longtime collaborator, supports volcano monitoring 
activities by maintaining a comprehensive database on the eruptive 
histories of volcanoes throughout the world, providing data that are 
critical to forecasting the likely future activity of restless 
volcanoes.
Rationale for a National Volcano Early Warning and Monitoring System
    We have learned from hard experience that waiting to deploy a 
robust monitoring effort until a hazardous volcano awakens forces 
scientists, civil authorities, businesses, and citizens to play ``catch 
up'' with the volcano, trying to get instruments and civil-defense 
measures in place before the situation worsens. Precious time and data 
are lost in the days or weeks it can take to deploy a response to a 
reawakening volcano--time and data that the public needs to prepare for 
the hazards they may confront. The race to install instruments on Mount 
St. Helens under the difficult and dangerous late winter conditions of 
March and April 1980 remains a good example.
    Volcanoes do not need to erupt to cause problems. Changes in a 
volcano's behavior that are noted by the local population--such as 
increased smell of sulfur gases, steaming at the summit, or felt 
earthquakes--may cause an over-reaction, especially if fueled by rumors 
of an imminent eruption. This over-reaction may extend beyond the 
average citizen to businesses and government agencies. Without proper 
instrumentation installed on a volcano, it is difficult to ascertain 
whether activity is within the range of normal background behavior and 
thus of little concern or is precursory to a significant eruption. In 
contrast, a well-instrumented volcano monitored by a local observatory 
coupled with an active program of community outreach can quickly 
replace rumors and speculation with sound scientific interpretation of 
the activity, thereby avoiding the social and economic disruption that 
an evacuation would produce. It follows therefore that all volcanoes 
capable of erupting should have in place a level of monitoring networks 
commensurate with the threat they pose to society.
    In 2005 the USGS published ``An Assessment of Volcanic Threat and 
Monitoring Capabilities in the United States: Framework for a National 
Volcano Early Warning System, NVEWS'' (http://pubs.usgs.gov/of/2005/
1164/). The report is a comprehensive survey of installed 
instrumentation on the Nation's volcanoes together with a rigorous 
ranking of volcanoes by threats posed to people and assets. This made 
possible a ``gap'' analysis, defining the deficit in needed monitoring 
as measured by threat potential, including the threat to aviation from 
remote Alaskan and Marianas volcanoes, and existing monitoring.
    The 2005 threat and instrumentation assessment found that only 
about half of the hazardous volcanoes in the U.S. have even basic 
(several seismic stations) monitoring networks. The gap analysis 
provided the basis for prioritizing volcanoes where monitoring should 
be upgraded. The report also recommended a number of other steps beyond 
instrumentation improvements, including easier access to monitoring 
data, formal continuous 24/7 vigilance--not just during crises, 
improved hazard-information products for decision-makers and the 
public, enhanced collaboration between USGS and external researchers, 
and innovative outreach to help communities develop risk-wise 
practices. These elements form the comprehensive NVEWS framework, which 
has been adopted as the USGS approach for the future of volcano hazards 
reduction in ``Facing Tomorrow's Challenges--U.S. Geological Survey 
Science in the Decade 2007-2017'' (USGS Circular 1309).
    After publication of the initial report in 2005, the USGS began to 
implement solutions to the most important issues identified in the 
recommendations. The $15.2 million in funding available for NVEWS under 
the American Recovery and Reinvestment Act (ARRA) was used to modernize 
existing monitoring equipment at Kilauea and Mauna Loa volcanoes in 
Hawaii, at Anatahan and Sarigan volcanoes in the Northern Mariana 
Islands, at Yellowstone Caldera in Wyoming, and at Spurr, Redoubt, and 
Augustine volcanoes of Cook Inlet, Alaska; the software and 
communication systems used to transmit data from monitoring networks 
also required modernization, especially in the Cascade Range of 
Washington, Oregon, and California. Additionally, ARRA funds were used 
to produce high-resolution topographic maps (LiDAR) of volcanic areas 
in the Pacific Northwest that will greatly aid in development of 
volcanic risk mitigation plans by local communities. Grants to 
universities have improved our understanding of the inner workings of 
Alaska volcanoes and documented impacts from recent eruptions.
    S.566 would authorize $15 million/year in additional funding to 
continue implementation of the NVEWS plan as the National Volcano Early 
Warning and Monitoring System (NVEWMS).
Elements of the National Volcano Early Warning System (NVEWS) and 
        National Volcano Early Warning and Monitoring System (NVEWMS)
          1. Improved monitoring infrastructure.--targeting the 
        volcanoes that are significantly under-monitored for the 
        threats posed. This will be done principally in Alaska, Hawaii, 
        the Commonwealth of the Northern Mariana Islands, California, 
        Washington, Oregon, and Wyoming. In addition to installation of 
        new networks and telemetry, out-dated patchwork monitoring 
        systems will be modernized. The goal is to detect the rise of 
        magma and assess the size of an impending eruption as early as 
        possible.
          2. Measures for reduced community vulnerability.--supporting 
        communities in developing plans for mitigating volcanic risk. 
        As with earthquakes, a key to risk mitigation is preparation. 
        This means working with state and local partners to define 
        high-risk areas and community vulnerabilities, creating new 
        hazard-information tools and products, and continuing to build 
        broad-based hazard awareness.
          3. An external grants program.--to engage the Nation's 
        broader scientific and natural hazards community in advancing 
        volcano monitoring science and technology and the societal 
        aspects of volcanic risk mitigation. Volcanology is advancing 
        rapidly both through growing understanding of volcanic 
        processes and through advances in technology that make possible 
        new kinds of observations. Many advances in understanding 
        volcanic processes and advancing relevant technologies have 
        occurred through the National Science Foundation's research 
        programs and through the efforts of USGS scientists. There is a 
        need, however, to broadly engage the Nation's scientific 
        community in rapid application of these developments to volcano 
        risk mitigation. This would be accomplished through a 
        competitive, peer-reviewed grants process to support 
        investigations complementary to but not duplicative of NSF-
        supported research.
          4. Interoperability among U.S. volcano observatories in order 
        to:

                  A) Provide full 24/7 Watch Operations as a backup for 
                routine observatory monitoring and to provide 
                situational awareness for partner federal agencies, 
                including FAA, NOAA, DHS/FEMA, and DOD, as well as 
                state and local agencies.
                  B) Establish a National Volcano Data Portal as a 
                gateway for access to U.S. volcano data. The free 
                exchange of data with the broader scientific community 
                and availability to the public is fundamental to 
                scientific advancement, risk mitigation, and government 
                transparency. Within the USGS observatories, rapid 
                access to historical volcano data system-wide, and 
                eventually globally, informs eruption response.

    The USGS will not carry out NVEWMS by itself but will build on its 
long record of successfully partnering with diverse groups that have 
expertise and data to share in the mission of helping people co-exist 
with dangerous volcanoes. Our partners range from the international 
under the aegis of the International Civilian Aviation Organization, 
UNESCO, and GEO to national levels, including the U.S. Agency for 
International Development, the Air Force Weather Agency, NOAA, and the 
Federal Aviation Administration, to the regional and local scale with 
neighboring universities and state agencies that are part of the 
structure of the volcano observatories.
Key Outcomes of NVEWMS implementation
    The key outcome of NVEWMS will be to strengthen the scientific 
contribution to volcano risk mitigation decisions. Comprehensive 
monitoring of the Nation's most hazardous volcanoes, coupled with 
greater understanding of volcanic processes, will improve forecasts of 
the onset, intensity, duration, and effects of expected hazards. New 
hazard-information products and dissemination methods will be developed 
by close collaboration between scientists and users. Timely and 
accurate warnings to en-route aircraft will help prevent dangerous 
encounters with volcanic ash while minimizing costly unnecessary 
rerouting of aircraft.
    Thus, civil authorities, businesses, and individuals at risk will 
have more time and better information to prepare, ensuring that their 
ability to respond will not lag behind the evolving behavior of a 
volcano. Volcanic unrest does not always culminate in eruption, and 
long-term volcano monitoring will provide sound, ongoing, scientific 
information throughout episodes of unrest so that problems related to 
over-reacting or under-reacting will be minimized.
    More than a network of instruments, NVEWMS will connect the 
monitoring and research results of scientists to the needs of decision-
makers at the national to local level, so that the impact of volcanic 
activity on the Nation is minimized
Conclusion
    The USGS appreciates the Committee's support for NVEWMS, which will 
strengthen our Nation's ability to respond successfully to future 
volcanic activity. We note that the activities called for in S. 566 are 
authorized by existing authorities and are already underway at the 
USGS. Any work conducted to fulfill the objectives of the bill would 
need to compete for funding with other Administration priorities.
    Thank you for the opportunity to present the Department's views on 
the National Volcano Early Warning and Monitoring Program Act.
                                 s. 590
    Mr. Chairman and members of the Committee, the Department of the 
Interior is pleased to provide this statement for the record in support 
of enactment of legislation that would convey the three geographical 
miles of submerged lands adjacent to the Northern Mariana Islands to 
the Government of the Northern Mariana Islands. The Administration 
would strongly support this bill if amended to address the issues 
outlined below
    The bill is intended to give the Commonwealth of the Northern 
Mariana Islands (CNMI) authority over its submerged lands from mean 
high tide seaward to three geographical miles distant from its coast 
lines.
    It has been the position of the Federal Government that United 
States submerged lands around the Northern Mariana Islands did not 
transfer to the CNMI when the Covenant came into force. This position 
was validated in Ninth Circuit Court of Appeals opinion in the case of 
the Commonwealth of the Northern Mariana Islands v. the United States 
of America. One consequence of this decision is that CNMI law 
enforcement personnel lack jurisdiction in the territorial waters 
surrounding the islands of the CNMI without a grant from the Federal 
Government.
    At present, the CNMI is the only United States territory that does 
not have title to the submerged lands in that portion of the United 
States territorial sea that is three miles distant from the coastlines 
of the CNMI's islands. It is appropriate that the CNMI be given the 
same authority as her sister territories.
    The Department has three comments on the bill, and then a 
recommendation. First, the Territorial Submerged Lands Act, which 
became public law in 1974, contains several sections that refer to the 
territories by name. S. 590 inserts the CNMI's name only in section 1, 
but not in section 2, which reserves military rights and navigational 
servitudes. In order to achieve consistency, the Department recommends 
that the CNMI be included in all provisions of the Territorial 
Submerged Lands Act where other territories are named.
    Second, S. 590 includes language interpreting ``date of enactment'' 
in the original act as meaning ``date of enactment'' of S. 590 when 
referencing the provisions of S. 590. For those who will later 
interpret the statute, it would be helpful if the interpretation is 
included in the main statute itself, rather than being relegated to a 
separately listed amendment or reference note.
    Third, on January 6, 2009, by presidential proclamation, the 
Marianas Trench Marine National Monument was created, including the 
Islands Unit, comprising the submerged lands and waters surrounding 
Uracas, Maug, and Asuncion, the northernmost islands of the CNMI. While 
creation of the monument is a historic achievement, it should be 
remembered that the leaders and people of the CNMI were and are these 
three islands' first preservationists. They included in their 1978, 
plebiscite-approved constitution the following language:

          ARTICLE XIV: NATURAL RESOURCES

                  Section 1: Marine Resources. The marine resources in 
                the waters off the coast of the Commonwealth over which 
                the Commonwealth now or hereafter may have any 
                jurisdiction under United States law shall be managed, 
                controlled, protected and preserved by the legislature 
                for the benefit of the people.
                  Section 2: Uninhabited Islands. . . . The islands of 
                Maug, Uracas, Asuncion, Guguan and other islands 
                specified by law shall be maintained as uninhabited 
                places and used only for the preservation and 
                protection of natural resources, including but not 
                limited to bird, wildlife and plant species.

    It is important to note that the legislature has never taken action 
adverse to the preservation of these northern islands and the waters 
surrounding them. The people of the CNMI are well aware of their 
treasures. CNMI leaders consented to creation of the monument because 
they believed that the monument would bring Federal assets for marine 
surveillance, protection, and enforcement to the northern islands that 
the CNMI cannot afford.
    If enacted as introduced, S. 590 would become a public law enacted 
subsequent to the creation of the monument. S. 590's amendments to the 
Territorial Submerged Lands Act would convey to the CNMI the submerged 
lands surrounding Uracas, Maug, and Asuncion without addressing the 
effect of this conveyance on the administrative responsibilities of the 
Department of the Interior and the Department of Commerce. Presidential 
Proclamation 8335 assigned management responsibility of the Marianas 
Trench Marine National Monument to the Secretary of the Interior, in 
consultation with the Secretary of Commerce. The proclamation further 
states that the ``Secretary of Commerce shall have the primary 
management responsibility. . .with respect to fishery-related 
activities regulated pursuant to the Magnuson-Stevens Fishery 
Conservation and Management Act (16 U.S.C. Sec. Sec.  1801 et seq.) and 
any other applicable authorities.'' The proclamation provides that 
submerged lands that are granted to the CNMI ``but remain controlled by 
the United States under the Antiquities Act may remain part of the 
monument'' for coordinated management with the CNMI. As envisioned by 
the Presidential Proclamation establishing the Marianas Trench Marine 
National Monument, the Department of the Interior is proposing an 
amendment to ensure that the outstanding resources in the waters 
surrounding the CNMI's three northernmost islands remain protected. 
Thus, the Department recommends that language be included in S. 590 
referencing the coordination of management contemplated within the 
Proclamation prior to the transfer of the submerged lands within the 
Islands Unit of the monument to the CNMI. This language is intended to 
protect the Islands Unit of the monument and at the same time 
acknowledge the prescient and historic conservation effort of the 
leaders and people of the CNMI in protecting Uracas, Maug, and 
Asuncion, and their surrounding waters.
    Appended to this statement is legislative language that would (1) 
address the submerged lands surrounding the Northern Mariana Islands to 
the Government of the Northern Mariana Islands, and (2) clearly address 
the three issues of concern to the Department. The Department of the 
Interior strongly supports S. 590 if it is amended to include the 
legislative language provided. The Department of the Interior looks 
forward to the Commonwealth of the Northern Mariana Islands gaining 
rights in the submerged lands surrounding them similar to those 
accorded her sister territories.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled, that Public Law 93-435 
(48 U.S.C. 1705) is amended:

          (a) by inserting the words `the Commonwealth of the Northern 
        Mariana Islands,' after the word `Guam,' wherever it appears, 
        and
          (b) by striking ``and'' before ``(xi)'' and inserting the 
        following after ``1961.'' at the end of Section 1(b):
          `(xii) any submerged lands within the Islands Unit of the 
        Marianas Trench Marine National Monument unless or until such 
        time as the Commonwealth of the Northern Mariana Islands enters 
        into an agreement with the Secretary of the Interior and the 
        Secretary of Commerce for the permanent protection and co-
        management of such portion of the Islands Unit.'; and
          (c) by adding at the end of Section 6 the following section:

          `Sec. 7. All provisions of this Act that refer to ``date of 
        enactment'', shall, when applicable to the Commonwealth of the 
        Northern Mariana Islands, mean the date of enactment of the 
        amendment that included the Commonwealth of the Northern 
        Mariana Islands in this Act.
                                 s. 607
    Thank you for inviting the Department of the Interior to testify on 
S. 607, the Cathedral Rock and Horse Heaven Wilderness Act. The 
Department generally supports S. 607, which would bring into Federal 
ownership certain lands along the John Day River in Oregon, and seeks 
to eventually designate those lands and adjacent public lands as 
wilderness. We appreciate the improvements made to this legislation 
since last Congress, and would like the opportunity to continue to work 
with Senator Wyden and the Committee on S. 607. We defer to the U.S. 
Department of Agriculture on those provisions of S. 607 involving the 
exchange of lands managed by the Forest Service.
Background
    Congress recognized the rugged beauty of the John Day River in 
central Oregon by designating it as a wild and scenic river in 1988 
(Public Law 100-557). Last year, the Bureau of Land Management (BLM) 
built on the success of that designation when President Barack Obama 
signed into law Public Law 111-11, the Omnibus Public Land Management 
Act of 2009. Title I, Subtitle J, of that Act provided for a series of 
land exchanges and the designation of the Spring Basin Wilderness in 
Wheeler County, along the east bank of the middle reaches of the John 
Day River.
    Along the western bank of the John Day Wild and Scenic River, just 
to the south of Spring Basin Wilderness, are some equally outstanding 
lands proposed to become the Cathedral Rock Wilderness. The lands 
planned for designation range from the cliffs and canyons along the 
river heading westerly to steep rolling hills punctuated by rocky 
escarpments. Wagner Mountain is located in the center of the proposed 
wilderness and is the highest point in the area. The geology is 
dominated by ancient volcanics, composed of andesite flows, plugs, and 
domes. The entire area is covered in rhyolite ash-flows which produce 
dramatic red, white, and buff colored soils. Hunters and hikers alike 
enjoy the breathtaking scenery as well as the resident mule deer and 
elk populations, while rafters brave the John Day's rapids. Cultural 
sites showcase prehistoric fossils, stone tools, and rock art.
    Four miles to the southwest of the Cathedral Rock region is the 
proposed Horse Heaven Wilderness. The name reflects Oregon's pioneer 
past when the flawless grasslands of the areas were a closely guarded 
secret. Today that secret is out and a wide range of recreationists 
enjoy the area's many opportunities. At more than 4,000 feet, Horse 
Heaven Mountain serves as a worthy centerpiece to a diverse landscape 
illustrating Oregon's high and low countries. Traveling south, rolling 
plains and steep terrain dominate the area; to the west, Muddy Creek is 
the area's lone perennial stream. Prairie steppes throughout connect 
hearty shrubs and woodlands that demonstrate steadfast resolve to 
thrive in the rocky soil.
                                 s. 607
    S. 607 provides for the exchange of lands between three private 
parties and the Federal government which would allow the consolidation 
of fragmented land patterns, the designation of two new potential 
wilderness areas, and a process for those areas becoming designated 
wilderness and components of the National Wilderness Preservation 
System. Should the land exchanges be completed, the additional land 
would greatly enhance the wilderness quality and manageability of the 
two areas proposed for wilderness.
    Section 3 of the bill outlines a series of land exchanges with 
three private parties. Under section 206 of the Federal Land Policy and 
Management Act (FLPMA), the BLM has the authority to undertake land 
exchanges that are in the public interest. Exchanges allow the BLM to 
acquire environmentally-sensitive lands while transferring public lands 
into private ownership for local needs and the consolidation of 
scattered tracts. In principle, the BLM supports the land exchanges 
envisioned by S.607; however, we would like the opportunity to continue 
to work with the sponsor and the Committee to address concerns 
specifically in the areas of public access and the protection of 
cultural resources.
    The lands proposed for exchange out of Federal ownership are 
largely scattered sections of public land intermingled with private 
land. The BLM in Oregon is continuing to assess these lands for their 
cultural resources and the need for possible mitigation. Many of these 
lands are significant to local tribes and we encourage continuing 
efforts to resolve the issues raised by the tribes.
    The bill requires that the exchanges be consistent with FLPMA, 
including the requirement that the Secretary determined that the public 
interest would be served by completing the exchange (section 3(b)). We 
believe that this provides the BLM latitude to withdraw specific lands 
from the exchange if any serious impediments are discovered. 
Furthermore, the legislation provides that the Secretary may add such 
additional terms and condition as appropriate (section 3(c)(5)). We 
believe this would allow the BLM to require that all non-Federal 
parties are responsible for addressing any human safety concerns or the 
remediation of hazardous materials on the lands to be exchanged out of 
present ownership. Finally, the BLM supports the provisions of the bill 
requiring that all three exchanges be equal value exchanges, and that 
the appraisals be undertaken consistent with Uniform Appraisal 
Standards.
    Section 4 of S. 607 proposes to designate two potential wilderness 
areas, the ``Proposed Cathedral Rock Wilderness'' and the ``Proposed 
Horse Heaven Wilderness'' on the lands that would be consolidated under 
the land exchanges envisioned by section 3 of the bill. When those land 
exchanges are completed, the Cathedral Rock Wilderness would include 
over 8,300 acres of public land and the Horse Heaven Wilderness 9,000 
acres. The legislation provides a process in section 4(b) for 
converting the ``proposed'' wilderness areas into designated wilderness 
following adequate acquisitions of the now private lands. The BLM could 
manage these areas as wilderness following the exchanges. However, 
absent the largest exchange envisioned under S. 607, these areas would 
be impracticable for the BLM to manage as wilderness. That proposed 
exchange with the local landowner, ``Young Life,'' involves the core of 
both the proposed Cathedral Rock and Horse Heaven wilderness areas.
    The current land patterns of both the ``Proposed Cathedral Rock 
Wilderness'' and ``Proposed Horse Heaven Wilderness'' are highly 
fragmented. The BLM manages approximately 4,500 acres in seven non-
contiguous parcels within the Cathedral Rock area and less than 3,000 
acres in two separate parcels within Horse Heaven. The land exchanges 
are, of course, optional for the three private parties. If, in the end, 
the largest private land owner decided not to pursue the exchange, 
managing the areas as wilderness would not be practical given the 
fragmented nature of the BLM landholdings in these two areas. The BLM 
supports the provisions for interim management of the ``proposed'' 
areas and the methodology for final designation if sufficient land 
exchanges are consummated. We would like to continue to work with the 
sponsor and the Committee on issues concerning sufficient public access 
to the proposed wilderness areas.
    Finally, section 3(g) of S. 607 would transfer the administrative 
jurisdiction of approximately 750 acres of BLM-managed lands to the 
Forest Service. The BLM supports this transfer of lands which will 
improve manageability.
Conclusion
    The proposed Cathedral Rock and Horse Heaven Wilderness areas could 
be outstanding additions to the National Wilderness Preservation System 
if the critical exchanges envisioned by the legislation are completed. 
We look forward to working with Senator Wyden and the Committee toward 
that end.
                                 s. 617
    Thank you for the opportunity to testify on S. 617, the Elko 
Motocross and Tribal Conveyance Act. S. 617 would convey, without 
consideration, approximately 275 acres of land managed by the Bureau of 
Land Management (BLM) to the County of Elko, Nevada. The legislation 
also directs that approximately 373 additional acres of BLM-managed 
lands be taken into trust for the Te-Moak Tribe of Western Shoshone 
Indians of Nevada. The BLM supports the conveyances. We would like to 
work with the sponsor and the Committee on minor technical amendments 
to the bill.
Background
    The Elko Motocross and Tribal Conveyance Act represents years of 
cooperative efforts between the Te-Moak Tribe of Western Shoshone 
Indians of Nevada (Tribe), the City of Elko (city), the County of Elko 
(county), and the BLM. Both the county and the Tribe have had on-going 
discussions with the BLM about various lands near the city.
    The Recreation and Public Purposes Act (R&PP) Act authorizes the 
Secretary of the Interior to lease or convey public lands for 
recreational and public purposes, including campgrounds, municipal 
buildings, hospitals, and other facilities benefitting the public, and 
this administrative authority could be utilized for the Elko 
conveyance. The county submitted an R&PP application to the BLM in 2005 
for approximately 266 acres. The county intended to use the land for a 
motocross/off-highway vehicle training and recreation area for the 
public. This parcel is largely vacant, but contains a number of rights-
of-way, including a road and a gas pipeline. The BLM Elko Resource 
Management Plan (RMP) identified this parcel as available for disposal 
in support of community expansion.
    The land for which the Tribe seeks trust status is adjacent to an 
existing parcel of the Elko Colony. The Elko Colony, approximately 190 
non-contiguous acres adjacent to the city, is one of four separate 
colonies inhabited by the Te-Moak Tribe of Western Shoshone Indians. 
The population of the Elko Band of the Te-Moak Tribe has grown 
steadily, but because their land base has remained unchanged for many 
years additional land is needed for housing and community development. 
This parcel is also largely vacant, but contains two rights-of-way held 
by the city for water pipelines and storage, and one right of way for a 
future city road. The BLM Elko RMP also identifies this parcel as 
available for disposal in support of community expansion.
                                 s. 617
    S. 617 proposes to convey approximately 275 acres of BLM-managed 
lands to the county at no cost for a public motocross park. The 
conveyance would be subject to valid existing rights. The bill requires 
that the land be used only for purposes consistent with the R&PP Act 
and includes a reversionary clause to enforce that requirement. 
Finally, the bill requires the county to pay all administrative costs 
associated with the transfer.
    The bill also directs that approximately 373 acres of land 
currently administered by the BLM be taken into trust for the Tribe. S. 
617 also addresses valid existing rights and gaming.
    As a matter of policy, the BLM supports working with local 
governments to resolve land tenure issues that advance worthwhile 
public policy objectives. In general, the BLM supports conveyances if 
the lands are to be used for purposes consistent with the R&PP Act and 
include a reversionary clause at the discretion of the Secretary to 
enforce that requirement. The BLM strongly believes that open 
communication between the BLM and tribes is essential in maintaining 
effective government-to-government relationships. In this spirit, the 
BLM has had a cooperative working relationship with the Te-Moak Tribe 
of Western Shoshone Indians of Nevada on this requested conveyance. As 
such, the BLM supports S. 617 with minor technical amendments. To avoid 
constitutional concerns, the Department of Justice recommends that the 
bill be revised to make absolutely clear that the city or county would 
have to agree to the proposed conveyance, which is what we understand 
Congress intends. This change might be accomplished by adding ``and 
subject to the city's or county's agreement'' after ``without 
reimbursement'' in section 3(a) of the bill.
Conclusion
    Thank you for the opportunity to testify. We look forward to 
continuing to work with the bill's sponsor and Committee on this 
important legislation.
                                 s. 667
    Thank you for the opportunity to testify on S. 667, the Rio Grande 
Del Norte National Conservation Area Establishment Act. The Department 
of the Interior supports S. 667, which designates the nearly 236,000-
acre Rio Grande Del Norte National Conservation Area (NCA) in northern 
New Mexico as well as two wilderness areas within the NCA.
Background
    The proposed Rio Grande del Norte NCA lies north of Taos on the 
border with Colorado and straddles Taos and Rio Arriba Counties. The 
area includes the Cerro de la Olla, Cerro San Antonio and Cerro del 
Yuta volcanic cones jutting up from the surrounding valley--reminders 
of the area's turbulent geologic past. Between these mountains is the 
Rio Grande Wild & Scenic River gorge, carving through the landscape and 
revealing the basalt rock beneath the surface.
    The human history of the landscape is as diverse as its features. 
Early prehistoric sites attest to the importance of this area for 
hunting and as a sacred site. Today the area is home to members of the 
Taos Pueblo, as well as descendents of both Hispanic and American 
settlers. Wildlife species--including bighorn sheep, deer, elk and 
antelope--bring both hunters and wildlife watchers, while the Rio 
Grande and its tributaries provide blue ribbon trout fishing and other 
river recreation. Above it all soar the golden and bald eagles, prairie 
falcons, and other raptors.
                                 s. 667
    S. 667 designates nearly 236,000 acres of land administered by the 
Bureau of Land Management (BLM) as the Rio Grande del Norte NCA. Each 
of the NCAs designated by Congress and managed by the BLM is unique. 
For the most part, however, they have certain critical elements, which 
include withdrawal from the public land, mining and mineral leasing 
laws; off-highway vehicle use limitations; and language that charges 
the Secretary of the Interior with allowing only those uses that 
further the purposes for which the NCA is established. Furthermore, NCA 
designations should not diminish the protections that currently apply 
to the lands. Section 3 of the bill honors these principles, and we 
support the NCA's designation.
    Section 4 of the S. 667 designates two wilderness areas on BLM-
managed lands within the NCA--the proposed 13,420-acre Cerro del Yuta 
Wilderness and the 8,000-acre Rio San Antonio Wilderness. Both of these 
areas meet the definitions of wilderness. They are largely untouched by 
humans, have outstanding opportunities for solitude and contain 
important geological, biological and scientific features--criteria 
outlined in the Wilderness Act of 1964. We support both of these 
wilderness designations as well.
Conclusion
    Senator Bingaman's bill is the product of many years of discussions 
and collaboration with the local community, stakeholders, and other 
interested parties. It protects both the valuable resources of the area 
and the way of life in this unique area of northern New Mexico.
    Thank you for the opportunity to testify in support of S. 667.
                                 s. 729
    Thank you for the opportunity to testify on H.R. 729, a bill which 
affirms a land patent and an associated land reconfiguration completed 
in 2005. These land transactions protect habitat for desert tortoise 
and other Mojave Desert wildlife species while providing for economic 
development in rural south-central Nevada. The BLM supports this bill, 
which passed the House of Representatives without amendment on July 15, 
2009.
Background
    The Nevada-Florida Land Exchange Authorization Act of 1988 (NFLEA, 
P.L.100-275) authorized the exchange of approximately 29,055 acres 
(``fee'' lands) of BLM-administered lands in Coyote Springs Valley, 
Clark and Lincoln Counties, Nevada, for approximately 5,000 acres of 
private land in the Florida Everglades owned by Aerojet-General 
Corporation (Aerojet). The purpose of the land exchange was to protect 
habitat in Florida needed for the recovery of wildlife species listed 
under the Endangered Species Act (ESA). The NFLEA also entitled Aerojet 
to lease an additional 13,767 acres (``leased'' lands) of BLM-
administered land in Coyote Spring Valley for 99 years, with an 
automatic 99-year lease renewal term unless terminated by the lessee.
    Aerojet initially intended to use the fee lands for the 
construction of rocket manufacturing facilities. The Federal leased 
lands were to remain substantially undeveloped and serve as a 
conservation area and buffer for the rocket facilities. Aerojet never 
built the manufacturing facilities and the fee lands changed ownership 
in 1996 and 1998. In accordance with the NFLEA, the Secretary of the 
Interior approved the assignment of the leased lands from Aerojet to 
Harrich Investments LLC, and then from Harrich Investments to Coyote 
Springs Investment LLC (CSI), respectively.
    CSI proposed to develop a planned community on the original Aerojet 
fee lands. Because the proposed development would affect critical 
habitat for the desert tortoise, an ESA listed species, the U.S. Fish 
and Wildlife Service (FWS) asked the BLM in 2001 to consider 
reconfiguring the boundary of the leased lands to benefit desert 
tortoise habitat. Reconfiguration of the leased lands was undertaken 
pursuant to the NFLEA.
    Under the original configuration, the leased land was an island 
surrounded by the fee lands acquired by Aerojet. This configuration was 
designed to meet the needs of the planned Aerojet manufacturing 
facilities, but it provided limited habitat conservation benefits. 
Reconfiguring the lands would enhance conservation by consolidating the 
fee lands in a single parcel adjacent to U.S. Highway 93, and by 
placing the leased lands contiguous to protected habitat on BLM-managed 
public lands. This configuration would increase habitat connectivity 
and provide more effective conservation for desert tortoise and other 
Mojave Desert species.
    In 2005, the Bureau of Land Management (BLM) issued a corrective 
patent to CSI for the reconfigured lands in Clark County. The Western 
Lands Project and the Nevada Outdoor Recreation Association 
(plaintiffs), who claimed that the BLM should have prepared an analysis 
of the corrective patent under the National Environmental Policy Act 
(NEPA) and the Federal Land Policy and Management Act (FLPMA), 
subsequently brought suit in the U.S. District Court in Nevada. The 
action was dismissed by stipulation of the parties before briefing on 
the merits.
    Continuing with its project proposal, CSI then prepared a Multiple 
Species Habitat Conservation Plan (MSHCP) to protect tortoise habitat 
and, consistent with the ESA, applied to the U.S. Fish and Wildlife 
(FWS) for an ``incidental take'' permit necessary for project approval. 
The FWS, with the BLM as a cooperating agency, assessed the CSI 
proposal in an Environmental Impact Statement completed in July 2008. 
In October 2008, the FWS issued a Record of Decision authorizing an 
incidental take permit to CSI with numerous conservation stipulations 
to protect desert tortoise habitat. A key conservation stipulation is 
the land reconfiguration authorized by the BLM's corrective patent.
                                 s. 729
    S. 729 affirms and validates the corrective patent issued by the 
BLM in 2005 and its associated land reconfiguration. The bill enables 
implementation of the land reconfiguration stipulated in the Coyote 
Spring MSHCP, which will protect critical habitat while allowing 
economic development in south-central Nevada. The BLM supports the 
bill.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions that you may have.
                                 s. 766
    Thank you for inviting the Department of the Interior to testify on 
S. 766, the Devil's Staircase Wilderness Act of 2011. The Bureau of 
Land Management (BLM) supports S. 766 as it applies to lands we manage.
Background
    The proposed Devil's Staircase Wilderness, near the coast of 
southwestern Oregon, is not for the faint of heart. Mostly wild land 
and difficult to access, the Devil's Staircase reminds us of what much 
of this land looked like hundreds of years ago. A multi-storied forest 
of Douglas fir and western hemlock towers over underbrush of giant 
ferns, providing critical habitat for the threatened Northern Spotted 
Owl and Marbled Murrelet. The remote and rugged nature of this area 
provides a truly wild experience for any hiker.
                                 s. 766
    S. 766 proposes to designate over 30,000 acres as wilderness, as 
well as portions of both Franklin Creek and Wasson Creek as components 
of the Wild and Scenic Rivers System. The majority of these 
designations are on lands managed by the U.S. Forest Service. The 
Department of the Interior defers to the U.S. Department of Agriculture 
on those designations.
    Approximately 6,830 acres of the proposed Devil's Staircase 
Wilderness and 4.2 miles of the Wasson Creek proposed designation are 
within lands managed by the BLM. The Department of the Interior 
supports these designations.
    We note that while the vast majority of the acres proposed for 
designation are Oregon &California (O&C) lands, identified under the 
1937 O&C Lands Act for timber production, the BLM currently restricts 
timber production on these lands. These lands are administratively 
withdrawn from timber production by the BLM through various 
administrative classifications. Additionally, the BLM estimates that 
nearly 90 percent of the area proposed for designation is comprised of 
forest stands that are over 100 years old, and provides critical 
habitat for the threatened Marbled Murrelet and Northern Spotted Owl.
    The 4.2 miles of Wasson Creek would be designated as a wild river 
to be managed by the BLM under S. 766. The majority of the acres 
protected through this designation would be within the proposed Devil's 
Staircase wilderness designation, though 376 acres would be outside the 
proposed wilderness on adjacent BLM lands.
    The designations identified on BLM-managed lands under S. 766 would 
result in only minor modification of current management of the area and 
would preserve these wild lands for future generations.
Conclusion
    Thank you for the opportunity to testify in support of these 
important Oregon designations. The Department of the Interior looks 
forward to welcoming these units into the BLM's National Landscape 
Conservation System.
                                 s. 896
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 896, a bill to amend the Public 
Lands Corps Act of 1993 to expand the authorization of the Secretaries 
of Agriculture, Commerce and the Interior to provide service 
opportunities for young Americans; help restore the nation's natural, 
cultural, historic, archaeological, recreational and scenic resources; 
train a new generation of public land managers and enthusiasts; and 
promote the value of public service.
    The Department strongly supports S. 896. This bill would strengthen 
and facilitate the use of the Public Land Corps (PLC) program, helping 
to fulfill Secretary Salazar's vision for promoting ways to engage 
young people across America to serve their community and their country. 
During the last Congress, the Department testified in support of 
similar bills in both the House and the Senate. While we appreciate the 
revisions to last Congress's versions of the legislation that are 
reflected in S. 896, we would like to have the opportunity to work with 
the committee on the amendments described in this statement and any 
additional issues that we identify as we continue our review of the 
bill.
Engaging America's Youth Through Service
    While there are other Federal programs that promote service, 
expanding the use of the Public Land Corps is particularly important 
because it also serves other high-priority goals. The Corps reconnects 
young people with their natural environment and cultural heritage; 
conserves energy and increases out use of alternative sources of 
energy; and provides education, training, and career-building 
experiences which may support a pathway to careers in Federal land 
management agencies, which need new, younger and more diverse 
employees.
    Secretary Salazar created the Youth in Natural Resources program 
during his tenure at the Colorado Department of Natural Resources as a 
way to educate thousands of young people about Colorado's natural 
resources, and he saw firsthand what a difference it made in their 
lives. From the day he was nominated as Secretary of the Interior, he 
has emphasized that one of his top priorities would be to find more 
ways to introduce young Americans from all backgrounds to the beauty of 
our national parks, refuges, and public lands and to promote an ethic 
of volunteerism and conservation in this Country's youngest generation. 
Enactment of this legislation helps pave the way to meeting one of the 
Secretary's top priority goals--to develop a 21st Century Conservation 
Service Corps. Engaging youth in the great outdoors through educational 
and employment opportunities is one of the primary focuses of the 
Administration's America's Great Outdoors initiative , and is a great 
example of multiple federal agencies coming together for a common goal. 
S. 896 would help both the Department and our sister agencies, USDA and 
the Department of Commerce, offer expanded opportunities for our youth 
to engage in the care of America's Great Outdoors.
Background on Public Land Corps Program
    The Department regards the Public Land Corps program as an 
important and successful example of civic engagement and conservation. 
Authorized by the National and Community Service Trust Act in 1993, the 
program uses non-profit organizations such as the Student Conservation 
Association (SCA) and other service and conservation corps 
organizations affiliated with the Corps Network as the primary partners 
in administering the Public Land Corps program. These public/private 
partnership efforts help to leverage Federal dollars in some cases 3 to 
1 and have assisted the Department in increasing youth employment 
opportunities by 45% from FY2009 to FY2010. In addition, other non-
profit youth organizations such as the YMCA also participate, as do 
local high schools and job-training youth organizations. The youth 
organizations assist the National Park Service (NPS) in its efforts to 
attract diverse participants to the parks by recruiting youth 16-25 
years of age from all socioeconomic, cultural and ethnic backgrounds.
    The National Park Service makes extensive use of the Public Land 
Corps Act. This authority is used for the majority of all NPS youth 
work projects that utilize a non-profit youth-serving organization as a 
partner. In FY 2010, 3,006 employment opportunities\1\ were created 
through the projects undertaken by these partner organizations. Many of 
these projects were for maintenance and ecological restoration 
purposes. The NPS receives a 25 percent cost match from the 
participating partner organizations. During FY 2010, the NPS spent $4.4 
million in Service-wide fee revenue and approximately $2 million in 
park-specific fee revenue, as well as approximately $2.5 million in 
appropriations for the Youth Intern Program, on PLC projects.
---------------------------------------------------------------------------
    \1\ Not less than 80 hours of pay compensation which can be in the 
form of a stipend or hourly wage, which must be through a cooperative 
agreement. Includes both projects involving work crews and individual 
internships.
---------------------------------------------------------------------------
    An example of what this program has accomplished is exemplified by 
the work of one PLC partner organization, the Greening Youth 
Foundation, which recruited and trained 16 at-risk young adults from 
Denver. From April, 2010, through February, 2011, these 18- to 24-year 
olds earned green certifications that enabled them to conduct energy 
audits and energy retrofits at all the national park sites in Colorado 
and Arizona. The work provided marketable skills to its young 
participants and energy savings to the parks.
    The Bureau of Land Management (BLM) and the U.S. Fish and Wildlife 
Service (FWS) also have a long history of employing young people 
through the Youth Conservation Corps and through the SCA and other 
youth service and conservation organizations for a wide array of 
projects related to public lands resource enhancement and facility 
maintenance under the Public Lands Corps Act. Though most Corps are 
affiliated with the nationwide Corps Network, they are often 
administered at the State, rather than national level. The FWS and SCA 
have partnered for over 20 years to offer work and learning 
opportunities to students. In FY 2010, 218 Conservation interns served 
at 90FWS sites, contributing more than 157,040 hours of work.
    The BLM has engaged the services of non-profit youth service corps 
for many years under financial assistance agreements at the state and 
local level.. In 2010, the BLM supported 1,689 youth employees through 
non-profit youth service corps organizations. t They participated in a 
variety of conservation service activities such as recreation and river 
management, historic building restoration and maintenance, seed 
collection, and invasive species control. BLM's Salem Oregon District, 
for example, hires a mixture of Northwest Youth Corps, Clackamas 
County, and Columbia River Youth Corps members each year to perform a 
variety of activities such as trail maintenance and construction.
    The FWS manages 553 units of the National Wildlife Refuge System 
that cover over 150 million acres of land and waters, as well as 70 
National Fish Hatcheries, which would directly benefit from programs 
authorized under S. 896. National Wildlife Refuges and National Fish 
Hatcheries enjoy strong relationships with the local communities, and 
are involved in many community-based projects that help maintain 
sustainable landscapes. The FWS's work is also supported by over 200 
non-profit Friends organizations that assist in offering quality 
education programs, mentoring, and work experience for youth.
    In 2010, the FWS employed 858 youth employees through local, State, 
and non-profit youth service corps. The FWS has provided funding for a 
YCC program involving the Mescalero Apache youth at the Mescalero 
Tribal Hatchery in New Mexico. The FWS has working relationships with 
numerous colleges and universities for students interested in pursuing 
careers in fish and wildlife management.
The Public Lands Service Corps Act of 2011
    S. 896 would make several administrative and programmatic changes 
to the Public Land Corps Act. These changes would encourage broader 
agency use of the program, make more varied opportunities available for 
young men and women, and provide more support for participants during 
and after their service. Appropriately, S. 896 would change the 
program's name to Public Lands Service Corps, reflecting the emphasis 
on ``service'' that is the hallmark of the program. President Obama is 
committed to providing young people with greater opportunities and 
incentives to serve their community and country. Through an enhanced 
Public Lands Service Corps, we would be taking a critical first step 
that direction.
    Key changes that the legislation would make to existing law 
include:

  <bullet> Adding the Department of Commerce's National Oceanic and 
        Atmospheric Administration, which administers national marine 
        sanctuaries and conservation programs geared toward engaging 
        youth in science, service and stewardship, as an agency 
        authorized to use the program;
  <bullet> Establishing an Indian Youth Corps so Indian Youth can 
        benefit from Corps programs based on Indian lands, carrying out 
        projects that their Tribes and communities determine to be 
        priorities;
  <bullet> Authorizing a departmental-level office at the Department of 
        the Interior to coordinate Corps activities within the three 
        land management bureaus;
  <bullet> Requiring each of the three relevant departments to 
        undertake or contract for a recruiting program for the Corps;
  <bullet> Requiring a training program for Corps members, and 
        identifying specific components the training must include;
  <bullet> Identifying more specific types of projects that could be 
        conducted under this authority;
  <bullet> Allowing participants in other volunteer programs to 
        participate in PLC projects;
  <bullet> Allowing agencies to make arrangements with other Federal, 
        State, or local agencies, or private organizations, to provide 
        temporary housing for Corps members;
  <bullet> Providing explicit authority for the establishment of 
        residential conservation centers;
  <bullet> Authorizing agencies to recruit experienced volunteers from 
        other programs to serve as mentors to Corps members;
  <bullet> Adding ``consulting intern'' as a new category of service 
        employment under the PLC program;
  <bullet> Allowing agencies to apply a cost-of-living differential in 
        the provision of living allowances and to reimburse travel 
        expenses;
  <bullet> Allowing agencies to provide non-competitive hiring status 
        for Corps members for two years after completing service, 
        rather than only 120 days, if certain terms are met;
  <bullet> Allowing agencies to provide job and education counseling, 
        referrals, and other appropriate services to Corps members who 
        have completed their service; and
  <bullet> Eliminating the $12 million authorization ceiling for the 
        program.

    We believe that the Department's program would benefit from 
enactment of this legislation. As noted above, most PLC projects are 
designed to address maintenance and ecological restoration needs, and 
those types of projects would continue to be done under S. 896. 
However, this legislation specifies a broader range of potential 
projects, making it likely that Corps members could become involved in 
such varied activities as historical and cultural research, museum 
curatorial work, oral history projects and programs, documentary 
photography, public information and orientation services that promote 
visitor safety, and activities that support the creation of public 
works of art. Participants might assist employees in the delivery of 
interpretive or educational programs and create interpretive products 
such as website content, Junior Ranger program books, printed handouts, 
and audiovisual programs.
    PLC participants would also be able to work for a partner 
organization where the work might involve sales, office work, 
accounting, and management, so long as the work experience is directly 
related to the protection and management of public lands. The NPS and 
the FWS have a large number of partner organizations that would be 
potential sponsors of young people interested in the type of work they 
might offer.
    An important change for the Department is the addition of specific 
authority for agencies to pay transportation expenses for non-
residential Corps members. Transportation costs may be a limiting 
factor in program participation of economically disadvantaged young 
people.
    Another important change is the addition of ``consulting intern'' 
as a new category of service employment under the PLC program, 
expanding on the use of mostly college-student ``resource assistants,'' 
provided for under existing law. The consulting interns would be 
graduate students who would help agencies carry out management analysis 
activities. NPS has successfully used business and public management 
graduate student interns to write business plans for parks for several 
years, and this addition would bring these interns under the PLC 
umbrella.
    The Public Lands Service Corps would also offer agencies the 
ability to hire successful corps members non-competitively at the end 
of their appointment, which would provide the agency with an influx of 
knowledgeable and diverse employees as well as career opportunities for 
those interested in the agencies' mission. Refuges and hatcheries, for 
example, are uniquely qualified to connect with local communities since 
the Service has so many refuges across the country that are located 
near smaller communities and can directly engage urban, inner city, and 
rural youth. For example, partnering academic institutions are 
beginning to offer academic certificate programs to enhance the 
students' work experience and marketability for securing full-time 
employment in both the Federal and non-profit sectors, thereby 
providing orientation and exposure to a broad range of career options.
    The legislation would also give the Department's other bureaus that 
would utilize this program the authority to expand the scope of 
existing corps programs to reflect modern day challenges, such as 
climate change and add incentives to attract new participants, 
especially from underrepresented and diverse populations.
    An expanded Public Lands Service Corps program would provide more 
opportunities for thousands of young Americans to participate in public 
service while assisting the Department to address the critical 
maintenance, restoration, repair and rehabilitation needs on our public 
lands and gain a better understanding of the impacts of climate change 
on these treasured landscapes.
Recommended Changes to S. 896
    As noted at the start of this statement, we appreciate the changes 
to last Congress's version of the legislation that are reflected in S. 
896. However, the Administration recommends the following amendments to 
this bill:

          1) Hiring preference

                  The Administration recommends changing eligibility 
                for former PLSC participants for non-competitive hiring 
                status from two years to one year. This change would 
                make eligibility status consistent with other 
                Government-wide, non-competitive appointment 
                authorities based on service outside of the Federal 
                government.

          2) Cost sharing for nonprofit organizations contributing to 
        expenses of resource assistants and consulting interns

                  Under current law in the case of resource assistants, 
                and under S. 896 in the case of consulting interns, 
                sponsoring organizations are required to cost-share 25 
                percent of the expenses of providing and supporting 
                these individuals from ``private sources of funding.'' 
                The Administration recommends giving agencies the 
                ability to reduce the non-Federal contribution to no 
                less than 10 percent, only if the Secretary determines 
                it is necessary to enable a greater range of 
                organizations, such as smaller, community-based 
                organizations that draw from low-income and rural 
                populations, to participate in the PLSC program. This 
                would make the cost-share provisions for resource 
                assistants and consulting interns parallel to the 
                provisions under the bill for other PLSC participants.

          3) Definition of Eligible Public Lands

                  The Administration recommends technical amendments to 
                clarify that PLSC activities will be carried out on 
                public lands as enumerated in the law. ``Eligible 
                service lands'' may be interpreted to include non-
                Federal lands.

          4) Agreements with Partners on Training and Employing Corps 
        Members

                  The Administration recommends striking the provision 
                in S. 896 that would allow PLSC members to receive 
                federally funded stipends and other PLSC benefits while 
                working directly for non-Federal third parties. The 
                need for this language is unclear, since agencies 
                already have flexibility in how they coordinate work 
                with cooperating associations, educational institutes, 
                friends groups, or similar nonprofit partnership 
                organizations. Yet, the language could raise 
                unanticipated concerns over accountability, liability, 
                and conflicts of interest. For example, this language 
                could allow an individual to receive a federally funded 
                stipend under a PLSC agreement, and then perform work 
                for a different non-federal group (such as a 
                cooperating association) that is subject to agency 
                oversight under different agreements. This language 
                could blur the lines of responsibility that have been 
                established in response to IG concerns over the 
                management of cooperating associations and friends 
                groups.

          5) Living Allowance Differentials

                  The Administration recommends striking the provision 
                in S. 896 that would allow for the Secretary to 
                provided living allowance differentials to employees. 
                Current law provides the Secretary with broad authority 
                to set ``living allowances'' at an appropriate rate. 
                Adding ``cost-of-living'' language to a law that would 
                modify compensation for Federal employees may 
                unnecessarily introduce confusion.

    The Department is happy to answer any questions you or the other 
members of the subcommittee have.
                                 s. 897
    Mister Chairman and Members of the Subcommittee, thank you for the 
invitation to testify on behalf of the Office of Surface Mining 
Reclamation and Enforcement (OSM) regarding S. 897, a bill to amend the 
Surface Mining Control and Reclamation Act of 1977 (SMCRA). The OSM 
looks forward to working with you on matters relating to the Surface 
Mining Control and Reclamation Act of 1977 (SMCRA).
    S. 897 would allow noncertified states and tribes to use certain 
SMCRA payments for non-coal reclamation. While we recognize the 
importance of addressing hardrock mine hazards, we cannot support this 
bill because it is inconsistent with the President's FY 2012 Budget 
proposal to limit funding derived from the abandoned mine lands fee on 
coal production to the reclamation of coal sites that pose the most 
danger to public health and safety and/or damage to the environment.
    The FY 2012 President's Budget includes a proposal to focus AML 
funds on the critical coal reclamation sites in order to ensure that 
the most dangerous and environmentally damaging coal sites can be 
addressed before the AML fee expires in ten years. In addition to 
terminating unrestricted payments to certified states and tribes that 
have already cleaned up their abandoned coal mines, the proposal will 
competitively allocate funding for use on these hazardous and 
environmentally damaging coal reclamation projects. Recognizing the 
importance of addressing abandoned hardrock mines nationwide, 
additionally, the President's FY 2012 budget would build off these 
reforms to the coal AML program and create a parallel program for 
hardrock AML reclamation in order to address those sites. This proposal 
would ensure that the industries whose historic practices created 
abandoned mines bear the costs of addressing these hazards by paying a 
reclamation fee on production.
Background
    Through SMCRA, Congress established OSM for two basic purposes. 
First, to ensure that the Nation's coal mines operate in a manner that 
protects citizens and the environment during mining operations and to 
restore the land to beneficial use following mining. Second, to 
implement an Abandoned Mine Land (AML) program to address the hazards 
and environmental degradation created by two centuries of weakly 
regulated coal mining that occurred before SMCRA's enactment.
    Title IV of SMCRA created an AML reclamation program funded by a 
reclamation fee assessed on each ton of coal produced. The fees 
collected have been placed in the Abandoned Mine Reclamation Fund 
(Fund). OSM, either directly or through grants to States and Indian 
tribes with approved AML reclamation plans under SMCRA, has been using 
the Fund primarily to reclaim lands and waters adversely impacted by 
coal mining conducted before the enactment of SMCRA and to mitigate the 
adverse impacts of mining on individuals and communities. Also, since 
FY1996, an amount equal to the interest earned by and paid to the Fund 
has been available for direct transfer to the United Mine Workers of 
America Combined Benefit Fund to defray the cost of providing health 
care benefits for certain retired coal miners and their dependents. 
Section 402(a) of SMCRA fixed the reclamation fee for the period before 
September 30, 2007, at 35 cents per ton (or 10 percent of the value of 
the coal, whichever is less) for surface-mined coal other than lignite, 
15 cents per ton (or 10 percent of the value of the coal, whichever is 
less) for coal from underground mines, and 10 cents per ton (or 2 
percent of the value of the coal, whichever is less) for lignite. As 
originally enacted, section 402(b) of SMCRA authorized collection of 
reclamation fees for 15 years following the date of enactment (August 
3, 1977); thus, OSM's fee collection authority would have expired 
August 3, 1992. However, Congress extended the fees and fee collection 
authority through September 30, 1995, in the Omnibus Budget 
Reconciliation Act of 1990. The Energy Policy Act of 1992 extended the 
fees through September 30, 2004. A series of short interim extensions 
in appropriations and other acts extended the fees through September 
30, 2007.
    The Surface Mining Control and Reclamation Act Amendments of 2006 
were signed into law as part of the Tax Relief and Health Care Act of 
2006, on December 20, 2006 (Public Law 109-432). The 2006 amendments 
revised Title IV of SMCRA to make significant changes to the 
reclamation fee and the AML program and extended OSM's reclamation fee 
collection authority through September 30, 2021.
    The AML reclamation program was established in response to concern 
over extensive environmental damage caused by past coal mining 
activities. Before the 2006 amendments, the AML program reclaimed 
eligible lands and waters using the Fund, which came from the 
reclamation fees collected from the coal mining industry. Eligible 
lands and waters were those which were mined for coal or affected by 
coal mining or coal processing, were abandoned or left inadequately 
reclaimed prior to the enactment of SMCRA on August 3, 1977, and for 
which there was no continuing reclamation responsibility under State or 
other Federal laws.
    SMCRA established a priority system for reclaiming coal problems. 
Before the 2006 amendments, the AML program had five priority levels, 
but reclamation was focused on eligible lands and waters that reflected 
the top three priorities. The first priority was ``the protection of 
public health, safety, general welfare, and property from extreme 
danger of adverse effects of coal mining practices.'' The second 
priority was ``the protection of public health, safety, and general 
welfare from adverse effects of coal mining practices.'' The third 
priority was ``the restoration of land and water resources and the 
environment previously degraded by adverse effects of coal mining 
practices.''
    As originally established, the Fund was divided into State or 
Tribal and Federal shares. Each State or tribe with a Federally 
approved reclamation plan was entitled to receive 50 percent of the 
reclamation fees collected annually from coal operations conducted 
within its borders. The ``Secretary's share'' of the Fund consisted of 
the remaining 50 percent of the reclamation fees collected annually and 
all other receipts to the Fund, and was allocated into three shares as 
required by the 1990 amendments to SMCRA. First, OSM allocated 40% of 
the Secretary's share to ``historic coal'' funds to increase 
reclamation grants to States and Indian tribes for coal reclamation. 
However, all the funds which were allocated may not have been 
appropriated. Second, OSM allocated 20% to the Rural Abandoned Mine 
Program (RAMP), operated by the Department of Agriculture. However, 
that program has not been appropriated AML funds since the mid-1990s.
    Last, SMCRA required OSM to allocate 40% to ``Federal expense'' 
funds to provide grants to States for emergency programs that abate 
sudden dangers to public health or safety needing immediate attention, 
to increase reclamation grants in order to provide a minimum level of 
funding to State and Indian tribal programs with unreclaimed coal 
sites, to conduct reclamation of emergency and high-priority coal sites 
in areas not covered by State and Indian tribal programs, and to fund 
OSM operations that administer Title IV of SMCRA.
    States with an approved State coal regulatory program under Title V 
of SMCRA and with eligible coal mined lands could develop a State 
program for reclamation of abandoned mines. The Secretary determines 
whether to approve and fund the State reclamation program. At the time 
the 2006 amendments were enacted, 23 States received annual AML grants 
to operate their approved reclamation programs. Three Indian tribes 
(the Navajo Nation, and Hopi and Crow Tribes) without approved 
regulatory programs have received grants for their approved reclamation 
programs as authorized by section 405(k) of SMCRA.
    Before the 2006 amendments, States and Indian tribes that had not 
certified completion of reclamation of their abandoned coal lands could 
use AML grant funds on noncoal projects only to abate extreme dangers 
to public health, safety, general welfare, and property that arose from 
the adverse effects of mineral mining and processing and only at the 
request of the Governor or the governing body of the Indian tribe. In 
addition, noncertified States were allowed to deposit up to ten percent 
of their AML grant funds into a state acid mine drainage set aside 
account to abate and treat acid mine drainage caused by coal mining.
    The 2006 amendments reduced the statutory fee rates by 10 percent 
from the current levels for the period from October 1, 2007, through 
September 30, 2012, and by an additional 10 percent from the original 
levels for the period from October 1, 2012, through September 30, 2021.
    The Fund allocation formula was also changed. Beginning October 1, 
2007, certified States are no longer eligible to receive State share 
funds. Instead, amounts that would have been distributed as State share 
for certified States from the AML fund are distributed as historic coal 
funds. The RAMP share was eliminated, and the historic coal allocation 
was further increased by the amount that previously was allocated to 
RAMP. In addition, the amount that noncertified States could set aside 
for acid mine drainage abatement and treatment was increased to 30 
percent of a State's State share and historic coal share funds.
    The Amendments also created two new types of payments from the 
General Treasury under section 411(h). Both certified and noncertified 
states receive payments equal to their portion of the unappropriated 
balance of the AML fund that existed at the time the amendments were 
passed, known as ``prior balance funds''. Certified states and tribes 
also receive a payment, known as the ``in lieu'' payment, equal to 50% 
of the fees collected in their borders the prior year.
    Though the other sources of funding to noncertified states and 
tribes are available for a variety of purposes under the statute, since 
2006, the Department has interpreted the language of SMCRA section 
411(h) to preclude noncertified states and Indian tribes from using 
funds that they receive under that section for noncoal reclamation or 
for deposit into a state acid mine drainage account.
                                 s. 897
    Under SMCRA, noncertified states can use ``State share'' and 
``historic coal'' funds for noncoal reclamation and deposit into state 
acid mine drainage set aside accounts, which are considered lower 
priority hazards associated with AML sites. S. 897 would amend SMCRA to 
allow these states to also use their prior balance funds, which they 
receive under Section 411(h)(1), for noncoal reclamation and for 
deposit into state acid mine drainage set-aside accounts. In other 
words, S. 897 would allow prior balance replacement funds, which are 
now focused on the reclamation of coal sites in noncertified States, to 
be used for other purposes: namely, noncoal reclamation and deposit 
into State acid mine drainage set aside accounts.
    In an effort to focus the OSM's AML program on coal reclamation, 
the President's FY 2012 budget proposes to revise SMCRA to 
competitively allocate AML funds to ensure that the most dangerous and 
environmentally damaging coal AML sites are reclaimed before the 
reclamation fee terminates. Because S.897 is inconsistent with the 
Administration's goal of ensuring expeditious coal reclamation through 
the existing AML Fund, we cannot support this bill.
    We share this Subcommittee's interest in ensuring that abandoned 
hardrock mines also are addressed. In order to accomplish this goal, we 
support the creation of a parallel hardrock AML program, funded through 
a fee on hardrock production to fund the reclamation of hardrock mine 
sites nationwide, which the FY 2012 President's budget proposes.
    Currently, there is no hardrock reclamation fee similar to the one 
established by SMCRA to reclaim abandoned coal mine sites. This leaves 
States, Tribes, and Federal land managers to address these sites within 
their budgets or using other sources of funding, such as SMCRA's 
reclamation funds when possible. To hold each industry responsible for 
the actions of its predecessors, the President's FY 2012 budget 
proposes a new reclamation fee on hardrock production. Once the fee is 
established, OSM would be responsible for collecting this fee, based on 
its expertise in collecting the coal reclamation fee. The Department of 
the Interior's Bureau of Land Management would be responsible for 
allocating and distributing the receipts, using the proposed 
competitive allocation program.
    Thank you for the opportunity to appear before the Subcommittee 
today and testify on this bill. I look forward to working with the 
Subcommittee to ensure that the Nation's abandoned mine lands are 
adequately reclaimed.

    Senator Wyden. Thank you. Thank you both. Just a couple of 
questions and comments really from me at this time.
    First big thanks to you, Ms. Wagner and to you, Mr. Pool, 
as well for your help with the Oregon legislation. I know, Ms. 
Wagner, you spent a lot of time toiling with that incredibly 
dedicated group of Oregonians who are working on bringing 
change to the Eastside National Forest. Let me just touch on a 
couple of concerns.
    I know that you've been concerned about making sure the 
agency is adequately funded in order to be able to do the 
necessary kind of forestry work that is required. I want you 
and the Secretary to know I'm going to work very closely with 
you to ensure those kinds of funds.
    I also want to put this in context. I think Senator Risch 
and I talked a bit about that when we talked about the question 
of Forestry policy in the past is that American taxpayers in 
communities incur punishing costs when our forests are not 
healthy. I mean, that's the bottom line. Unhealthy forests end 
up inflicting huge costs onto communities.
    You basically have these fires and a lot of the fires we're 
seeing are practically infernos now because of years of 
neglect, disease and insect infestation. Of course communities 
face the loss of jobs and income and there are a whole host of 
reasons why folks who represent timber companies and 
environmental folks have come together. In effect a healthy 
forest can make economies healthier and communities healthier.
    As we tackle these questions of cost I think we want to 
make sure that people understand that the cost of doing nothing 
is enormous. That's the reason why it's important to come 
together and work on these bills.
    So Mr. Pool I will liberate you at this time and not ask 
any questions. I may have other things to wrap up with. But let 
me recognize my colleagues beginning with Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I wanted to start first with Mr. Pool from the standpoint 
of the Bureau of Land Management following up on some of my 
opening comments and some of the comments from Senator Lee. You 
know, in December the Secretary of Interior signed Secretarial 
Directive number 3310, put in place what was called his Wild 
Lands Policy. In March Congress responded and they did so by 
defunding implementation of the policy.
    Now there are people I know in your Department, the 
Department of Interior, who seem to believe that the defunding 
is going to end at midnight on September 30, 2011 and then off 
you can go again. I'm sure that you understand that many here 
on Capitol Hill are very much opposed to the Wild Land Policy. 
Some believe that in the face of that policy that there's no 
reason to legislate new wilderness areas on BLM lands.
    So can you describe why we shouldn't just table all of 
these BLM wilderness bills until such time as the Secretary has 
permanently rescinded his Wild Lands Policy?
    Mr. Pool. It's my understanding that the Secretary may be 
providing BLM a new policy direction here in the near term 
related to this issue. We are fully complying with the Section 
1769 of the continuing resolution and other provisions that are 
contained in the Federal Land Policy Management Act, which 
guides our multi-use operations of the plans. Congressionally 
designated wilderness areas we feel is a separate issue from 
wild lands. Wild lands does not affect designated wilderness 
areas or wilderness study areas.
    Senator Barrasso. I did find it interesting that when the 
directive went--when the conference call went out on the wild 
lands initiative on December 22nd or 23rd, that you had to have 
a code word to call in. The code word that came out from your 
Department on the wild lands initiative that you're now saying 
is very different than wilderness. The code word was 
wilderness. So I think for anybody that has concerns about what 
the Department is doing with these lands, I think that was a 
very telling choice of a code word.
    I'd like to ask you also, I note that Senator Wyden's 
Cathedral Rock and Horse Heaven Wilderness bill includes 
language to manage some lands as wilderness until 2 land 
exchanges have been completed. Do you think it's wise to pre-
designate wilderness lands which may never, you know, come into 
the Federal estate? Would it be just as reasonable to kind of, 
split the bill into a land exchange bill and then follow it 
later with a wilderness designation once the land exchange has 
been completed?
    Mr. Pool. We believe that the bill introduced by Senator 
Wyden is very good and thoughtful bill. The 2 respective public 
land tracts are less than 5,000 acres. They do have high 
natural values. The intent of the bill is to preserve the 
wilderness character of the land, not to be managed as 
wilderness areas up until that prospectively we can consummate 
these exchanges and they can be designated upon consummation.
    There's 3 proponents, exchange proponents.
    One being the, I'm told, the Young Life proponent, sizable 
tracts adjacent to both the Cathedral Rock and the Horse Heaven 
respective wilderness areas. They are essential, that 
acquisition through exchange, are essential. So we think it's a 
very innovative bill.
    There's also sufficiencies to be gained by going through 
the NEPA processes to determine fair market value. Both tracts 
are in close proximity. Particularly the Young Life bill has 
great influence on the suitability of establishing these 
wilderness areas.
    Upon acquisition through exchange, particularly of the 
Young Life, then the acreage will increase about 5,000 acres 
and greatly improve our efforts to manage these areas as well.
    Senator Barrasso. Great. Thank you very much, Mr. Pool.
    Now, Ms. Wagner, if I could. Bill, S. 220, Senator Wyden's 
Oregon Eastside Forest Restoration Act includes a language to 
authorize, I think, up to $50 million to implement the bill. Do 
you know how much timber funding the forest in all of Oregon 
get in say, Fiscal Year 2010?
    Ms. Wagner. Yes, sir. In Fiscal Year 2010, all Oregon 
forests received about $36 million for forest products budget 
line item. The Eastside Forests that have been the target of 
the conversation around restoration on the Eastside between 
fuels and the forest products budget line item, we invested 
$31.7 million.
    Senator Barrasso. I guess I was just curious given the 
provisions of S. 220. If the 50 million authority were to be 
fully funded, you know, how much of the requirements of the 
bill do you think could be implemented with that money?
    Ms. Wagner. Two things.
    I think our confidence level is higher for Fiscal Year 12 
because it's closest to us. There is notable work happening in 
the landscapes in Eastern Oregon. Collaboratives are coming 
together. The Deschutes Skyline Project is a collaborative 
Forest Landscape Restoration Project that is funded.
    There are 2 other collaboratives that have come together. 
They have bold visions for restoring what needs to happen on 
their national forests. My hope is as those collaboratives 
work, as they create shared vision, that we can actually 
implement our planning faster, our assessments faster and as a 
consequence of that, save dollars to invest in actual 
treatments.
    So we would say we believe that with the $50 million 
investment we can achieve most of the performance goals set.
    Senator Barrasso. Just a final question. I know the Forest 
Service has testified against most of the small land conveyance 
proposals including S. 271, S. 683 and S. 684. In the case of 
83 and 84 which are Senator Lee's legislative proposals, I 
think you pointed out that the Forest Service could accomplish 
these conveyances through the Townsite Act.
    You know, in several instances some of the lands that the 
Forest Service is now demanding to be paid for were given to 
the Forest Service or sold to the agency, you know, for a 
dollar. So, you know, all of the 3 conveyance bills that I just 
mentioned in today's hearings have been under consideration I 
know, for several years. If these conveyances could be 
accomplished through the Townsite Act, you know, why hasn't the 
Forest Service just consummated the conveyance using that 
authority?
    Ms. Wagner. I think when communities see an opportunity for 
a legislative solution to the challenges that they're facing 
that necessitate this conversation about conveyances. The 
legislation, when it doesn't consider the fair market value, 
that's more attractive to a community. So in the case of Alta, 
for instance, the community has not been particularly 
interested in working the Townsite Act or the Weeks Act because 
they're hopeful that the legislation will pass.
    Senator Barrasso. OK. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. I'm going to go right 
to Senator Lee just because we're on the point with respect to 
the 2 bills that Senator Barrasso asked about.
    First on the Eastside bill, Ms. Wagner, I very much 
appreciate your answer and your analysis because what we are 
seeking to do, as you indicated, is to build with the 
legislation on the collaborative work that you're already 
doing. Because I think certainly Senator Barrasso and other 
Senators are right to want to know about the financial 
considerations associated with this and every bill. So I want 
Senator Barrasso and colleagues on the other side to know that 
I'm interested in working with them.
    Just on the point with respect to Cathedral Rock and Horse 
Heaven, what we're seeking to do on that one, Senator Barrasso. 
We put together a remarkable coalition, you know, religious 
folks with Young Life, ranching community and the 
environmentalists and so it was a collaborative, homegrown 
solution. Our concern was if we broke it up, we could end up 
raking up the coalition.
    So it's my intent to work very closely with you on both of 
those.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Wyden. Good. We welcome, Senator Lee. Go ahead.
    Senator Lee. Thank you. Thanks to both of you for joining 
us today.
    Ms. Wagner, with regard to S. 683 and 684, providing for 
the conveyance of certain parcels of land in the Towns of Alta 
and Mantua, Utah, in your written testimony you raise a few 
concerns regarding the definition of public purpose and also 
regarding the reversionary interest and a few details related 
to that in these bills. Tell me how we can best work with you 
to resolve those issues.
    Ms. Wagner. The--in some of the bills under consideration 
there's clarity. In the case of the Wallowa compound there's 
some description about what the anticipated use would be once 
the property is conveyed. Public purpose may be just some 
consideration of being a little bit more specific about what 
that might entail for these properties would be beneficial.
    The reversionary language is of concern because it would 
put the Forest Service, no longer an owner of the land, in a 
little bit of a monitoring mode. We would prefer that we're 
clear on public purpose and that we don't consider reversionary 
language if the land conveys to a town, we'd like it to remain 
with that town.
    Senator Lee. With that basic fee simple determinable with 
the no possibility of a revert or no reversionary interest at 
all. OK. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you.
    Senator Risch.
    Senator Risch. Very briefly. Mr. Pool, this isn't going to 
come as any surprise to you but I want to underscore the 
comments of Senator Barrasso regarding the proposal of 
wilderness. Congress' reaction to that was swift and fairly 
strong. I can tell you that that represents the angst that 
those of us who have substantial parcels of BLM ground in our 
state experienced as a result of this bomb that got dropped on 
us.
    So in the future, I think that we all look forward to 
working together. But when we get surprises like this it is not 
a good deal. The result is what's happened.
    So I hope you will take that message back. I doubt it will 
come as any surprise to the people there at BLM. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Risch.
    Any colleagues wish to have a second round? Apparently not. 
All hearings should be so short at the Forestry Subcommittee.
    We thank you both. We'll be working with you in the days 
ahead. It's going to be the desire on this subcommittee and I 
know with Chairman Bingaman to work hard to bring folks 
together, make these bills bipartisan, find common ground and 
apropos, Senator Lee's point, making sure that folks can be 
heard.
    So with that the subcommittee is adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

  Statement of Hon. Tom Vilsack, Secretary, Department of Agriculture
WASHINGTON, Oct. 30, 2010.--Today, Agriculture Secretary Vilsack made 
        the following statement in support of Senator Ron Wyden's 
        Eastside Forest Legislation.
    ``One of the most significant challenges we face in our National 
Forests is finding greater common ground among environmentalists, 
forest industry, and rural communities that allows us to support jobs 
in these communities and to restore our forests, to make them more 
resilient, to benefit water resources, to address climate change, to 
protect wildlife and to provide recreational opportunities. Over the 
last several months, under Senator Wyden's leadership, the Forest 
Service, stakeholders in Oregon, and the Senator's staff have worked 
together to refine a legislative proposal that if adequately funded 
would meet this challenge and benefit the people and forests of Oregon.
    ``When I recently visited Oregon, I met with stakeholders involved 
in putting together this proposal and was impressed by the common 
vision that has been developed for eastside forests in Oregon. I know 
Senator Wyden is considering a number of approaches to enact 
legislation that would codify the work of the stakeholders in this 
region-specific project. No matter what approach is taken, one of the 
Senator's goals is to establish performance goals for the forests 
covered under the legislation. With respect to this issue, since the 
forest health needs and the need for timber infrastructure are so 
great, I believe a ramp up to perform mechanical treatments would be 
beneficial while the proposed forest advisory council completes their 
work on how to develop and implement landscape-scale ecological 
restoration projects. Therefore, for forests in eastern Oregon, if the 
ultimate legislation provided USDA discretion to set performance goals, 
my intent would be to establish performance goals for mechanical 
treatment of 39,000 acres the first year, 58,000 acres the second year, 
and 80,000 acres the third year. These goals are consistent with 
existing forest management plans which have been through a public 
environmental review. And, going forward we support a robust public 
process for analyzing treatments carried out to meet these goals. These 
performance goals are ambitious but sustainable and achievable provided 
there is sufficient funding to allow the Forest Service to prepare and 
implement stewardship contracts, timber sales, and other mechanical 
treatments.
    ``As the Senator and I have discussed, since there are many high-
priority programs throughout the National Forest System, we cannot 
shift funding from other regions to fund these treatments. Thus, I 
support the inclusion of language in proposed legislation that states 
it will not impact funds from other regions or forests.
    ``As the administration expressed in testimony on S. 2895, we have 
reservations about legislating specific treatment levels and other 
aspects of our forest plans. However, I believe the approach and hard 
work of the stakeholders in Oregon, and the Senator's work directly 
with the Forest Service ensure this effort can serve as a model for 
collaboration in bringing together various stakeholders. I commend 
Senator Wyden for his leadership and look forward to continued work 
with him and his staff as this proposal moves forward.''
                                 ______
                                 
                                                       May 19, 2011

Hon. Jeff Bingaman,
Senator, Energy & Natural Resources Committee Office, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Senator Bingaman,
    On behalf of the undersigned organizations we are writing to thank 
you for your work and leadership in crafting, co-sponsoring and re-
introducing the Rio Grande del Norte National Conservation Area 
Establishment Act, S. 667.
    This broadly backed bill will preserve about 235,000 acres 
northwest of Taos as a conservation area, and designate within that two 
new wilderness areas---the Cerro del Yuta Wilderness and the Rio San 
Antonio Wilderness. That Congressmen Ben Lujan and Martin Heinrich have 
introduced companion legislation in the House of Representatives 
indicates the seriousness of our delegation in getting this bill passed 
this year.
    Sportsmen like us--who make up 38 percent of the voters in this 
state--want to keep the best wild places on our nation's public lands 
protected, as often they are the very best places to hunt and fish. We 
want to pass these backcountry traditions down to our kids--and 
grandchildren. As our greatest hunter-president, Theodore Roosevelt put 
it: ``The nation behaves well if it treats its natural resources as 
assets, which it must turn over to the next generation increased, and 
not impaired, in value.''
    The Rio Grande del Norte National Conservation Area Establishment 
Act will preserve our opportunities to hike, fish and hunt in this wild 
place--which is home to large elk and antelope herds as well as a first 
rate trout fishery. New Mexico's hunters spend more than $150 million 
each year on this sport, and our anglers spend another $176 million. 
Together, these groups support some 8,000 jobs. That's probably one of 
the reasons the Taos County and Mora Valley Chambers of Commerce both 
back this conservation legislation. They recognize that protecting our 
natural resources just makes good business sense.
    This amazing area--a wild western plateau of grass and sagebrush 
mesas, extinct volcano cinder cones and the spectacular Rio Grande 
Gorge with its towering basalt cliffs--contributes so much to the 
quality of our lives. It's where we go to stretch our legs or test our 
skill against an elk. It's where we show our kids the joys of sleeping 
under the stars. It's where we go to seek some solitude.
    Nearly a century after President Roosevelt urged stewardship of our 
public lands as a gift for those who will follow us, another Republican 
president echoed that view. At the dedication of the National 
Geographic Society's new headquarters in Washington, DC on June 19, 
1984, President Ronald Reagan said, ``. . . we want to protect and 
conserve the land on which we live--our countryside, our rivers and 
mountains, our plains and meadows and forests. This is our patrimony. 
This is what we leave to our children. And our great moral 
responsibility is to leave it to them either as we found it or better 
than we found it.''
    We thank you for your leadership on this critical issue.
            Sincerely,
                    William Schudlich, State Council Chairman, Trout 
                            Unlimited, NM.
                    Toner Mitchell, President, Truchas Chapter, Trout 
                            Unlimited.
                    Doug Palmer, Interim President, Enchanted Circle 
                            Chapter, Trout Unlimited.
                    Jeremy Vesbach, Executive Director, New Mexico 
                            Wildlife Federation.
                    Oscar Simpson, Chair, Backcountry Hunters & 
                            Anglers, NM Chapter.
                    Ben Brown, New Mexico Field Representative, 
                            Theodore Roosevelt Conservation 
                            Partnership.
                    Dr. Sanford Schemnitz, Chair, Southwest 
                            Consolidated Sportsmen.
                    Jesse Deubel, Chair, United Bowhunters of New 
                            Mexico.
                    Ronald Loehman, Conservation Chairman, NM Trout.
                    Jim Bates, President, National Wild Turkey 
                            Federation, NM Chapter.
                                 ______
                                 
 Statement of the National Ski Areas Association & Vail Resorts, on S. 
                                  382
    Chairman Wyden, Ranking Member Barrasso and members of the 
Committee, thank you for the opportunity to provide written testimony. 
On behalf of Vail Resorts and the National Ski Areas Association we are 
pleased to provide the following testimony in support of S. 382, the 
Ski Area Recreational Opportunity Enhancement Act.
    NSAA has 121 member ski areas that operate on National Forest 
System lands. These public land resorts are in the states of Arizona, 
California, Colorado, Idaho, Montana, Nevada, New Hampshire, New 
Mexico, Oregon, Utah, Vermont, Washington and Wyoming. Vail Resorts 
owns and operates six resorts in Colorado, Nevada and California of 
which five are located on public lands.
    At the outset, we would like to thank Senators Udall and Barrasso 
for their leadership on this bill.
                               background
    Public land resorts work in partnership with the U.S. Forest 
Service to deliver an outdoor recreation experience unmatched in the 
world. Our longstanding partnership--dating back to the 1940s, is a 
model public-private partnership that greatly benefits the American 
public. The recreation opportunities provided at public land resorts 
help benefit rural economies, improve the health and fitness of 
millions of Americans, provide kids and families great outdoor 
experiences and promote appreciation for the natural environment.
    In addition to the recreation benefits that ski areas provide 
throughout the year there are economic benefits that must be 
considered. Resorts are frequently one of the largest employers in the 
rural regions in which they operate, providing important employment and 
other economic opportunities for their local population base. The 
presence of resorts provides a critical component of the economy in 
many areas of the country.
    Over the past five years, we have averaged 58.6 million skier/
snowboarder visits annually, and about 60% of those visits occurred on 
public land. Yet ski areas occupy less than one-tenth of one percent of 
Forest Service lands.
    Ski areas are the perfect place to accommodate these large numbers 
of forest visitors and not just in the winter. It is important to 
remember that ski areas are developed sites. They inspire appreciation 
for the natural environment, but they also represent a built 
environment that is accessible and convenient for visitors. Ski areas 
already have the parking lots, bathrooms, trails and other facilities 
to accommodate millions of summer visitors. Use of developed ski areas 
during all times of the year allows the Forest Service to provide 
recreation opportunities to millions of visitors in a controlled and 
mitigated environment thus alleviating the impacts elsewhere on the 
forests.
                    summer and year-round activities
    Summer and year-round activities are not new to ski areas. Resorts 
across the country have offered summer activities for decades, with 
scenic chairlift rides dating back to the 1960s. These activities 
include mountain biking, scenic chairlift rides, hiking, ziplines, 
alpine slides, climbing walls, Frisbee golf and others. Until very 
recently, the authorization of summer activities at public land resorts 
occurred without issue. Many ski area special use permits reference 
``year-round'' or ``four season'' resorts. The Forest Service Manual 
expressly encourages the year-round use of resort facilities. Even 
Congress recognized the four-season nature of resorts back in 1996 by 
including the term ``gross year-round revenue'' in our fee system (16 
U.S.C. 497c). Resorts have acted in reliance of these authorities, and 
the federal government has collected fees on summer activities, for 
decades.
    So why are we here? NSAA strongly supports S. 382 to create a 
national comprehensive approach to growing seasonal and year-round 
recreational opportunities. Such an approach will provide for more 
consistent decision making and more accurately reflect what is now 
taking place at modern four-season resorts.
    Summer and year-round recreation can transform ski areas and their 
rural communities from single season destinations into year-round 
destinations. Year-round visitation increases year-round employment 
opportunities in rural resort communities, creating a more stable 
workforce and local economy. It should also be noted that public land 
resorts generate permit fees for the Forest Service from all revenues 
generated by activities at ski areas. The Congressional Budget Office 
confirmed this last point in the 111th Congress stating that the bill 
would not negatively impact the federal budget and that it will 
minimally increase receipts to the Treasury.
    We believe that there is great potential for resorts to expand 
their offerings of seasonal and year-round recreational activities. 
According to NSAA statistics, the average resort's non-ski season 
operations account for just 6.9 percent of overall revenues 
illustrating this point. S. 382 could prove to be an economic boost to 
many rural areas improving local employment, food and beverage 
receipts, lodging and providing gateway access to the public's 
enjoyment of their public lands.
                                the bill
    Specifically, S. 382 clarifies the Forest Service's authority to 
permit appropriate seasonal or year-round recreational activities and 
facilities subject to ski area permits issued by the Secretary under 
section 3 of the National Forest Ski Area Permit Act of 1986 (16 U.S.C. 
497b). The bill is also an opportunity to update the language used to 
describe snow-sports to better reflect the wide range of snow sports 
(including snowboarding, snow-biking, etc) taking place at modern ski-
areas. NSAA notes and appreciates the discretion and guidance the bill 
provides to the Secretary to make site-specific decisions on 
appropriate activities and facilities that are natural resource-based, 
outdoor developed recreation that harmonize with the natural 
environment of the public lands.
    In the 110th and 111th Congress, the Administration testified in 
support of the bill and stated that further clarifications would assist 
the Forest Service in its interpretation and implementation of the 
bill. During consideration in the 111th Congress the legislation was 
amended with the input of the National Ski Areas Association, U.S. 
Forest Service, committee staff and other stakeholders. The bill as you 
see it today reflects those amendments as agreed to in the Senate in 
the 111th Congress and enjoys the continued support of the U.S. Forest 
Service.
    Thank you for your consideration of S. 382 and our written 
testimony. This bi-partisan, no-cost and non-controversial legislation 
is important to ski areas across the country and we encourage its swift 
passage.
                                 ______
                                 
                                    The Wilderness Society,
                                                      May 27, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Office Building, U.S. Senate, Washington, DC.
    Dear Chairman Bingaman:
    On behalf of The Wilderness Society, I am writing to offer our 
views on the bills indicated below that were the subject of the 
Committee's hearing on May 18, 2011. The Wilderness Society is the 
leading public-lands conservation organization working to protect 
wilderness and inspire Americans to care for our wild places. Founded 
in 1935, and now with more than 500,000 members and supporters, TWS has 
led the effort to permanently protect 110 million acres of wilderness 
and to ensure sound management of our shared national lands. I ask that 
this letter be made a part of the hearing record.
s. 220--the oregon eastside forests restoration, old growth protection, 
                          and jobs act of 2011
    S. 220 covers nearly 10 million acres of National Forest lands in 
eastern Oregon, including all the Oregon National Forests not under the 
jurisdiction of the Northwest Forest Plan. Key goals of the legislation 
are to protect old-growth forests and to expedite restoration projects 
that will generate higher volumes of timber for local mills. Similar to 
S. 2895 (considered in the 111th Congress), S. 220 is a complex bill, 
with many components and directives to the Forest Service. Key elements 
include establishing an Eastside Forest Scientific and Technical 
Advisory Panel, requiring an Eastside Landscape Forest Restoration 
Assessment, and requiring Ecological Restoration Projects for each 
National Forest in eastern Oregon. A significant change in S. 220 is 
that the legislation--including the protection of old-growth forests--
sunsets after 15 years, with the intent that the bill is a 15 year 
pilot/experiment.
    In The Wilderness Society's written testimony on S. 2895, we were 
generally supportive of the collaborative nature and intent of the 
proposed legislation, but we did outline several concerns. We are 
pleased that many of those concerns have been addressed in S. 220. 
However, two issues are still of concern in S. 220.

          1) Salvage logging and the role of fire as a common and 
        natural ecological force in the area covered by the legislation 
        are not addressed. The pressures for salvaging large saw-timber 
        after a fire has occurred are inevitable in this fire-prone 
        landscape and are one of the most polarizing issues in the 
        region. We understand the complexity of this issue makes it 
        difficult to deal with in legislation. But we also recognize 
        that until we effectively address the issue of post-fire 
        salvage, the authentic collaboration desired in this 
        legislation will be difficult to achieve.
          2) Each Ecological Restoration Project under Section 8 may be 
        subject to a pre-decisional objection process used for projects 
        authorized by the Healthy Forest Restoration Act (HFRA). We are 
        concerned the HFRA objection process limits the ability for 
        citizens to raise legitimate grievances with federal agency 
        decisions. We do not see any advantage over the standard 
        administrative appeals process.

    We commend Senator Wyden for convening discussions and negotiations 
that resulted in this legislation. We appreciate and support Senator 
Wyden for recognizing the urgency for forest restoration projects in 
eastern Oregon, and for not including a mandatory timber volume or 
mechanical treatment level. We understand the careful negotiation that 
was necessary for moving this bill forward, and we are pleased the 
Senator continues to reach out to the public for suggestions to improve 
the legislation. We are encouraged by the discussions that led to this 
bill, and we hope that its eventual enactment and implementation can 
lead to increased collaboration and trust among stakeholders, so that 
unresolved issues such as salvage logging can be effectively addressed.
s. 322--the alpine lakes wilderness additions and pratt and middle fork 
                   snoqualmie protection act of 2011
    We are pleased to express our strong support for S.322. The lands 
and waters proposed for protection under the current legislation are 
critical additions that enhance the world class conservation and 
recreation opportunities in the North Cascades region of Washington 
State and therefore increase the quality of life for nearby 
communities. We sincerely thank Senator Murray and Representative 
Reichert for introducing this important legislation and the other 
members of the Washington delegation who have cosponsored the bills: 
Senator Cantwell and Representatives Dicks, Inslee, McDermott, and 
Smith. In particular, we applaud Representative Reichert's initiative 
to protect wilderness-quality lands and the Pratt River in his district 
and to Senator Murray for adding protections for portions of the Middle 
Fork of the Snoqualmie River to the overall proposal.
    In addition to the fitting complement that this proposed 
legislation offers to the decades' long citizen efforts in the region, 
TWS would like to emphasize the importance that this legislation holds 
for the safety and economy of gateway communities as well as for 
preserving recreational opportunities. The protected lands will provide 
a safety net for fish and wildlife, clean water, store water that could 
otherwise cause a flood threat, and allow for continued recreational 
use by hunters, anglers, hikers, and others, so close to a large urban 
population. The proposal represents a significant addition to the low 
elevation protections in Washington State which hold high value for 
conservation as well as recreational opportunities. The legislation 
under consideration enjoys broad-based community support, including 
over 100 local elected officials, religious leaders, hunting and 
angling groups, recreation groups, conservation groups, and local 
businesses, including 100 from the Snoqualmie Valley--closest to the 
proposal. Through this collaborative approach, the Senator was able to 
minimize conflicts and gain support by blending a wilderness bill with 
complementary wildlands designation protections of Wild and Scenic 
Rivers. As a result, this bill is supported by the local biking group, 
the Evergreen Mountain Bike Alliance and the International Mountain 
Bicycling Association.
   s. 607--the cathedral rock and horse heaven wilderness act of 2011
    The Wilderness Society strongly supports S.607, which would 
designate two new areas -over 17,000 acres--as part of our National 
Wilderness Preservation System. The bill also directs three land 
exchanges to occur between private parties and the federal government.
    The bill will help the public to better access and enjoy the Wild 
and Scenic John Day River by consolidating ownership through land 
exchanges enabling additional access to the river. The legislation also 
creates a large block of wilderness quality land, while helping 
eliminate trespassing occurring both on the current BLM lands, and the 
private landowners land. The two Wilderness designations include a 
diversity of habitat types including grasslands, riparian areas, shrub 
steppe and forests. They also provide important habitat for threatened 
summer steelhead and Chinook salmon as well as other sensitive species 
including the John Day pincushion, Western Toad, pygmy rabbits, and 
Ferruginous hawks. The Wilderness proposal provides important wintering 
habitat for mule deer and Rocky Mountain elk. Over four miles of the 
Wild and Scenic John Day River would be added to public ownership. The 
land exchanges would be subject to appraisal (using Uniform Appraisal 
Standards) and will be equal value. The land consolidation will enhance 
the wilderness qualities of the Wilderness designations, and will 
improve the manageability of the lands involved.
    The Cathedral Rock Wilderness proposal will protect over 8,000 
contiguous acres of amazing scenic vistas, recreational areas, and fish 
and wildlife habitat along the John Day Wild and Scenic River. 
Currently, this area is a checkerboard mix of public and private lands, 
making management and public access difficult. Through the exchanges 
proposed in this legislation with key private landowners, valuable 
public lands will be consolidated along the river and four new miles of 
public river access will be created for hunters, anglers, and 
recreationists.
    The proposed Horse Heaven Wilderness provides nearly 9,000 acres of 
wilderness to protect a beautiful landscape of sagebrush and grassland 
habitat for mule deer, elk, John Day pincushion cactus, and a number of 
other sensitive plants and animals. This area provides outstanding 
opportunities for primitive recreation and solitude.
    The proposed Cathedral Rock and Horse Heaven Wilderness areas will 
be outstanding additions to the National Wilderness Preservation 
System. The land exchanges will benefit the public by consolidating 
public ownership and providing the public with high resource value 
lands such as the John Day River properties. We thank Senator Wyden for 
his leadership on this proposal, and offer our support of having this 
legislation signed into law.
      s. 667--the rio grande del norte national conservation area 
                           establishment act
    S. 667 would protect 21,000 acres of wilderness and 236,980 acres 
as a National Conservation Area. The Wilderness Society fully supports 
this legislation and commends its sponsors, Senator Jeff Bingaman and 
Senator Tom Udall, for their foresight and vision in protecting this 
national treasure.
    The legislation would ensure protection of some of the most 
spectacular and ecologically significant lands in the state of New 
Mexico. One of the most striking features of the area is Ute Mountain, 
the highest point on New Mexico Bureau of Land Management land. Ute 
rises up from the surrounding sage plain to an elevation of 10,093 
feet. The legislation would protect the upper reaches of the Rio Grande 
Gorge, known as one of the world's great avian migratory routes. 
Eagles, falcons and hawks nest on the walls of the Gorge and numerous 
species--including majestic sandhill cranes--migrate through the area. 
Wilderness protection assures the ecological future of these incredible 
birds, as well as important game species like pronghorn and elk.
    The legislation would also safeguard world-class recreation 
opportunities, such as rafting, hiking, hunting and fishing. Grazing 
and vehicle and utility access would continue in already-existing 
areas, and water rights would not be affected.
    Wilderness is crucial to a healthy North-Central New Mexico 
economy. Wild areas are prized for hunting and fishing, and New 
Mexico's hunters and anglers together spend $326 million annually 
pursuing these sports and support some 8,000 jobs. The Taos Chamber of 
Commerce, Mora Valley Chamber of Commerce, Taos County Commission and 
more than 100 local businesses support designating the area as a 
national conservation and wilderness area.
            s. 766--devil's staircase wilderness act of 2011
    The Wilderness Society strongly supports S. 766, which would 
designate approximately 30, 540 acres of National Forest and BLM lands 
in the central Oregon Coast Range (north of the Umpqua River and south 
of the Smith River) into the National Wilderness Preservation System. 
It would also include about 10.4 miles of Wasson and Franklin Creeks 
into the National Wild and Scenic Rivers System.
    The Devil's Staircase area of Oregon is extremely rugged and 
remote. One guide book describes the terrain as so rugged that only a 
``handful of mortals have penetrated Wassen's Creek central canyon''. 
It contains rare old growth forests and provides critical habitat for 
northern spotted owls and marbled murrelets, which are listed as 
threatened species under the Endangered Species Act. The proposed 
Wilderness has a cascading waterfall and is heavily forested. Other 
fish and wildlife habitat found here include habitat for Coho and 
Chinook salmon, elk, black bear, mountain lion, otter and mink. 
Designating the Devil's Staircase proposal will enhance the National 
Wilderness Preservation System and provide for additional recreational 
opportunities for the central Oregon coast.
    We commend Senator Wyden for sponsoring this legislation, and offer 
our strong support for getting this bill enacted into law.
            Sincerely,
                                        William A. Meadows.
                                 ______
                                 
 statement of janet e. dodson, marketing director, eagle cap excursion 
                                 train
    Thank you for considering the proposal that will lead to the 
restoration and conversion of a historic Forest Service property to an 
interpretive facility that preserves and presents an important and 
unique aspect of the Wallowa Community's heritage. The Maxville 
Cultural Heritage Interpretive Center highlights a slice of history 
that infused the community with a set of new residents who added 
richness and diversity to a remote area. Their experience and the 
impact on the lives of residents has garnered lots of media and public 
attention and the story has only begun to be told.
    As a former long tenure destination marketing professional, now 
contracted to promote individual attractions in northeast Oregon and 
involved as a volunteer for other attractions and community events, I 
know the economic and social value of bringing visitors to small 
communities. With the demonstrated solid leadership in place for this 
project and the public interest in the topic, the Maxville Heritage 
project will become a major attraction for the community of Wallowa and 
for the surrounding region. It's position along the Hells Canyon Scenic 
Byway--designated an All-American Road in 2000 and in the process of 
completing its interpretive plan--will tie the center into cooperative 
marketing activities that reach across the country and internationally. 
The resulting influx of visitors will bring economic stimulus to the 
surrounding communities and will provide a venue for telling this story 
of historical significance. It seems the perfect use for property no 
longer needed by the federal government.
                                 ______
                                 
statement of alice trindle, executive director, eastern oregon visitors 
      association, on s. 409, s. 782, s. 874, s. 1139 and s. 1140
    Thank you for consideration regarding the conveyance of the USFS--
Wallowa Compound, located in Wallowa County, Oregon, for use as the 
Maxville Heritage Interpretive Center. The Board of Directors of 
Eastern Oregon Visitors Association strongly believe that the value of 
restoring and utilizing Wallowa Compound's historic structures for a 
historic public accessible hub, will assist the little town of Wallowa, 
Oregon in creating economic sustainability. With this conveyance of 
ownership and a renewed dedication of this public structure and the 
surrounding landscape will create a visitor attraction that will be of 
compelling value to the USFS, the City of Wallowa, and region.
    The Wallowa Compound is a unique property, and the relevance to the 
Maxville Heritage Interpretive Center proposed to reside within its 
historic structure is unlike any heritage multicultural themed 
Interpretive Center. The rich cultural history of the area, including 
Aftican Americans, along with diverse oral history accounts, artifacts, 
will ultimately be on display. Within the Oregon Public Broadcast 
segment in February of 2009, viewers and potential visitors learned of 
the little known history regarding the 40 to 60 African Americans 
railroad loggers that lived and raised families in the far northeast 
corner of Oregon. Other groups migrated, homesteaded or moved to this 
area for a better opportunity too. This rich cultural heritage deserves 
to told.
    This legislation ensures the Wallowa Compound, which is a historic 
architectural structure, will be restored. The State Oregon Historic 
National Registry is holding a public hearing June 24th to consider the 
significance. Regionally the site is under consideration to be added to 
the Hells Canyon Scenic Byway Interpretive Plan with the Maxville 
Cultural Heritage Center to include panels focused on Maxville's 
historical significance. Additional permanent exhibits relating the 
history of forestry, logging and railroad industry are also planned.
    This facility is ideally located to create a visitor and cultural 
center for residents and travelers alike. It will provide a unique 
window into the past of this region, and a cultural view that is rare 
in the state of Oregon, ultimately attracting visitors with many 
interests and educating a broad variety of people. The physical 
location is immediately off the primary highway delivering visitors to 
the area.
    The Civilian Corp built the Wallowa Compound in the early 1900's as 
part of America's great come-back in a time of economic need. We are 
asking that you revitalize this effort, and allow us to preserve, study 
and celebrate the relevance the this unique cultural story. The 
Maxville Heritage Center will bring a renewed enthusiasm to the 
community's collective resources and ultimately assist in providing 
economic sustainability. Thank you for your consideration.
                                 ______
                                 
         Statement of Jesse B. Abrams, Corvallis, OR, on S. 271
    I am writing in support of S. 271, a bill that would convey an 
unused U.S. Forest Service property in Wallowa, Oregon to its original 
and rightful owner, the city of Wallowa. Doing so would allow for the 
city to lease the space to the Maxville Heritage Interpretive Center, a 
nonprofit outreach and educational center focused on sharing the 
history of the former logging community known as Maxville. Active in 
the 1930s and 1940s, Maxville was a racially diverse logging community 
located north of the town of Wallowa, and its history of both racial 
segregation and interracial cooperation is an important one that 
contains lessons not only on America's past but also for its future. 
The installation of an interpretive center in the rural, economically 
depressed town of Wallowa would provide a much-needed cultural 
attraction, promoting local economic activity.
    The former U.S. Forest Service structure in question has been 
sitting idle for many years, providing no benefit to the local 
community, and it is clear that the U.S. Forest Service has no 
intention of rehabilitating or reinhabiting this structure. The best 
interests of the community would clearly be served by allowing the 
Maxville Heritage Interpretive Center to restore and convert this 
building for public use. Doing so would provide a source of local 
pride, a source of community income, and would allow an extremely 
important American story to be told. This is a win-win for the local 
community and for the nation as a whole.
    I strongly encourage you to treat S. 271 favorably. Thank you for 
your consideration of this important piece of legislation.
                                 ______
                                 
       Statement of Todd Davidson, CEO, Travel Oregon, Salem, OR
    Thank you for considering the proposal before you that would convey 
the Wallowa Forest Service Compound to the City of Wallowa (City). It 
is the City's intent to convert this historic Forest Service property 
to an interpretive facility that will highlight an important time in 
history for this rural community. The proposed Maxville Cultural 
Heritage Interpretive Center (Center) will share with visitors a time 
when a new set of residents joined the community and added depth and 
diversity to this area. The community has been working on this idea for 
a number of years as a potential long-term visitor attraction strategy. 
During our recent tourism economic development workshops (Rural Tourism 
Studio program) held in Wallowa County, the participating citizens from 
the area highlighted this project as one of their key objectives.
    It is also important to note that this project would be along the 
Hells Canyon Scenic Byway which was designated as an All American Road 
in 2000. This byway is completing its interpretive plan which will 
connect the Maxville Cultural Heritage Interpretive Center to the 
scenic byways' domestic and international cooperative marketing 
efforts. Once complete, the Center will have the opportunity to share 
its story with visitors from all around the globe bringing economic 
uplift to the communities in the region.
    Please support the proposal before you. Thank you again for 
considering our request.
                                 ______
                                 
 Statement of Jenn Dice, Director of Government Affairs, International 
 Mountain Bicycling Association, on S. 220, S. 270, S. 270, S. 271, S. 
278, S. 292, S. 322, S. 382, S. 427, S. 526, S. 566, S. 590, S. 607, S. 
    617, S. 683, S. 684, S. 667, S. 729, S. 766, S. 896, and S. 897
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to express our support for S. 322, the Alpine Lakes 
Wilderness Additions and Pratt and Middle Fork Snoqualmie Rivers 
Protection Act. This Act is the culmination of years of local 
collaboration and effort to protect treasured wild places where 
Washingtonians and visitors from around the country seek solitude and 
adventure.
    Founded in 1988, the International Mountain Bicycling Association 
(IMBA) leads the national and worldwide mountain bicycling communities 
through a network of 80,000 individual supporters, 750 affiliate clubs, 
and 600 dealer members. IMBA teaches sustainable trail building 
techniques and has become a leader in trail design, construction, and 
maintenance; encourages responsible riding, volunteer trail work, and 
cooperation among trail user groups and land managers. Each year, IMBA 
members and affiliated clubs conduct more than one million hours of 
volunteer trail stewardship on America's public lands and are some of 
the best assistants to federal, state, and local land managers.
    Wilderness designations are a difficult issue for IMBA and mountain 
bicyclists. On one hand we want to preserve the beauty and experience 
of wild landscapes. On the other hand, federal land management agencies 
interpret the Wilderness Act of 1964 to prohibit the use of mountain 
bicycles. Our decision to support a Wilderness proposal or bill is not 
one we take lightly. Only when we have worked with the Wilderness 
proponents to develop win-win solutions can we fully support the 
designation.
    The boundaries of the Alpine Lakes Wilderness Additions have been 
carefully drawn to exclude the popular Middle Fork Trail that will be 
within the Wild and Scenic River corridor. This will allow the mountain 
bicycling use that is currently permitted to continue while protecting 
the recreational, wildlife, and fishery values that the river provides. 
The wilderness boundary also excludes Alpental ski area and roads used 
to access the area. This careful attention to detail in drawing the 
boundaries and considering the diverse recreational opportunities the 
public enjoys can continue, while at the same time preserving the 
extensive wilderness compatible uses has created a broad base of 
support for this Act.
    The Alpine Lakes Wilderness is the backyard wilderness for hundreds 
of thousands of Washingtonians who enjoy the recreational opportunities 
these lands provide and represent an enduring resource for all those 
who enjoy time spent in nature. The lands of the Middle Fork Snoqualmie 
and South Fork Snoqualmie valleys and the rivers themselves represented 
the bill are less than an hour drive from the homes of our members 
around Puget Sound. They are accessible to a population of more than 
three million people and attract visitors from across the nation. Few 
places in the country have such an incredible resource that is so 
accessible. We applaud your efforts to protect this resource for future 
generations and commit to work as partners in the long-term stewardship 
of these lands.
    As demands on public lands continue to increase the areas that have 
been preserved for their recreational assets will continue to support 
local business. Wilderness additions created through the same local 
process and careful boundary definitions help to ensure that towns like 
those near the Alpine Lakes area, and the Wenatchee National Forest 
will continue to reap the benefits of a healthy recreation economy.
    We look forward to the day when we can join you in celebrating new 
Wilderness acres and Wild and Scenic Rivers for the Alpine Lakes, and 
are excited to continue working with you to preserve our recreation 
legacy.
                                 ______
                                 
                  Statement of Jeff Chapman, on S. 322
    Senator Cantwell mentioned in her testimony that horseback riding 
is important in the Alpine Lakes area. This is very true not just for 
this area but throughout the federal, state, and private land systems 
in Washington State. Furthermore, equestrian related activities and 
ownership account for a sizable portion of the state economy, from hay 
farmers to training stables to the new Washington State Horse Park in 
Cle Elum, a community near the Alpine Lakes Wilderness. Wilderness 
proponents like Aldo Leopold and Theodore Roosevelt were avid and 
experienced horse riders. Backcountry Horsemen of Washington remains 
today a major partner of our public land agencies. We pack supplies, 
tools, and crews in and out of wilderness and non-wilderness areas. We 
practice strong environmental ethics across the public land domain.
    As one of the major recreation groups that are permitted into 
designated wilderness, we remain perplexed that we were shut out of the 
``collaborative'' process in the campaign to achieve introducing this 
bill and move it forward. This is problematic with a number of bills 
promoting wilderness designations that don't first go through an agency 
public process. The federal legislative ``public process'' often is 
much more based on special interest screening. It is safe to say that 
our biggest complaint is one of not being given any consideration when 
we tried to give input on the development of the various Pratt bills 
introduced by the House and later by the Senate.
    One champion of inclusive processes in the agencies is none other 
than the new USFS Associate Chief, Mary Wagner. It was uplifting to our 
organization to see Ms Wagner present the USFS position on this bill as 
she has been a friend to all of the recreation community including 
horse and stock users when she was Regional Forester for Region 6 USFS. 
Our loss is Washington DC's gain. Associate Chief Wagner is someone we 
trust.
    We would like to ask that the amendments suggested by the USFS be 
implemented. Please exclude the first 3 miles of the Pratt Valley trail 
from wilderness designation. One of the most difficult issues for pack 
and stock trail volunteers is the inability to use chainsaws to clear 
trails in USFS wilderness even though chainsaws are supposed to be 
allowed as a minimum tool necessary for administration. Indeed this was 
one of the public selling points for the Wild Sky Wilderness by Senator 
Murray. However, the truth is that the use of chainsaws, even in a 
specific annual managed window of time, is very difficult to get 
permission for operating in USFS wilderness areas partially due to a 
cultural history of successful opposition by NGO groups. The reason 
this is a bigger deal for horsemen than hikers is that logs across a 
trail can put your animals at serious risk of injury or block passage 
since stock cannot scramble over logs. With shrinking budgets, there 
are fewer available crews, both volunteer and paid, that are able to 
clear trails effective by crosscut saws alone.
    Another option with this problem is to put stronger language in the 
bill clarifying the minimum tool use similar to the National Park 
Service standard. We would like to see the following language in this 
bill.

          (3) OTHER ADMINISTRATION--

                  (A) IN GENERAL-In accordance with the Wilderness Act 
                and subject to any terms and conditions determined to 
                be necessary by the Secretary, within land designated 
                as wilderness by subsection (a)--

                          (i) HORSEBACK RIDING--Nothing in this 
                        subtitle precludes horseback riding in, or the 
                        entry of recreational or commercial saddle or 
                        pack stock, and
                          (ii) TRAIL MAINTENANCE--In accordance with 
                        House Report 95-540 of P.L. 95-237, 1978, the 
                        use of minimum tools for administration are 
                        recognized which provide for access while 
                        enhancing wilderness character.

    As with the USFS Forest Service comments, we would like to see the 
DNR parcels excluded from being included within the wilderness 
boundary.
    Similar to the USFS concerns, we would like remaining roadbeds 
within the proposed boundaries fully decommissioned and restored to a 
condition that best meets the intent of the 1964 Wilderness Act in that 
all included areas have wilderness characteristics. We do have strong 
concerns about designating logged over lands as wilderness since these 
areas clearly do not meet the intent of the Wilderness Act except in 
limited situations in order to prevent cherry stemming. This appears to 
be the case with this bill but all effort should be made to bring the 
lands of concern up to pristine condition.
    Finally, we are concerned about the designation of the Middle Fork 
Snoqualmie River that is adjacent to the Middle Fork Snoqualmie River 
Road as ``scenic'' under the Wild and Scenic Rivers Act. We would 
support a designation of ``recreation''. In Washington State, many of 
the major arterials that access trail systems are in river drainages. 
Weather conditions being what they are, washouts and slides are 
commonplace. However it has become increasingly difficult to complete 
the engineering and secure funding for maintaining roads, and adding a 
federal protective designation to the area that a road prism is in just 
makes it that much more difficult to complete all of the steps needed 
to repair a road. Currently Washington has unrepaired sections of major 
trailhead access roads that date back to 2003. One, the Suiattle River 
Road, is under legal challenge by NGO groups, and a reason stated is an 
existing Wild and Scenic River designation for the river. These types 
of challenges, successful or not, make us take a hard look at 
protective restrictions being placed on an area that includes a major 
road prism, particularly for either the ``wild'' or ``scenic'' 
categories of the Wild and Scenic River Act.
    Thank you for providing an opportunity for BCHW to give comment on 
this bill.
                                 ______
                                 
The Confederated Tribes of the Warm Springs Reservation of 
                                                    Oregon,
                                    Warm Springs, OR, May 18, 2011.
Hon. Ron Wyden,
Chairman.
Hon. John Barrasso,
Ranking Member, Committee on Energy and Natural Resources, Subcommittee 
        on Public Lands and Forests, SD-304 Dirksen Senate Office 
        Building, U.S. Senate Washington, DC.
    Dear Chairman Wyden and Ranking Member Barrasso:
    As Chairman of the Tribal Council of the Confederated Tribes of the 
Warm Springs Reservation of Oregon (CTWSRO or Tribes), I am writing to 
express the CTWSRO's opposition to S. 607, the ``Cathedral Rock and 
Horse Heaven Wilderness Act of 2011.'' I ask that this statement be 
recorded in the Subcommittee's May 18, 2011 hearing record on S. 607.
    We oppose S. 607 because it is not addressing our Tribe's ancient 
and extensive rights and interests in the area. More specifically, the 
CTWSRO objects to--

          1) The haste with which S. 607 is being advanced, overriding 
        CTWSRO's issues and expressions of concern;
          2) The lack of any customary federal wilderness study or 
        inventory, which is essential for the CTWSRO to make informed 
        decisions about the bill;
          3) The placing at risk CTWSRO's historic resources 
        (archeological and cultural treasures);
          4) The elimination of thousands of federal acres upon which 
        we rely to exercise our Treaty rights;
          5) The lack of access to the remaining federal lands in the 
        area, upon which we also rely to exercise our Treaty rights; 
        and
          6) What appears to be no consensus among stakeholders in this 
        legislation.

    The lands involved in S. 607, south of the hamlet of Clarno on the 
western side of the John Day River and Basin, Oregon, are fully within 
the territory ceded by our Tribes in the Treaty of Middle Oregon of 
June 25, 1855. It is, in fact, at the heart of our territory since time 
immemorial, and is subject to our Treaty's perpetual reserved rights to 
hunt, gather roots and berries, and pasture our stock on all unclaimed 
lands within the Treaty territory. Our Tribes have always been 
principal occupants of the area, and continue so today, with CTWSRO 
individual and Tribal trust allotments throughout the vicinity. We have 
Treaty fishing rights in the John Day River and treaty fishing sites 
along the River. We are also principal land owners, as exemplified by 
the Pine Creek Conservation Area just north and across the John Day 
River from Cathedral Rock.
    The Tribes are very engaged land managers in the area. Pine Creek 
Conservation Area is managed for a wide range of conservation purposes. 
It is a key piece of property around which the Spring Basin wilderness 
was established just two years ago. The Tribes were a significant party 
in the Spring Basin legislation, actively participating and 
collaborating in that effort with other parties, such as the Oregon 
Natural Desert Association (ONDA), who today, in pursuing Cathedral 
Rock--Horse Heaven, cite Spring Basin as a prime example of how well 
they work with others on wilderness issues.
    Customarily the CTWSRO supports wilderness and is pleased to work 
cooperatively in its development and passage, as exemplified by the 
Spring Basin wilderness, the Oregon Badlands wilderness, the Mount Hood 
wilderness, the upper John Day wilderness, and numerous other 
wilderness and public lands undertakings. Within our own Reservation, 
where we rely on timber harvest as a principal source of tribal revenue 
and employment, we manage for sustainability and have set aside many 
thousands of acres as our own wilderness designation.
    Yet the proponents of the Cathedral Rock--Horse Heaven wilderness 
and land consolidation proposal did not properly inform the CTWSRO of 
their plans or invite us to participate in the proposal's development, 
particularly in the critical early stages when land transactions were 
being proposed and ultimately settled upon. Such exclusive conduct 
threatens our Treaty resources and sensitive environmental values for 
the potential benefit of commercial interests.
    This quiet, private development of the proposal is underscored in a 
Cathedral Rock--Horse Heaven article on ONDA's website at http://
onda.org/defending-desert-wilderness/john-day-wilderness that says, 
paraphrasing, that people long familiar with the John Day area maybe 
hadn't heard of these two new ONDA-proposed wilderness areas, because, 
as ONDA states, ``they existed before only as topographical features.'' 
Certainly, they have never been identified as federal wilderness study 
areas, nor have they received any comprehensive inventory and impact 
evaluation.
    In getting together privately to allocate the lands for exchange, 
the proponents had to be very aware of CTWSRO interests in the area. 
ONDA has extensive experience working with the Tribes on wilderness 
issues just across the River on Spring Basin, and the proponents' 
Cathedral Rock-Horse Heaven proposal information packet, under a Warm 
Springs heading, notes that there are ``several known cultural sites in 
the area.'' The ONDA website article on the proposal is even more 
specific, stating ``the history of the area also is rich and 
intriguing: a significant number of archeological sites, including 
pithouse villages, stone tool sites, and rock-art pictographs are 
scattered across the landscape.'' Certainly, as the proponents were 
extolling the very elements of our history as part of ``an incredible 
heritage for public lands recreationists,'' they had to be aware of the 
CTWSRO's significant, even compelling, interests in the area. It is 
very dismaying to see the proponents actively converting our heritage, 
the very elements of our history, to that for public land 
recreationists where we were not invited to participate. The proponents 
are avoiding the customary wilderness studies and inventories that 
would provide us more information about the exact scope of those 
interests.
    The proponents' determination not to have the CTWSRO at the table 
during their development of the proposal is important because, when 
they unveiled the proposal to the public and Congress, it was a done 
deal, a complete package with all the land transfers already agreed 
upon and locked down in maps and equalized valuations. With the 
proponents already locked in agreement on how they were divvying-up the 
land, there has not been any open and realistic opportunity for other 
interested parties, such as the CTWSRO, to engage in any significant 
revisions of the transfer of parcels, even if we had been in possession 
of an inventory needed for an informed evaluation. After the 
essentially finalized proposal was unveiled in late October 2009, the 
proponents presented it to Congress in late November 2009 and 
legislation was introduced in late January 2010. A hearing, scheduled 
for March 2010, was postponed and then reset on short notice in April. 
The CTWSRO were not invited to testify, and the BLM did not present or 
submit any testimony.
    From our Tribes' first knowledge of the Cathedral Rock--Horse 
Heaven proposal, we have cautioned its authors about our interests in 
the area and urged that a comprehensive study or inventory be 
conducted. Last Congress, when the initial Cathedral Rock--Horse Heaven 
bill, S. 2963, was proposed for Committee mark-up August 4, 2010, the 
CTWSRO wrote the bill's sponsor specifically withholding judgment on 
the bill because of its lack of a resource inventory.
    The Tribes' concerns about the need for a thorough inventory were 
more than confirmed on April 12 of this year when the BLM shared--for 
the first time--the raw data of a 1984-85 archaeological sample survey 
of the area with the Tribes and Congressional staff in a meeting at 
Warm Springs. That data showed at least sixty historic properties 
(archaeological and historic) within BLM administered lands within a 
portion of S. 607's area, where all of these sites will shift to 
private ownership, out of federal protection, pursuant to S. 607. 
Please bear in mind this is just a sample survey of the area, and it 
was conducted in 1984-85 under standards considerably less rigorous 
than today.
    When this information was presented, its meaning was clearly 
evident to all: that the lands in S. 607 involve a great number of 
archeological and cultural sites, including sites of considerable 
importance. There was extensive discussion on how to proceed, and it 
was generally accepted, we believe, by all in the room, including the 
Congressional staff present, that the raw data from the BLM's 1984-85 
sample survey should be synthesized into a report, that the report 
should be reviewed, and the potential need for a wilderness study or 
inventory evaluated before S. 607 moves further. Nobody in that meeting 
disputed that understanding. In the meeting, the BLM roughly estimated 
producing such a synthesis would take at least three months. On April 
29, 2011, the CTWSRO communicated that understanding and time line in a 
letter to S. 607's sponsors. Now, it appears to us that the BLM's data, 
that the understanding believed to be reached in that April 12 meeting, 
and the CTWSRO's April 29 letter on that point, along with all the 
CTWSROs' earlier concerns about the same point, have been brushed 
aside, because today we are here in a Subcommittee hearing, for the 
record, on S. 607.
    We are very concerned about the fate that S. 607 poses for our 
historic and cultural sites. While vandalism, such as illegal pot 
hunting and grave robbing, are issues of national concern for both the 
Indian people and various federal agencies, the ONDA website article 
cited above touts our archeological sites as tourist attractions, and 
many sites we do not know about will likely shift out of federal 
protection to the privately owned lands of a heavily utilized youth 
camp. Neither of those prospects offer us any comfort, despite the 
proponents' half hearted offers to ``work with Warm Springs'' on some 
agreement or conservation easement regarding just ``several'' sites. 
Without the knowledge of just what and where our sites are on these 
lands, we are very reluctant to enter into some deal that, at best, 
might offer our history only a fraction of the protection it needs.
    Furthermore, the CTWSRO's cultural concerns extend beyond our 
archaeological resources. We are equally concerned with the location 
and abundance of those natural resources that tribal members are still 
utilizing today in the exercise of our explicit Treaty rights.
    In addition, we assert that the ``equalization'' of the lands 
transferred in S. 607 should be based on more than just money. We 
assert that the United States, as our trustee, owes our Tribe an 
obligation to preserve the federal acres containing our heritage and 
upon which the exercise of our Treaty rights depend. S. 607, instead of 
just making sure that the monetary value of the local land owners is 
kept equal, should also make sure that the federal acres available to 
us are kept equal. The land is important to us. Our Treaty rights to 
hunt, gather and graze lose value to us with the loss of each acre of 
federal land, and S. 607 is expected to shear off approximately 2,344 
federal acres, as upland federal acres considered to be worth less 
money are traded away for fewer acres down by the river that are viewed 
as more valuable. Those fewer, more recreationally attractive acres 
will draw more public recreationists or be traded away to a youth 
group, sacrificing larger and less visited tracts that may be important 
to our people. Again, the lack of an inventory of the cultural plants 
(fiber, food, and medicinal) and wildlife resources that are essential 
elements of our Treaty rights further deprives us of the ability to 
represent our interests in the area.
    In addition to reducing the total number of federal acres available 
for CTWSRO Treaty rights, CTWSRO also objects to S. 607 because it 
further limits our access to the remaining federal acres in the area. 
The upland blocks of federal land are being traded away for fewer acres 
either accessible only by river or accumulated in a remote area. 
Existing public roads, already insufficiently maintained, could be 
closed as they traverse greater stretches of private land. There will 
certainly be less reason for the county to maintain the roads or even 
keep them open. With Cathedral Rock basically cut off except by boat, 
and Horse Heaven available only by a few tentative roads, tribal 
members could, as a practical matter, lose Treaty use access to 
thousands of additional acres.
    Finally, Warm Springs objects to the rush in which the proponents 
are seeking to push the Cathedral Rock--Horse Heaven wilderness and 
land consolidation proposal through Congress. As ONDA states in its 
November 23, 2008 Memorandum for Oregon Congressional Delegation re 
Oregon Desert Wilderness--Current and Future Opportunities, ``we know 
from our experience with Badlands and Spring Basin, as well as the 
Steens Mountain Cooperative Management and Protection Act, wilderness 
does not happen overnight'' (emphasis added). It continues that the 
Spring Basin wilderness ``exemplified the ability to work with diverse 
allies and bring bipartisan interests together to accomplish wilderness 
protection'' and how ONDA is ``building support from the ground up--
meeting with landowners and local stakeholders'' on Cathedral Rock and 
Horse Heaven. From our perspective, that simply isn't happening here, 
just to the contrary of the proponents' claims to patience and 
cooperation.
    We know of no reason justifying the rushed consideration of S. 607. 
We fail to understand why, for the suddenly essential convenience of 
several large local land owners and the recreating public, our 
ancestral sites have to be put at risk, why customary land inventories 
are being denied us, why our Treaty land base has to be diminished, and 
why our Treaty access to remaining federal lands is being essentially 
foreclosed. Why are these things being taken from us, the Confederated 
Tribes of Warm Springs, the oldest inhabitants of the area, when

    --the proposal involves land never designated as wilderness study 
            area,
    --there is no customary wilderness inventory that would help inform 
            interested parties, such as the Confederated Tribes of Warm 
            Springs, about the extent of their interests in the area,
    --outside parties, despite the proponents knowing their significant 
            interests in the area, were not included in the development 
            of the proposal,
    --the privately developed proposal is presented by its proponents 
            as a complete, basically unalterable package that is 
            difficult, if not impossible, for other interested parties 
            to revise, especially if the other interested parties are 
            not being provided information customarily provided and 
            needed for those revisions, and then
    --the proponents press hard to speed the proposal through Congress, 
            seeking to prevent the due deliberation they acknowledge is 
            the usual case to build consensus on wilderness issues.

    The Confederated Tribes of Warm Springs oppose. S. 607, and ask 
that it not advance until the issues we raise above are addressed.
            Sincerely,
                                    Stanley ``Buck'' Smith,
                                                          Chairman.
Statement of the Lower Columbia Canoe Club * The Conservation Alliance 
  * Oregon Natural Desert Association Friends of the John Day Basin * 
Hells Canyon Preservation Council * Siskiyou Project Audubon Society of 
 Portland * The Wilderness Society * Soda Mountain Wilderness Council 
       Oregon Hunter's Association, Redmond Chapter * Oregon Wild
    Our organizations, representing sportsmen and conservationists 
through Oregon, support the passage of S. 607, the Cathedral Rock and 
Horse Heaven Wilderness Act of 2011. This bill will consolidate 
isolated public lands, increase public access, and protect over 17,000 
acres of wilderness in the John Day River basin.
    The Cathedral Rock Wilderness proposal will protect 8,322 
contiguous acres of amazing scenic vistas, recreational areas, and fish 
and wildlife habitat along the John Day Wild and Scenic River. 
Currently, this area is a checkerboard mix of public and private lands, 
making management and public access difficult. Through the exchanges 
proposed in this legislation with key private landowners, valuable 
public lands will be consolidated along the river and four new miles of 
public river access will be created for hunters, anglers, and 
recreationists.
    The Horse Heaven Wilderness proposal takes a similar land ownership 
pattern and proposes 8,978 acres of wilderness to protect a beautiful 
landscape of sagebrush and grassland habitat for mule deer, elk, John 
Day pincushion cactus, and a number of other sensitive plants and 
animals. This area provides outstanding opportunities for primitive 
recreation and solitude.
    Taken together, the Cathedral Rocks and Horse Heaven proposals will 
increase road access to BLM lands by 1,661 acres and increase river 
access to 7,501 acres, thereby doubling the public's access, from 9,112 
acres to 18,245 acres. This will provide our members new places to 
explore and recreate on large tracts of wilderness.
    Patchwork areas of public lands are ineffective in preserving 
wildlife species' migration patterns and breeding grounds. By 
integrating these areas in this legislation, we will ensure that fish 
and wildlife populations are sustained for future generations.
    Oregon currently is under-represented for public lands protected as 
wilderness. While Idaho, Washington and California have 9, 10, and 15 
percent of their state land area protected as wilderness, Oregon only 
has 4 percent. Thank you for your continued work to support this 
proposal, showing that wilderness protection is an important public 
value for our state and our future.
                                 ______
                                 
                                                      June 1, 2011.

Hon. Ron Wyden,
Chairman.
Hon. Jon Barasso,
Ranking Member, Committee on Energy and Natural Resources, Subcommittee 
        on Forests and Public Lands, SD-304 Dirksen Senate Office 
        Building, U.S. Senate, Washington, DC.
    Dear Senator Chairman Wyden and Ranking Member Barasso:
    Thank you for the opportunity to submit testimony regarding Senate 
Bill 607 on behalf of Young Life, Cherry Creek Ranch, Antone Ranch, and 
the Oregon Natural Desert Association (ONDA). ONDA is a 1,500 member 
non-profit organization whose mission is to protect, defend and restore 
Oregon's high desert. Young Life is one of the largest Christian youth 
organizations in the United States and serves tens of thousands of 
children every year. Young Life and Cherry Creek Ranch both own lands 
immediately adjacent to the proposed Wilderness areas. The Antone Ranch 
in neighboring Wheeler County includes key acreage proposed for 
exchange that will augment proposed wilderness areas and improve public 
lands management for both the Bureau of Land Management (BLM) and the 
US Forest Service (USFS). We support the leadership of Senators Wyden 
and Merkley in advancing S. 607, the Cathedral Rock and Horse Heaven 
Wilderness Act of 2011.
    Cathedral Rock and Horse Heaven are natural treasures that merit 
permanent protection as Wilderness. Located on the John Day Wild and 
Scenic River, the proposed Cathedral Rock and Horse Heaven wilderness 
areas are a tapestry of rolling hills, providing spectacular vistas of 
the river and the surrounding landscape. This unique wild area offers a 
profusion of desert wildflowers in the spring, along with recreational 
opportunities for boaters, hikers, horseback riders, hunters, 
botanists, and other outdoor enthusiasts. The area also provides 
valuable habitat for a variety of wildlife including Rocky Mountain 
elk, cougars, mule deer, bobcats, mountain bluebirds, prairie falcons 
and golden eagles.
    Over 100 years ago, The Dalles-Canyon City military road agreements 
left a checkerboard pattern of BLM lands in this area with over 8,000 
acres inaccessible to the public and tribal sovereign nations. This has 
created confusion and a legacy of poaching and trespass onto private 
lands--a key issue that we hope to resolve with the proposed exchanges 
and associated agreements. This proposal was negotiated in a way that 
doubles the amount of land available for public use while respecting 
the concerns of neighboring private landowners.
    One of the two areas, the nearly 8,000-acre Cathedral Rock 
Wilderness, will be accessed only via the John Day River. This is not a 
new concept in the region. All three wilderness study areas located 
downstream of Cathedral Rock, including Northpole Ridge, Thirtymile, 
and Lower John Day, are also accessed exclusively by river. In fact, 
the greatest demand on public lands in the John Day Basin is for 
recreational use on the river corridor. Thousands of boaters and 
anglers float this stretch of the river every year. The Cathedral Rock 
proposal will expand public ownership by over four miles along the John 
Day River and open up numerous new river campsites to the public. At 
the same time, the nearby Horse Heaven Wilderness consolidates over 
9,000 acres in a way that will provide clearly-marked boundaries along 
with two trailheads for parking and recreational camping uses. This 
will create additional hiking and hunting opportunities while also 
reducing conflicts between public and private lands. The amount of 
public land accessible via Gosner Road alone would increase from 7,400 
to 9,500 acres; what's more these lands will be configured in a 
contiguous block rather than disparate, small parcels that are largely 
inaccessible by the public. It is the combination of the Horse Heaven 
and Cathedral Rock areas--one featuring road access and another 
featuring river-only access--that makes this a winning proposal.
    The proposal considered today is the result of years of 
collaboration by numerous parties with diverse interests including 
neighboring landowners, county governments, conservationists, and 
recreationists. As such the proposal accomplishes several important 
objectives including: 1) permanent protection of Cathedral Rock and 
Horse Heaven as wilderness, 2) consolidation of land ownership that 
improves public and private land management, and 3) improved access to 
otherwise inaccessible public lands.
    This process began from the ground-up; first by addressing concerns 
of the adjacent landowners, and then by contacting public land 
stakeholders to understand how the identified areas would be utilized. 
For example, in August 2009 during early critical stages of the 
process, we contacted representatives of the adjacent Pine Creek 
Conservation Area and Confederated Tribes of Warm Springs Reservation 
of Oregon (CTWSRO) to understand how this proposal might affect them.
    As a result, on November 5, 2009 we conducted a follow-up meeting 
with CTWSRO in which we agreed to remove from the proposal nearly 1,500 
acres of wilderness-quality lands from the east side of the John Day 
River due to tribal concerns about future access and use of its 
property and ceded lands. This subsequently resulted in a name change--
from Coffin Rock to Cathedral Rock--due to Coffin Rock being removed 
from the proposal.
    Young Life is committed to working with CTWSRO to address cultural 
resource concerns by excluding from consideration discrete parcels with 
highly sensitive cultural resources and developing access agreements 
and/or conservation easements as necessary to accommodate tribal 
concerns. We also recognize the need to appropriately safeguard 
cultural resources on BLM parcels slated to be converted to private 
ownership. The proponents of this bill remain firmly committed to 
supporting CTWSRO's efforts to identify, analyze and permanently 
protect these sites from disruption or development. The cultural 
heritage of the John Day Basin must be preserved for future 
generations.
    With a re-organization of public and private lands ownership in the 
region, we have recognized the need to understand the values associated 
with the affected lands. A November 2008 review of public lands values 
in the area was conducted by the BLM for portions of these areas (10 07 
13 Horse Heaven OR-054-015 and sub-unit E of 10 07 13 Spring Basin WSA 
Additions OR-054-017) and are available at http://www.blm.gov/or/
districts/prineville/plans/inventas.php. In addition, the BLM has for 
decades collected data for cultural, historical and botanical resources 
that is secured at the Prineville District Office. ONDA also has made 
available geo-referenced photo points of the proposed areas to aid 
stakeholders in decision making. This information helps establish a 
solid foundation for the future evaluation of environmental and 
cultural values that will be necessitated by S. 607. We continue to 
encourage any stakeholder to contact us to arrange field visits to any 
of the sites that may require more in-depth clarification of pertinent 
natural resources. We understand there are certain privacy and security 
issues involved with cultural resource visits and are willing to 
accommodate the CTWSRO as needed.
    We believe that this proposal is a worthy representation of the 
mutually-beneficial solutions that are possible when diverse 
stakeholders come together. One need look no further than the raw 
numbers to see the public benefits of this proposal. Prior to the 
exchange, the public can access only 9,112 acres of their land via 
roads or the John Day River. Once this proposal is accomplished, 
available public lands will be expanded to 18,245 acres. That doubles 
the amount of land available for public use in the area. Instead of the 
public attempting to access to small chunks or narrow swaths of land 
that are currently inadequate for activities such as hunting and 
hiking, the public will have access to two sizeable blocks of 
contiguous land, each totaling thousands of acres. This is a win for 
the public, a win for adjacent landowners, a win for the legacy of 
public land conservation in Oregon, and we hope you will lend your 
support.
    All land subject to these exchanges will be appraised by certified 
professionals in order to establish objective and quantifiable values. 
The end result will be equal land values to ensure that both the public 
and private landowners will not unduly benefit nor be short changed at 
the expense of the other. Any discrepancy in acreage will be due to the 
generally-recognized higher value attributed to river front parcels vis 
a vis correspondingly lower-valued upland acreage. Additionally, all 
land proposed for exchange will be subject to procedures prescribed by 
the National Environmental Policy Act in order to identify and index 
all cultural, historical, botanical, HAZMAT, archeological, and land 
tenure issues that may need resolving prior to consummating the 
exchanges.
    Chairman Wyden, thank you for introducing Senate Bill 607. We 
strongly support the legislation and look forward to working with your 
staff and the Committee to finalize a bill that will consolidate land 
management and protect the Cathedral Rock and Horse Heaven areas as 
enduring wilderness to be widely enjoyed by generations of people.
            Sincerely,
                           Brent Fenty, Executive Director,
                                        Natural Desert Association.
                                Rich Ellerd, Ranch Manager,
                         Oregon YoungLife, Washington Family Ranch.
                     Matt Smith Shawn Jones, Ranch Manager,
                                   Cherry Creek Ranch Antone Ranch.
                                 ______
                                 
                                  Jefferson County,
                                    Board of Commissioners,
                                          Madras, OR, May 25, 2011.
Hon. Ron Wyden,
Senator, 223 Dirksen Senate Office Building, Washington, DC.
RE: Cathedral Rock and Horse Heaven Wilderness Act of 2011 (S.607).

    Dear Senator Wyden: We are writing to voice our concern about the 
current configuration of the Cathedral Rock Wilderness Area. The Board 
of Commissioners supported this legislation and sent your office a 
letter of support on October 14, 2009 (attached) (originally called 
Coffin Rock Wilderness Area). The Board must withhold its support in 
its current configuration, since public road access to the Cathedral 
Rock Wilderness Area has been modified.
    The Board of Jefferson County Commissioners can only support these 
wilderness proposals if public access is allowed from the adjacent 
public roads as it was presented to us on August 5, 2009. The Cathedral 
Rock Wilderness Area, as presented to the Board of Commissioners, 
promised public access from the John Day River and from the Muddy Ranch 
road.
    The Jefferson County Board of Commissioners is in full support of 
the consolidation public and private land, but only if it will lead to 
equal or increased public access.
    The County is willing to discuss with the local land owners a 
seasonal closure of the entire length of the Muddy Ranch Road during 
adverse road conditions and hunting season. We look forward to speaking 
with you further about the current configuration if you have any 
questions.
            Sincerely,
                                                Mike Ahern,
                                                             Chair.
                                             Wayne Fording,
                                                      Commissioner.
                               Attachment
                                  Jefferson County,
                                    Board of Commissioners,
                                      Madras, OR, October 14, 2009.
Hon. Ron Wyden,
Senator, 223 Dirksen Senate Office Building, Washington, DC.
    Dear Senator Wyden:
    We are writing to encourage you to introduce the Coffin Rock and 
Horse Heaven Wilderness legislation, including the proposed land 
exchanges. The Jefferson County Commissioners support both of these 
wilderness proposals.
    One of Jefferson County's most precious resources is our public 
lands. Unfortunately, we face limited public access to those lands. 
This legislation and the proposed land exchanges will provide better 
public access to these areas. This will be a significant means of 
attracting visitors to Jefferson County to help support our local 
economy.
    We look forward to speaking with you further about the proposal if 
you have any questions.
            Sincerely,
                                             John Hatfield,
                                                  Commission Chair.
                                                Mike Ahern,
                                                      Commissioner.
                                             Wayne Fording,
                                                      Commissioner.
                                 ______
                                 
                        Intertribal Timber Council,
                                        Board of Directors,
                                        Portland, OR, May 19, 2011.
Hon. Ron Wyden,
Chairman.
Hon. John Barrasso,
Ranking Member, Committee on Energy and Natural Resources, Subcommittee 
        on Public Lands and Forests, SD-304 Dirksen Senate Office 
        Building, U.S. Senate, Washington, DC
Re: Statement submitted for the May 18, 2011 Subcommittee hearing 
record on S. 896, the ``Public Lands Service Corps Act of 2011.''

    Dear Chairman Wyden and Ranking Member Barrasso:
    As President of the Intertribal Timber Council (ITC), I am writing 
to express the ITC's support for S. 896, the ``Public Lands Service 
Corps Act of 2011,'' and in particular its establishment of an Indian 
Youth Service Corps. I request that this testimony be made a part of 
the Subcommittee's formal May 18, 2011 hearing record on S. 896.
    The ITC is a 35 year old association of 70 forest owning tribes and 
Alaska Native organizations that collectively manage more than 90% of 
the 18 million acres of timberland and woodland that are under BIA 
trust management. Our vision and mission are dedicated to improving the 
management of Indian Country's natural resources. We are proud to 
announce that with the scholarships we will award this year, we will 
have been able to provide over $500,000 to help Indian youth pursue 
college degrees in natural resource fields. We view the establishment 
of an Indian Youth Service Corps as a vitally important step towards 
reconnecting future generations with their lands and cultures.
    The Public Lands Service Corps Act of 2011 is a welcome initiative 
that would train and employ idle, unemployed and unengaged youth in 
natural resource projects intended to address the health and management 
crisis afflicting America's natural resources. Over the longer term, 
the Act would encourage youth to pursue careers in administering and 
managing our collective heritage of America's lands, resources, and 
waters into the future.
    S.896 is especially important for Indian Tribes. A burgeoning young 
population in Indian Country is facing a profound lack of employment 
possibilities while cultural foundations are being undermined by a 
deteriorating natural resource base. By specifically authorizing Indian 
Youth Service Corps programs that can perform work directly on Indian 
lands, S.896 focuses the multiple benefits of the Public Lands Service 
Corps Act on Indian Country with the essential recognition of tribal 
authority over Indian lands and vital spiritual, economic, and cultural 
connections to the health of tribal lands and resources.
    Through the Indian Youth Service Corps and conservation related 
projects on Indian land, the bill establishes a path for increased 
tribal involvement in managing the trust estate under the fiduciary 
responsibility of the United States.
    As we understand the bill,--

  <bullet> Indian Youth Service Corps (IYSC) organizations must be a 
        ``qualified youth or conservation corps'' (QYCC), a defined 
        term.
  <bullet> The tribe may set up its own QYCC or engage an outside 
        nonprofit organization's QYCC, so long as the majority of the 
        participants are Indian youth.
  <bullet> The tribe must pass a resolution describing its agreement 
        with the QYCC, whether tribal or outside, the tribe or the QYCC 
        must file an application with the Secretary, and the projects 
        on tribal land must be approved by the tribe.
  <bullet> The IYSC must meet all QYCC requirements, and all IYSC 
        participants must meet national standards, including a maximum 
        (but interruptible) service term of two years.
  <bullet> Service terms for IYSCs are to be established, presumably 
        within the two-year maximum, in consultation with the affected 
        tribe or the ``tribally authorized organization'' (Sec. 
        209(b)(2) of the Youth Conservation Corps Act as amended by S. 
        896). [NOTE: the term ``tribally authorized organization,'' 
        initially used with regard to IYSCs in earlier iterations of 
        the legislation, has otherwise been replaced in S. 896 with 
        ``qualified youth or conservation corps.'' ``Tribally 
        authorized organization'' also appears in S. 896 at the tribal 
        preference provision (Sec. 204(d)(3)).]
  <bullet> In the national award of cooperative agreements to QYCCs or 
        competitive grant awards to tribes, preference may be given to 
        IYSCs in areas where a substantial portion of members are 
        economically, physically, or educationally disadvantaged.
  <bullet> The Interior Secretary shall set up an IYSC liaison.
  <bullet> The Secretary may hire former IYSC participants on a non-
        competitive basis.

    We applaud the breadth of ``appropriate natural and cultural 
resources conservation projects'' that may be carried out by IYSCs, 
including continuation of many forestry activities and extending 
coverage to scientific, cultural, and visitor and interpretation 
services.
    We note that the existing definition of ``Indian lands'' upon which 
projects may be conducted does not appear to extend to trust land that 
is not reservation land. Tribes generally can acquire land within or 
without their reservations in trust, but those lands, which customarily 
are not allotments, are not necessarily designated as ``reservation'' 
land, which can be a separate step, particularly if the land is outside 
the tribe's reservation. We suggest you amend S. 896 to have the 
definition of Indian lands include a more comprehensive description of 
trust land by inserting a new (B) (and relettering (B) through (E)) as 
``(B) land title to which is held by (i) the United States in trust for 
an Indian, an individual of Indian or Alaska Native ancestry who is not 
a member of a federally recognized Indian tribe, or an Indian tribe, or 
(ii) an Indian, an individual of Indian or Alaska Native ancestry who 
is not a member of a federally recognized Indian tribe, or an Indian 
tribe subject to a restriction by the United States against 
alienation;''. This definition is taken from the National Indian Forest 
Resources Management Act (PL 101-630, Title II, Section 304(10)).
    The ITC appreciates the opportunity to provide this testimony. We 
hope our comments prove helpful in the Subcommittee's consideration of 
S. 896 and ultimate enactment of this important legislation.
            Sincerely,
                                                Joe Durglo,
                                                         President.
                                 ______
                                 
                     National Congress of American Indians,
                                      Washington, DC, May 31, 2011.
Hon. Ron Wyden,
Chairman.
Hon. John Barrasso,
Ranking Member, Committee on Energy and Natural Resources, Subcommittee 
        on Public Lands and Forests, SD-304 Dirksen Senate Office 
        Building, U.S. Senate, Washington, DC.
Re: Statement submitted for the May 18, 2011 Subcommittee hearing 
record on S. 896, the ``Public Lands Service Corps Act of 2011.''

    Dear Chairman Wyden and Ranking Member Barrasso:
    The National Congress of American Indians writes to express our 
support for S. 896, the ``Public Lands Service Corps Act of 2011.'' The 
Act is a welcome initiative that would train and employ young men and 
women in natural resource projects to help manage America's natural 
resources for future generations, and is supported by NCAI resolution 
ABQ-10-090 (attached).*
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    The Act's establishment of a national Indian Youth Service Corps 
(IYSC) and grant program would enable Indian youth to carry out 
projects on Indian lands that are shaped and determined by Indian 
tribal governments, and would offer tribes and their young people a 
wide array of benefits. It would provide tangible rays of hope for 
Indian youth, too many of whom are exposed to substance abuse, suicide, 
obesity, educational non-attainment, and unemployment.
    The IYSC programs would: reconnect tribal youth with their lands 
and cultural heritage; foster pride in their peoples, lifeways, lands, 
natural resources, and themselves; and create internship and career 
opportunities to protect and serve their peoples, governments, lands, 
economies, and traditions. Tribal natural resource departments would 
receive assistance for their underfunded and understaffed programs, and 
train future generations to carry on practices that blend ancestral 
traditions with modern techniques.
    We offer one suggestion to improve the effectiveness of the IYSC 
program. Sec. 207(a) states that IYSC programs can carry out 
appropriate natural and cultural resources conservation projects on 
Indian lands. (emphasis added). While we believe that the emphasis 
should remain on projects on Indian lands, we note that some natural 
resources activities undertaken by tribes are on lands adjacent to or 
near Indian lands, in collaboration and agreement with other 
governments and affected entities, and may involve cultural resources, 
sacred sites, treaty rights, and other tribal interests. We ask that 
IYSC programs be extended to such lands with the agreement of other 
stakeholders with interests in those lands. As ecosystems often 
transcend political boundaries and collaboration ever more necessary in 
the challenging budgetary context, such projects provide holistic and 
effective approaches to natural resources protection.
    Positive collaborations between tribes and others already exist 
across the country. Tribes in states of Washington and Oregon work 
regularly with other entities to protect the health of the rivers, 
estuaries, coastal and inland waters. The Pueblo of Jemez and the Santa 
Fe National Forest have a memorandum of understanding for collaborative 
management of aboriginal lands in the forest.
    If the IYSC program were extended beyond Indian lands, tribal youth 
will work on projects under the Tribal Forest Protection Act, which 
enables tribes to engage in forest restoration of federal public forest 
lands adjacent to tribal forests. Tribes with small land bases will 
empower their youth to protect sacred sites and other culturally 
significant resources located outside reservation boundaries.
    Therefore, we ask that IYSC programs be extended to include 
conservation projects on Indian lands and on other lands in which 
tribes have treaty protected interests, sacred sites, and natural 
resources of cultural significance. We understand that this would 
require the agreement of those with interests in such lands.
    We appreciate the opportunity to provide this testimony. We hope 
our comments prove helpful in the Subcommittee's consideration of S. 
896 and ultimate enactment of this important legislation.
            Sincerely,
                                   Jacqueline Johnson-Pata,
                                                Executive Director.
                                 ______
                                 
 Statement of Gregory E. Conrad, Executive Director, Interstate Mining 
                     Compact Commission, on S. 897
    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission. I am submitting this 
statement for the record on behalf of the Interstate Mining Compact 
Commission (IMCC) and the National Association of Abandoned Mine Land 
Programs (NAAMLP) regarding a legislative hearing on S. 897, a bill to 
amend the Surface Mining Control and Reclamation Act of 1977 (SMCRA) to 
clarify that uncertified States and Indian tribes have the authority to 
use certain payments for noncoal reclamation projects and for the acid 
mine drainage set-aside program. Both of the organizations I represent 
strongly support this critical amendment to SMCRA.
    The Interstate Mining Compact Commission (IMCC) is an organization 
of 24 states located throughout the country that together produce some 
95% of the Nation's coal, as well as important hardrock and other 
noncoal minerals. Each IMCC member state has active mining operations 
as well as numerous abandoned mine lands within its borders and is 
responsible for regulating those operations and addressing mining-
related environmental issues, including the reclamation of abandoned 
mines. Over the years, IMCC has worked with the states and others to 
identify the nature and scope of the abandoned mine land problem, along 
with potential remediation options.
    The NAAMLP is a tax-exempt organization consisting of 30 states and 
Indian tribes with a history of coal mining and coal mine related 
hazards. These states and tribes are responsible for 99.5% of the 
Nation's coal production. All of the states and tribes within the 
NAAMLP administer abandoned mine land (AML) reclamation programs funded 
and overseen by the Office of Surface Mining (OSM) pursuant to Title IV 
of the Surface Mining Control and Reclamation Act (SMCRA, P.L. 95-87).
    Mr. Chairman, nationally, abandoned mine lands continue to have 
significant adverse effects on the environment. Some of the types of 
environmental impacts that occur at AML sites include subsidence, 
surface and ground water contamination, erosion, sedimentation, 
chemical release, and acid mine drainage. Safety hazards associated 
with abandoned mines account for deaths and/or injuries each year. 
Abandoned and inactive mines, resulting from mining activities that 
occurred over the past 150 years, are scattered throughout the United 
States. The sites are located on private, state and public lands.
    Over the years, several studies have been undertaken in an attempt 
to quantify the hardrock AML cleanup effort. In 1991, IMCC and the 
Western Governors' Association completed a multi-volume study of 
inactive and abandoned mines that provided one of the first broad-based 
scoping efforts of the national problem. Neither this study, nor any 
subsequent nationwide study, provides a completely reliable and fully 
accurate on-the-ground inventory of the hardrock AML problem. Both the 
1991 study and a recent IMCC compilation of data on hardrock AML sites 
were based on available data and professional judgment. While the data 
is seldom comparable between states due to the wide variation in 
inventory criteria, they do demonstrate that there are large numbers of 
significant safety and environmental problems associated with inactive 
and abandoned hardrock mines and that remediation costs are very large.
    Across the country, the number of abandoned hardrock mines with 
extremely hazardous mining-related features has been estimated at 
several hundred thousand. Many of the states and tribes report the 
extent of their respective AML problem using a variety of descriptions 
including mine sites, mine openings, mine features or structures, mine 
dumps, subsidence prone areas, miles of unreclaimed highwall, miles of 
polluted waterways, and acres of unreclaimed or disturbed land. Some of 
the types of numbers that IMCC has seen reported in our Noncoal Mineral 
Resources Survey and Report and in response to information we have 
collected for the Government Accountability Office (GAO) and others 
include the following gross estimated number of abandoned mine sites: 
Alaska--1,300; Arizona--80,000; California--47,000; Colorado--7,300; 
Montana--6,000; Nevada--16,000; Utah--17,000 to 20,000; New York--
1,800; Virginia--3,000 Washington--3,800; Wyoming--1,700. Nevada 
reports over 200,000 mine openings; New Mexico reports 15,000 mine 
hazards or openings; Minnesota reports over 100,000 acres of abandoned 
mine lands and South Carolina reports over 6,000 acres.
    What becomes obvious in any attempt to characterize the hardrock 
AML problem is that it is pervasive and significant. And although 
inventory efforts are helpful in attempting to put numbers on the 
problem, in almost every case, the states are intimately familiar with 
the highest priority problems within their borders and also know where 
limited reclamation dollars must immediately be spent to protect public 
health and safety or protect the environment from significant harm.
    Today, state agencies are working on hardrock abandoned mine 
problems through a variety of limited state and federal funding 
sources. Various federal agencies, including the U.S. Environmental 
Protection Agency, Bureau of Land Management, U.S. Forest Service, U.S. 
Army Corps of Engineers and others have provided some funding for 
hardrock mine remediation projects. These state/federal partnerships 
have been instrumental in assisting the states with our hardrock AML 
work and, as states take on a larger role for hardrock AML cleanups 
into the future, we will continue to coordinate with our federal 
partners. However, most of these existing federal grants are project-
specific and do not provide consistent funding. For states with coal 
mining, the most consistent source of AML funding has been the Title IV 
grants under the Surface Mining Control and Reclamation Act (SMCRA). 
Section 409 of SMCRA allows states to use these grants at high priority 
non-coal AML sites. The funding is generally limited to safeguarding 
hazards to public safety (e.g., closing mine openings) at hardrock 
sites.
    In December 2006, Congress significantly amended the SMCRA AML 
program to, among other things, distribute funds to states in an amount 
equal to that previously allocated under SMCRA but never appropriated. 
However, while Section 409 was not changed or amended in any way, the 
Interior Department, through both a Soliticor's Opinion (M-37014) and 
final rule (73 Fed. Reg. 67576), has now interpreted SMCRA to prohibit 
this enhanced funding from being used for noncoal projects. This is a 
significant blow to states such as New Mexico, Utah and Colorado that 
have previously used SMCRA AML funds to address many of the more 
serious hardrock AML problems within their borders. In fact, some of 
the noncoal AML projects previously undertaken by these states have 
been recognized by OSM for their excellence pursuant to the agency's 
national AML awards program.
    S. 897 would remedy the Interior Department's unfortunate 
interpretation of the 2006 Amendments and as such we strongly support 
the bill. That interpretation not only disregards the fact that section 
409 was left unamended by Congress, it is also inconsistent with 
assurances repeatedly given to the states and tribes by OSM during the 
consideration of the legislation that noncoal work could continue to be 
undertaken with these AML funds. The interpretation would also have the 
unacceptable result of requiring states and tribes to devote funds to 
lower priority coal sites while leaving dangerous noncoal sites 
unaddressed. While OSM will argue that this may impact the amount of 
funding available to uncertified states to address high priority coal 
problems, Congress did not seem overly concerned with this result but 
rather deferred to its original framework for allowing both high 
priority coal and noncoal sites to be addressed.
    In its final rule implementing the 2006 amendments to SMCRA (at 73 
Fed. Reg. 67576, et seq.), OSM continued to abide by its argument that 
``prior balance replacement'' funds (i.e the unappropriated state and 
tribal share balances in the AML Trust Fund) are fundamentally distinct 
from section 402(g) moneys distributed from the Fund. This, according 
to OSM, is due to the fact that these prior balance replacement funds 
are paid from the U.S. Treasury and have not been allocated under 
section 402(g)(1). This is a distinction of convenience for the 
Interior Department's interpretation of the 2006 Amendments and has no 
basis in reason or law. The fact is, these funds were originally 
allocated under section 402(g)(1), are due and owing pursuant to the 
operation of section 402(g)(1), and did not change their ``color'' 
simply because they are paid from a different source. Without the 
operation of section 402(g)(1) in the first place, there would be no 
unappropriated (i.e. ``prior'') state and tribal share balances. The 
primary reason that Congress appears to have provided a new source for 
paying these balances is to preserve a balance in the AML Trust Fund to 
1) generate continuing interest for the UMW Combined Benefit Trust Fund 
and 2) to insure that there was a reserve of funding left after fee 
collection terminates in 2021 to address any residual high priority 
historic coal problems. There was never an intent to condition or 
restrict the previously approved mechanisms and procedures that states 
and tribes were using to apply these moneys to high priority coal and 
noncoal problems. To change the rules based on such a justification is 
inappropriate and inconsistent with law.
    The urgency of advancing this legislation has been heightened, Mr. 
Chairman, by statements in OSM's proposed budget for Fiscal Year 2012. 
Therein, OSM is proposing to further restrict the ability of states to 
expend AML funds on noncoal reclamation projects. This will apparently 
occur as part of a legislative proposal that the Administration 
supposedly intends to pursue in the 112th Congress. While the primary 
focus of that proposal will be the elimination of future AML funding 
for states and tribes that are certified under Title IV of SMCRA (which 
we adamantly oppose), OSM is also proposing to establish a hardrock AML 
reclamation fee in order to ``hold each industry [coal and noncoal] 
responsible for the actions of its predecessors.'' We are uncertain 
exactly what OSM has in mind with respect to this aspect of the 
legislative proposal, but we suspect it has to do with clarifying the 
very issue that is the subject of S. 897. And while there may be merit 
for a hardrock AML reclamation fee, the potential for enacting this fee 
in the near future is highly unlikely. In the meantime, we are losing 
valuable time and resources by failing to authorize the use of 
unappropriated state and tribal share balances to address what even OSM 
has characterized as ``a legacy of abandoned mine sites that create 
environmental hazards.'' It should be kept in mind, in this regard, 
that the availability of these funds for noncoal reclamation work will 
expire after FY 2014 when the last of the unappropriated state/tribal 
share funds will have been distributed.
    For the same reasons that Congress needs to clarify this 
misinterpretation for noncoal AML work, it should also do so for the 
acid mine drainage (AMD) set aside program. Section 402(g)(6) has, 
since 1990, allowed a state or tribe to set aside a portion of its AML 
grant in a special AMD abatement account to address this pervasive 
problem. OSM's recent policy (and now regulatory) determination is 
denying the states the option to set aside moneys from that portion of 
its grant funding that comes from ``prior balance replacement funds'' 
each year to mitigate the effects of AMD on waters within their 
borders. AMD has ravaged many streams throughout the country, but 
especially in Appalachia. Given their long-term nature, these problems 
are technologically challenging to address and, more importantly, are 
very expensive. The states need the ability to set aside as much 
funding as possible to deal with these problems over the long term. 
Congress clearly understood the magnitude of this challenge given the 
fact that it increased the amount of money that states could set aside 
for this purpose from 10 to 30 percent in the 2006 Amendments. We 
therefore strongly support the inclusion of language in S. 897 that 
will correct the current policy interpretation by Interior and allow 
the use of unappropriated state and tribal share balances (``prior 
balance replacement funds'') for the AMD set aside, similar to the use 
of these balances for noncoal work.
    Over the past 30 years, tens of thousands of acres of abandoned 
mine lands have been reclaimed, thousands of mine openings have been 
closed, and safeguards for people, property and the environment have 
been put in place. There are numerous success stories from around the 
country where the states' AML programs have saved lives and 
significantly improved the environment. Suffice it to say that the AML 
Trust Fund, and the work of the states pursuant to the distribution of 
monies from the Fund, have played an important role in achieving the 
goals and objectives set forth by Congress when SMCRA was first 
enacted--including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining. Passage of S. 897 
will further these congressional goals and objectives.
    In support of our position on S. 897, we also request that you 
include for the record the attached resolution (No. 07-8)* adopted by 
the Western Governors that urges the continued use of funds collected 
or distributed under Title IV of SMCRA for the reclamation of high 
priority, hard-rock abandoned mines. This resolution is in support of 
the Western Governors' policy statements B.4 and B.5.
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
    Thank you for the opportunity to present our views on S. 897. We 
welcome the opportunity to work with you to complete the legislative 
process and see this bill become law.
                                 ______
                                 
  Statement of John Bemis, Secretary, New Mexico Energy, Minerals and 
                Natural Resources Department, on S. 897
    Thank you for the opportunity to present a statement on this 
important topic.
    We appreciate the efforts of Chairman Bingaman and this Committee 
to propose legislation that will clarify the intent of Congress under 
Title IV, the Abandoned Mine Land (AML) program, of the Surface Mining 
Control and Reclamation Act of 1977 (SMCRA).
    The State of New Mexico strongly supports S. 897. This bill will 
make only minor changes to SMCRA to correct a misinterpretation of 
SMCRA by the Office of Surface Mining of the Department of the 
Interior. S. 897 will return New Mexico and other states to their 
longstanding role under SMCRA of directing abandoned mine land grant 
funds to the highest priority needs at either coal or non-coal 
abandoned mines.
    New Mexico has a long and distinguished history of both coal and 
hard rock mining. Centuries of mining have left a legacy of thousands 
of mine openings and other mine hazards that pose serious threats to 
public health and safety. We estimate that there are more than 15,000 
unreclaimed mine hazards across New Mexico. Expanding populations and 
increasing recreational uses are increasing the exposure to abandoned 
mine dangers. An example of the AML problem is the numerous abandoned 
uranium mines located primarily in areas of Native American habitation 
in northwestern New Mexico.
    The primary funding source for AML projects in New Mexico has been 
Title IV of SMCRA. SMCRA includes provisions for the safeguarding of 
abandoned coal mines and high priority non-coal mines. Funding from the 
fees collected on coal production has helped New Mexico address some of 
our most hazardous abandoned mines. Since the inception of the SMCRA 
AML program, New Mexico has addressed approximately 4,000 mine features 
and reclaimed over 700 acres of mine-disturbed land.
    Section 409 of SMCRA (30 U.S.C. 1239) allows the States to use AML 
funds to address high priority non-coal abandoned mines as well as coal 
mines. While New Mexico still has abandoned coal mines that need 
reclamation, well over 90% of New Mexico's 15,000 mine hazards are 
located at abandoned hard rock mines. In the past few decades, all of 
the fatalities associated with abandoned mines in New Mexico have 
occurred at non-coal mines; sadly, another fatality occurred last year 
at an abandoned non-coal mine in New Mexico. With our SMCRA grants, New 
Mexico has balanced the need to reclaim abandoned coal mines with the 
need to address the significant and immediate health and safety threats 
posed by numerous non-coal mines. In the 6 years prior to the 2006 
amendments, New Mexico's $1.5 million annual grant was roughly split 
between coal (55%) and non-coal (45%) projects.
    In December 2006, Congress passed the Tax Relief and Health Care 
Act of 2006 which included a re-authorization of the AML fee on current 
coal production and other amendments to the SMCRA Title IV program. One 
of the major changes was the distribution to the States and Tribes of 
``state share'' funds that had been previously allocated to the States 
under SMCRA, but had never been appropriated by Congress. For New 
Mexico, this amounts to approximately $20 million in additional AML 
funds distributed over a 7 year period, and presents a tremendous 
opportunity to address many of the high priority coal and non-coal 
abandoned mine threats.
    Under SMCRA, the ``state share'' funds were available for use by 
the States at abandoned coal mines and, under Section 409, also at high 
priority abandoned non-coal mines. In the 2006 legislation, Congress 
did not amend Section 409. However, the Interior Department issued an 
opinion in December 2007 prohibiting the additional AML funds from 
being used at non-coal abandoned mine projects. The Office of Surface 
Mining followed with a rule, adopted on November 14, 2008, which 
codified the Interior Department's interpretation.
    The new interpretation flies in the face of Congressional intent. 
Had the funds been appropriated to the State when they were originally 
allocated to the State, there would have been no question that these 
funds could be used for either coal or non-coal projects. Congress did 
not amend Section 409 of SMCRA in the 2006 amendments. However, the 
Interior Department has latched onto Congress' use of a new funding 
source to distribute the previously allocated funds to claim that the 
intent changed.
    Since the beginning of the AML program, New Mexico, Utah and 
Colorado have used the SMCRA funds to reclaim abandoned coal mines 
while also addressing the significant health and safety threats posed 
by numerous non-coal mines. With these funds, New Mexico successfully 
completed a number of innovative projects that were recognized by OSM. 
In the Cerrillos Hills between Santa Fe and Albuquerque, we closed 
dozens of non-coal mines along trails in a park and protected park 
visitors from mine hazards while showcasing the mining history. This 
project received a national award from OSM. New Mexico also received 
the highest national award from OSM for the Real de Delores project in 
the Ortiz Mountains which safeguarded mine openings within one of the 
oldest gold mining districts in America.
    The impact of the Interior Department's interpretation is 
significant. While New Mexico's annual AML grant increased to over $4 
million, three million can only be spent on coal projects only and the 
remainder can be spent on either coal or non-coal projects. As a 
result, needed projects at dangerous abandoned hard rock mines have 
been delayed and funds diverted to lower priority abandoned coal mines.
    This loss of flexibility also comes at a particularly significant 
time for New Mexico. For the past several years, the State has been 
using a variety of funding sources to conduct an inventory of abandoned 
uranium mines, many of which are located in areas occupied by Native 
Americans in northwestern New Mexico. The impacts of these uranium 
mines on the nearby residents, particularly the Navajo people, have 
received national attention and have been the subject of hearings 
before the House Oversight and Government Reform Committee. New Mexico 
is working cooperatively with the Navajo Nation and the U.S. EPA to 
coordinate work on abandoned uranium mines in areas near the Navajo 
Indian Reservation. With the new AML money available, we have a unique 
opportunity to finally address some of these sites which have caused 
great harm to the Navajo communities. With the Interior Department's 
restrictions, our options become much more limited, because the money 
for non-coal projects is much more limited. We hope you will prevent 
that reduction in funds for eliminating hazardous non-coal risks.
    S. 897 will allow New Mexico and other western states to address 
some of the highest priority threats to public health and safety from 
non-coal mines while continuing to address the inventory of priority 
coal mines. Allowing more funds to be spent on non-coal mines may also 
result in more jobs. Our experience has been that non-coal AML projects 
are much more likely to attract partners and additional funding thus 
increasing the size of the project and the number of jobs generated. 
The uranium mine assessment project mentioned above is an example. New 
Mexico began the project with limited SMCRA funds and has attracted 
private, state and other federal funds to more than triple the size of 
the project.
    This legislation has broad support in New Mexico from the mining 
industry, the environmental community and public officials. At the 2010 
New Mexico Legislative Session, both houses of the New Mexico 
Legislature passed Memorials that requested the Congress to expedite 
legislation to allow uncertified states to use SMCRA funds on non-coal 
abandoned mine reclamation. Both Memorials passed all Committees and 
full chambers without a single dissenting vote.
    Mr. Chairman and members of the Committee, we thank you for this 
opportunity to present New Mexico's position on S. 897. We urge the 
Committee to correct the misinterpretation of SMCRA and restore the 
flexibility needed by the States. We look forward to working with the 
Committee in the future.
                                 ______
                                 
   Statement of Jon J. Indall, Counsel, the Uranium Producers of New 
                           Mexico, on S. 897
    Senator Bingaman has introduced S. 897 to request that Congress 
amend the Surface Mining Control and Reclamation Act of 1977 
(``SMCRA'') to clarify that the allocated funding for SMCRA can be used 
by non-certified states for non-coal reclamation projects. This 
amendment is critical for New Mexico to begin remediating abandoned 
mines and also to help create new jobs in the process.
    New Mexico has a long and notable history of both coal and hard 
rock mining. When the Atomic Energy Commission (``AEC'') created the 
Uranium Procurement Program in the 1950's, many companies in New Mexico 
answered the call for uranium to fuel the federal government's defense 
needs for nuclear weapons. A uranium mining industry was created almost 
over night. New Mexico became the largest uranium producing state in 
the nation, with over 380 million pounds produced for the nuclear 
weapons program and subsequently for nuclear power reactors. Today, the 
uranium industry in New Mexico is reemerging to once again help meet 
our country's increasing demands--this time to provide the uranium that 
will be essential to growing a nuclear energy supply in the United 
States.
    The Uranium Procurement Program initiated by the AEC was very 
successful and resulted in the operation of numerous mines throughout 
New Mexico, mainly in Cibola and McKinley Counties. Unlike today, there 
were few standards and no mine closure requirements. As the Procurement 
Program met its production goals in the mid-1960's, most of the small 
operators gave way to the larger companies and the small company and 
individuals' mine sites were abandoned with little or no thought to 
reclamation. These uranium sites, along with a number of other hard 
rock abandoned mines, make up a legacy of abandoned hard rock mines in 
New Mexico. Since these mines were created to fulfill an urgent 
national defense priority, the federal government has a responsibility 
to assist in reclaiming the abandoned mines in New Mexico and other 
western states.
    The Uranium Producers of New Mexico (``UPNM'') has interest in S. 
897 because its group of five uranium exploration and development 
companies are working to permit uranium mining and milling operations 
in New Mexico in the next two to four years. Current members of 
``UPNM'' include: Laramide Resources Ltd., Neutron Energy, Inc., Rio 
Grande Resources Corporation, Strathmore Resources (U.S.) Ltd., and 
Uranium Resources, Inc. While none of these companies have ever mined 
in New Mexico, they recognize that the abandoned mines from mining 
activity that took place between the 1950's and 1970's are a concern of 
many citizens in the state. These companies have, therefore, advocated 
for the remediation of New Mexico's legacy mines.
    The UPNM has worked closely with the Mining and Minerals Division 
(``MMD'') of the New Mexico Energy, Minerals and Natural Resources 
Department on various state projects related to SMCRA. The MMD has 
identified a total of 166 abandoned uranium mines over which the agency 
has jurisdiction in New Mexico. In cooperation with MMD, UPNM funded 
the surveying of the first 21 of these sites located on state, federal 
and private lands. The MMD has since contracted the surveying of an 
additional 128 sites.
    The purpose of surveying the abandoned mines is to allow the MMD to 
prioritize these sites for reclamation. Currently, 149 of the 166 sites 
have now been surveyed. If the SMCRA funding is made available for non-
coal projects, the MMD can complete the surveying of the remaining 17 
sites and begin addressing the clean-up at the surveyed sites 
determined to be of highest priority. This would not only mean the 
creation of shovel-ready jobs but also the beginning of a resolution to 
a fifty-year legacy left behind in New Mexico--a legacy that is the 
result of the federal government's call for uranium production for its 
nuclear defense needs dating back to the 1960's.
    The primary source of funding for Abandoned Mine Land (``AML'') 
projects in New Mexico has come from SMCRA. Under this program, New 
Mexico has successfully addressed approximately 4,000 mine features and 
reclaimed over 700 acres of mine-disturbed lands. New Mexico has 
successfully balanced the use of its SMCRA funds to accomplish 
reclamation on both coal and non-coal reclamation sites. The state 
needs to continue this important work, and the additional federal 
funding that would be made available by the enactment of S. 897 would 
allow the state to do so.
    In December 2006, Congress amended SMCRA to allow the distribution 
of reclamation funds to states in an amount equal to that previously 
authorized to the states under SMCRA. Despite the uncontroverted fact 
that Congress did not amend the ability of states to use these funds 
for non-coal, hard rock mines, the Department of the Interior (``DOI'') 
made such a determination. The passage of S. 897 is now necessary to 
once again amend SMCRA to clarify that the appropriated funding can be 
used for non-coal reclamation sites.
    Although the many stakeholders in New Mexico do not always agree on 
hard-rock mining issues, there is overwhelming agreement that New 
Mexico needs the SMCRA funding to help address the legacy of abandoned 
mines in our state. The New Mexico State Senate and House of 
Representatives passed memorials last year urging the New Mexico 
congressional delegation to collaborate to do what is necessary to 
amend SMCRA. The New Mexico Mining Association and the Association of 
Commerce and Industry have also written letters to the delegation 
supporting the amendment. The McKinley County Commission also passed a 
resolution in support of amending SMCRA. These memorials, letters and 
the resolution are attached for your review and the record.
    The UPNM appreciates the opportunity to present this statement in 
support of S. 897 and would also appreciate a recommendation from this 
Subcommittee to move the legislation forward.
    Thank you.
                                 ______
                                 
                      Association of Commerce and Industry,
                                   Albuquerque, NM, March 15, 2010.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Bldg., Washington, DC.
    Dear Senator Bingaman:

Subject: Amending the Surface Mining Control and Reclamation Act of 
1977

    An opportunity exists for New Mexico to resolve many of the legacy 
issues from the uranium-mining era that spanned the 1950s to the 1970s. 
Through an amendment to the Surface Mining Control and Reclamation Act 
of 1977 (SMCRA), New Mexico would be able to use monies for non-coal 
reclamation projects and dedicate those funds to clean-up of abandoned 
uranium mines. This clean-up would also help create shovel-ready jobs 
in New Mexico.
    The Association of Commerce and Industry of New Mexico (ACI) 
supports the proposed federal legislation and encourages you and all 
the members of our delegation in Washington to seek passage of the 
SMCRA amendment.
    ACI also supports the return of the uranium industry in New Mexico. 
Amending SMCRA could bring renewed production, which would provide the 
state with a reliable source of revenue and help relieve New Mexicans 
from future tax burdens.
    The members of ACI hope you agree to lend your support and 
influence to this effort.
            Sincerely yours,
                                   Dr. Beverlee J. McClure,
                                                   President & CEO.
                                 ______
                                 
                                 State of Missouri,
                           Department of Natural Resources,
                                                      May 31, 2011.
Hon. Ron Wyden,
Chairman, Public Lands and Forests Subcommittee, Senate Energy and 
        Natural Resources Committee, Room SD-304, Washington, DC.
    Dear Mr. Chairman:
    I am writing in support of S. 897, a bill that would amend Title 1V 
of the Surface Mining Control and Reclamation Act of 1977 (SMCRA) to 
clarify that uncertified states and Indian tribes have the authority to 
use certain payments under Title IV for noncoal reclamation projects 
and for the acid mine drainage (AMD) set-aside program under SMCRA. As 
you know, Title IV of SMCRA was amended in 2006 to, among other things, 
distribute funds to states and tribes in an amount equal to that 
previously allocated under SMCRA but never appropriated. Following 
enactment of these amendments, the Interior Department, through both a 
Solicitor's Opinion (M-37014) and a final rule (73 Fed. Reg. 67576), 
interpreted these amendments to prohibit this enhanced funding from 
being used for noncoal projects and the acid mine drainage set-aside 
program.
    S. 897 would rectify the Interior Department's inappropriate 
interpretation of the 2006 Amendments to align with congressional 
intent and as such, we strongly endorse and support the bill. For 
further explanation and justification of our position, we refer you to 
the statement submitted by the Interstate Mining Compact Commission and 
the National Association of Abandoned Mine Land Programs for the record 
of your Subcommittee's May 18th legislative hearing on S. 897. Given 
that the funds addressed by this proposed clarification of the 2006 
Amendments will only be available for noncoal AML reclamation projects 
and for the AMD set-aside program for three more fiscal years, we urge 
expeditious action on S. 897.
    Thank you for your leadership on this important legislation. If you 
require additional information, please do not hesitate to contact me at 
(573) 751-4041.
            Sincerely,
                                     Mike Larsen, Director,
                                 Missouri Land Reclamation Program.
                                 ______
                                 
                             New Mexico Mining Association,
                                    Santa Fe, NM, January 27, 2010.
Hon. Harry Teague,
U.S. Congressman, 1505 Longworth House Office Building, Washington, DC.
Subject: Amending the Surface Mining Control and Reclamation Act of 
1977

    Dear Representative Teague:
    An opportunity exists for New Mexico citizens to resolve many of 
the legacy issues from the uranium-mining era that spanned four 
decades. Through an amendment to the Surface Mining Control and 
Reclamation Act of 1977 (SMCRA), New Mexico will be able to use monies 
for non-coal reclamation projects and dedicate those funds to cleanup 
of uranium mines.
    The New Mexico Mining Association supports the proposed federal 
legislation and encourages you and all the members of our delegation in 
Washington to seek passage of the amendment.
    I would add that the companies wishing to conduct operations in New 
Mexico did not create the legacy concerns. However, these mining 
companies have shown a commitment to addressing the cleanup and are 
working with all affected stakeholders to find solutions to resolve 
this issue.
    The members of the New Mexico Mining Association hope you agree to 
lend your support and influence to this effort.
            Sincerely,
                                                Mike Bowen,
                                                Executive Director.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
